Office of Inspector General
Semiannual Report to Congress
April 1 — September 30, 2011
A MESSAGE FROM THE INSPECTOR GENERAL


Not since the mail crisis of the 1960s, when the Chicago Post Office ground to a halt and citizens lost
confidence in the mail, has the fate of the nation’s postal system captured the attention of the American
public. That crisis 40 years ago provided the impetus for Congress, the administration, and postal
management to work toward a massive overhaul of a system steeped in neglect and patronage. It led to
the reorganization of the old Post Office Department into today’s self-supporting U.S. Postal Service. This
history lesson reminds us that difficult times can lay the foundation for much-needed change.

The Postal Service’s current financial troubles are of an historic proportion. As it struggles with record
losses and burdensome federal benefits payments, it must adapt its business model for a new era of
communications. These struggles have landed the Postal Service and its efforts on the front pages of
newspapers and evening newscasts. But these news reports don’t always reveal the full depth or breadth
of the Postal Service’s challenges; nor its opportunities for success.

In our semiannual report for the period ending September 30, 2011, submitted pursuant to the Inspector
General Act, we consider the vast array of current and future challenges facing the Postal Service. We also
reflect on potential solutions to these challenges, some of which rest in the Postal Service’s hands, while
others will require assistance from Congress and the administration. We look at the Postal Service’s recent
plans to right-size its infrastructure, and we present some of our own work around network optimization.
In many cases, our work supports the Postal Service’s recent conclusions. In some instances, though, we
recommend even more aggressive action.

From our ongoing work we summarize ways the Postal Service could further reduce its costs and note
opportunities for it to gain traction in a fast-changing digital market. In the second half of the report, we
highlight audits and reviews that address risks in the strategic, financial, and operational areas of the
Postal Service. We also include investigations conducted during this reporting period that contributed to
safeguarding the Postal Service’s revenues and assets and helped deter postal crimes.

We have appreciated the Postal Service’s willingness to engage in collaborative and complementary efforts
with our office on the major questions before the organization.

Postal Service executives often work closely with their Office of Inspector General (OIG) counterparts
to identify problems and collaborate on solutions, which this report highlights. These efforts have
resulted in significant savings opportunities. During this period, we issued 196 audit reports and
management advisories, and the Postal Service accepted 90 percent (117 of 130) of the OIG’s significant
recommendations.

Our traditional OIG role of rooting out fraud, waste, and misconduct to protect the Postal Service’s bottom
line and maintain confidence in the mail is also highlighted in this report. Our dedication to integrity,
accountability, and transparency means that no person in the organization is above the law or immune
from the ethical standards set by the Postal Service. In this period, we conducted 2,129 investigations that
led to 333 arrests and nearly $21 million in fines, restitutions, and recoveries, of which about $11 million
went to the Postal Service.

This year marks our 15th year as an independent Office of Inspector General for the Postal Service. We
have evolved from a traditional OIG to one that leverages innovation, technology, and collaborative tools.
We have fostered a “mission-oriented” environment, which focuses on assignment-based evaluations
and performance metrics. This approach centers more on outcomes and outputs, rather than behavioral
management. We also rely on technology, such as data mining and game-theory modeling, to look at the
whole agency and target the biggest problems for further probing. These tools allow us to spot potential
problems before they occur and set up preventive measures.

The OIG — with the support of the Governors, Congress, and Postal Service management —
will continue to play a key role in maintaining the integrity and accountability of America’s postal service, its
revenue and assets, and its employees through its audit and investigative body of work.




                                                                                 David C. Williams
                                                                                 Inspector General
SUMMARY OF PERFORMANCE
April 1 — September 30, 2011
AUDITS
Reports issued                                                                                                                 196
Significant recommendations issued                                                                                             130
Total reports with financial impact                                                                                            38
     Funds put to better use                                                                                  $11,468,105,234
     Questioned costs                                                                                          $2,008,390,107
     Revenue Impact                                                                                           $2,226,560,093
TOTAL FINANCIAL IMPACT                                                                                    $ 15,703,055,434


INVESTIGATIONS1
Investigations completed                                                                                                  2,129
Arrests                                                                                                                        333
Indictments/informations                                                                                                       342
Convictions/pretrial diversions   2
                                                                                                                               355
Administrative actions                                                                                                    1,105
Cost avoidance                                                                                                    $81,651,755
Fines, restitutions, and recoveries                                                                               $20,989,706
     Amount to Postal Service3                                                                                     $11,014,849


OIG HOTLINE CONTACTS
Telephone calls                                                                                                        34,291
E-mail                                                                                                                 16,949
Standard Mail                                                                                                            1,122
Voice mail messages                                                                                                       356
Facsimile – FAX                                                                                                           257
National Law Enforcement Communications Center                                                                            307
TOTAL CONTACTS                                                                                                        53,282



1
    Statistics include joint investigations with other law enforcement agencies.
2
    Convictions reported in this period may be related to arrests in prior reporting periods.
3
    Amounts include case results of joint investigations with other OIG, federal, state, and local law enforcement entities.
TABLE OF CONTENTS
Acronym Guide............................................................................................................................................................. 2
Mission Statement........................................................................................................................................................ 3

THE ROAD AHEAD............................................................................................................. 5
Financial Management.................................................................................................................................................. 6
Optimization of the Network........................................................................................................................................... 7
Simplification.............................................................................................................................................................. 10
Modernization through Innovation................................................................................................................................. 11

SIGNIFICANT AUDIT WORK BY RISK CATEGORY................................................................ 14
Strategic Risk............................................................................................................................................................. 14
Financial Risk............................................................................................................................................................. 15
Operational Risk.......................................................................................................................................................... 17

SIGNIFICANT INVESTIGATIVE WORK................................................................................. 22
Financial Crimes......................................................................................................................................................... 22
Workers’ Compensation Fraud..................................................................................................................................... 23
Delay, Destruction, and Theft of Mail By Employees....................................................................................................... 25
Contract Fraud............................................................................................................................................................ 26
Official Misconduct..................................................................................................................................................... 26
Executive Investigations and Internal Affairs.................................................................................................................. 27

APPENDICES................................................................................................................... 29
APPENDIX A — Reports with Quantifiable Potential Monetary Benefits........................................................................... 30
             Report Listing..................................................................................................................................... 33
APPENDIX B — Findings of Questioned Costs.............................................................................................................. 39
APPENDIX C — Recommendations That Funds Be Put to Better Use.............................................................................. 40
APPENDIX D — Other Impacts.................................................................................................................................... 41
APPENDIX E — Reports with Significant Recommendations Pending Corrective Actions.................................................. 43
APPENDIX F — Significant Management Decisions in Audit Resolution.......................................................................... 62
APPENDIX G — Status of Peer Review Recommendations............................................................................................ 62
APPENDIX H — Investigative Statistics......................................................................................................................... 63
APPENDIX I — Summary of U.S. Postal Inspection Service Investigative Activities Under Title 39 USC 3005 & 3007........ 64
APPENDIX J — Closed Congressional and Board of Governors’ Inquiries........................................................................ 65

SUPPLEMENTAL INFORMATION....................................................................................... 70
Freedom of Information Act.......................................................................................................................................... 70
Workplace Environment............................................................................................................................................... 70
ACRONYM GUIDE




                                            Acronym Guide
                                            Here is a quick guide to acronyms used in this reporting period.

                                            APPS: Automated Package Processing System                                 NALC: National Association of Letter Carriers

                                            APWU: American Postal Workers Union                                       NCSC: National Customer Support Center

                                            C&A: certification and accreditation                                      NDC: network distribution center

                                            CSRS: Civil Service Retirement System                                     NPV: net present value

                                            CSS: customer service supervisor                                          OA: Office of Audit

                                            DBCS: Delivery Barcode Sorter                                             OI: Office of Investigations

                                            DOL: U.S. Department of Labor                                             OWCP: Office of Workers’ Compensation Programs

                                            DEA: Drug Enforcement Administration                                      P&DC: processing and distribution center

                                            DWC: distribution window clerk                                            P&DF: processing and distribution facility

                                            eCBM: Electronic Conditional Based Maintenance                            PAEA: Postal Accountability and Enhancement Act of 2006
                                                                                                                            (also known as the Postal Act of 2006)
                                            EDDI: Electronic Data Distribution Infrastructure
                                                                                                                      PKI: Public Key Infrastructure
                                            EDI: Electronic Data Interchange
                                                                                                                      PRC: Postal Regulatory Commission
                                            EIR: Enterprise Information Repository
                                                                                                                      PVS: Postal Vehicle Services
                                            FEGLI: Federal Employees’ Group Life Insurance
                                                                                                                      RARC: Risk Analysis Research Center
                                            FEHB: Federal Employees Health Benefits
                                                                                                                      SBOC: Stations and Branches Optimization Consolidation
                                            FSS: Flats Sequencing System
                                                                                                                      SSA: sales and services associate
                                            GMU: George Mason University
                                                                                                                      TACS: Time and Attendance Collection System
                                            HCR: highway contract route
                                                                                                                      VMF: Vehicle Maintenance Facility
                                            LLV: long-life vehicles

                                            MTE: mail transport equipment




The following are among the many trademarks owned by the United States Postal Service: United States Postal Service®, U.S. Postal Service®, USPS®, First-Class Mail®, usps.com®, Click-N-
Ship®, Automated Postal Center®, APC®, Express Mail®, Priority Mail®, Standard Mail®, Parcel Post®, Media Mail®, Customized MarketMail®, Intelligent Mail®, Parcel Select®, Express
Mail International®, Quick, Easy, Convenient®, United States Postal Service Office of Inspector General™, Post Office™, Postal Service™, Signature Confirmation™, Certified Mail®, Delivery
Confirmation™, Registered Mail™, ZIP Code™, Carrier Pickup™, Priority Mail International®, First-Class Mail International®, Premium Forwarding Service®, Forever Stamp® and Postmaster
General™.




2 | Semiannual Report to Congress
                                                                                                     MISSION STATEMENT




MISSION STATEMENT
The mission of the U.S. Postal Service Office of Inspector General is to conduct and supervise
objective and independent audits, reviews, and investigations relating to Postal Service
programs and operations to:
 Prevent   and detect fraud, theft, and misconduct.
 Promote   economy, efficiency, and effectiveness.
 Promote   program integrity.
 Keep the Governors, Congress, and Postal Service management informed of problems,
  deficiencies, and corresponding corrective actions.




                                                                                                 April 1 — September 30, 2011 | 3
                                                                                                                                               THE ROAD AHEAD




THE ROAD AHEAD


The Postal Service faces the most difficult operating          universal service.
period in its 235-year history. The ways in which              Dramatic change is
Americans communicate have changed dramatically in             needed for the Postal
the past decade, with businesses and consumers readily         Service to remain
adopting new technologies that allow for instantaneous         viable into the 21st
communications. Today, 60 percent of Americans pay             Century.
their bills online compared to just 5 percent a decade
ago. Consumers are becoming increasingly comfortable           The implications of a
relying on their cell phones and smart devices to              failed Postal Service
conduct a variety of transactions, including those they        are enormous. First,
used to do by mail. Mobile phone and smart device              the Postal Service is
usage has skyrocketed in the past decade and reached           the one government
near saturation levels in the United States, as we now         agency that touches
have more wireless devices than citizens.                      every American
                                                               on a daily basis. It
The Postal Service’s storied past includes an impressive       provides affordable,
track record of success in the face of competing               accessible, and
communications technologies, such as the telegraph,            universal service
telephone, and fax machine. But the current situation          to 150 million
is different. The digital revolution is not the only threat    addresses, six days a
to the Postal Service’s long-term viability. A weakened        week. When a natural Americans are growing increasingly comfortable
                                                                                           using their mobile phones and smart devices to
economy has taken a toll on mail volumes and revenue,          disaster strikes a
                                                                                           communicate and conduct transactions.
and multiple statutory requirements that direct how the        region of the country,
Postal Service funds its benefits plans pose a unique          the Postal Service is
challenge to the Postal Service. It has exhausted its          often the only option for communicating with displaced
borrowing authority and it expects mail volume to              citizens. The Postal Service’s address management
continue to decline. By the middle of 2012, the Postal         system is the government’s tool for supporting and
Service may not be able to pay its bills.                      informing victims, and for guarding against fraud.
                                                               Secondly, the Postal Service is the foundation of a $1
The Postal Service ended fiscal year (FY) 2011 with a          trillion mailing industry that employs about 8.7 million
net loss of $5.1 billion, bringing its 5-year net losses       people and makes up 7 percent of the Gross Domestic
to a staggering $25 billion. While most of the losses in       Product. The Postal Service is the linchpin of a marketing
the past 5 years were due to the statutorily mandated          and distribution system through which small and large
schedule to prefund retiree health benefits, downward          businesses, nonprofit organizations, and consumers
trends in mail volume and revenue have also contributed        can transact business, advertise services, and distribute
to the current position. Mail volumes in FY 2011               products. It is a major driver of the nation’s economic
declined another 3 billion pieces to 168 billion, dropping     engine and an essential piece of its infrastructure.
total mail volume to levels not seen since 1992. Since
2007, mail volume has dropped about 44 billion pieces.         The Postal Service has endured multiple economic
                                                               recessions and a Great Depression. It has dealt with
 A lack of significant volume growth and a statutorily
                                                               numerous disasters, both natural and man made,
imposed price cap on most products (including those
                                                               which have interfered with mail delivery and strained
that do not cover their costs) restrict the Postal Service’s
                                                               the infrastructure. It has responded to these ordeals by
ability to earn sufficient revenues to cover its current
                                                               adapting and thriving, often despite popular predictions
costs. In short, the monopoly no longer pays for




                                                                                                                                      April 1 — September 30, 2011 | 5
FINANCIAL MANAGEMENT




                                         of expected failure or even its demise in the face of          government and private sector. Among the actions it has
                                         competition from new technologies.                             taken to conserve cash:
                                                                                                         It has reduced labor costs, including a 34 million
                                         The Postal Service can survive these current challenges,
                                         as well, but only with considerable change to its existing       workhour reduction in FY 2011. The result is an
                                         structure. As Postmaster General Patrick Donahoe                 estimated $1.4 billion in annual savings.
                                         concluded in testimony before a Senate oversight                Effective June 24, 2011, it suspended employer
                                         committee in September, “The Postal Service requires             contributions for the defined benefit portion of the
                                         radical changes to its business model if it is to remain         Federal Employees Retirement System (FERS) funding
                                         viable into the future.”                                         requirement, which is already overfunded by nearly
                                                                                                          $7 billion, conserving about $114 million every pay
                                         Our work indicates that the Postal Service can make              period (two weeks).
                                         the necessary improvements to remain a valuable
                                                                                                         It has increased the sales of property and equipment
                                         communications infrastructure, although the challenges
                                         are significant and the solutions not always universally         in FY 2011. Facilities revenues increased 23 percent
                                         popular or easy to implement. The solutions fall into four       over FY 2010.
                                         broad areas:                                                   The problem is that the Postal Service cannot currently
                                          Financial management
                                                                                                        generate sufficient funds to cover its expenses as it
                                                                                                        optimizes. Historically, it has paid for operations, its
                                          Optimization                                                universal service obligation, the address management
                                          Simplification                                              system, discounts, and unfunded mandates, such as the
                                                                                                        Alaska Bypass program, from revenues on the sale of
                                          Modernization through innovation
                                                                                                        postage and services. With volume in a steady decline
                                         This semi-annual report to Congress shares some of             and high fixed costs in its network and in delivery, the
                                         the insights we have gained from our extensive work            Postal Service cannot now cover its costs through the
                                         reviewing these challenges and the Postal Service’s key        sale of postage. Ultimately, substantial elements of the
                                         strategic initiatives to address them.                         finances necessary for the Postal Service’s sustainability
                                                                                                        are not under its own control. Devastating federal
                                                                                                        requirements for benefits prefunding and an aggressive
                                         FINANCIAL MANAGEMENT
                                                                                                        payment schedule mandated by law have threatened
                                         Despite its current liquidity crisis, the Postal Service has   the Postal Service’s ability to carry out its mission to the
                                         managed its cash skillfully for 40 years, setting aside an     American public. The Postal Service cannot meet all of
                                         unprecedented pension and health benefit prefunding of         its required tasks and make huge contributions to retiree
                                         $312 billion, which is substantially more than the federal     benefits plans while keeping price increases under the
                                                                                                        rate of inflation. Congress will have to act to free the
                                                                                                        Postal Service to secure its financial viability.
      Postal Service Annual Pension/Benefits/Disability Payments
                                                                                                        In September, Congress provided an extension to the
     Civil Service Retirement System Prefunding                                     None until 2017
                                                                                                        Postal Service for making its required $5.5 billion
     Federal Employee Retirement System Prefunding, 2010                                     $2.9 B     prefunding payment into its Retiree Health Benefits Fund
                                                                                                        (RHBF). The delay served to make the Postal Service’s
     Health Care Premiums for Retirees, 2010                                                 $2.2 B
                                                                                                        FY 2011 bottom line look less dismal, but it merely
     Health Care Prefunding Payment, 2010                                                    $5.5 B     postponed its cash depletion until later in 2012. Without
                                                                                                        comprehensive legislation, large losses will continue into
     Workers’ Compensation Payment, October 2011                                             $1.2 B
                                                                                                        the foreseeable future.
     Current Employees Health Benefits                                                       $5.1 B
                                                                                                        Our office has done a series of reports on the Postal
     Thrift Savings Plan Contributions                                                       $1.0 B     Service’s pension and retiree health plans, which
     Social Security Contributions                                                           $1.9 B     highlighted the exaggerated estimates, substantial

     TOTAL                                                                                 $19.8 B




6 | Semiannual Report to Congress
                                                                                                                                   OPTIMIZATION OF THE NETWORK




overcharges, and excessive prefunding levels. Our
reports found:
 The Postal Service has overpaid the Civil Service
  Retirement System (CSRS) by $75 billion.
 The Postal Service has overfunded the Federal
  Employee Retirement System (FERS) by $6.9 billion, a
  fact that the Office of Personnel Management (OPM)
  recognizes and is willing to fix.
 If the $82 billion in overcharges were applied to the
  RHBF, prefunding levels would already exceed 100
  percent prefunding by a wide margin. Once the plans
  are fully funded, the Postal Service could stop making
  the payments and annual expenses would come out
  of the funds as intended. The funds will continue
  receiving income from current contributions and
  interest from the Treasury Department.
 Putting the overfunding aside, the Postal Service
  has set aside about $312 billion for its pension
  and healthcare liabilities, or about 80 percent of an
                                                            Congress provided an extension to the Postal Service for making
  unprecedented goal of 100 percent prefunding.             its required $5.5 billion prefunding payment into its Retiree Health
                                                            Benefits Fund.
We also reviewed the Postal Service’s significant
real-estate holdings, which include buildings and land
in every major city, resort town, and high-rent district    employees, the lowest complement in more than 25
in the country. One solution would be to take the Postal    years. While it has reduced its head count significantly
Service’s real-estate holdings into consideration for       over the past decade, the physical network has changed
prefunding and declare these funds operational so the       little in that time despite how Americans’ mailing habits
Postal Service could stop making payments into them.        have changed. First-Class Mail volumes have dropped
These assets could be turned over to the Treasury           by nearly 30 percent in the past decade and Americans
Department to pay the remaining unfunded liabilities in     make fewer trips to the Post Office, yet the retail
the unlikely event that the Postal Service went out of      network has remained largely unchanged. In fact, the
business. Prefunding was intended to address future         Postal Service’s retail network is essentially the same
obligations, so now that they are fully funded, declare     one it has had since the 1970s. Similarly, its processing
them adequate and begin operating the funds. An             network was built to handle a different amount and type
alternative use of the overfunding would be for the         of mail, but it too has seen only marginal changes in
Postal Service to explore using that money to buy credit    the past few years. It relies on a patchwork of delivery
years for workers willing, but unable, to retire.           modes without utilizing a rational plan. Optimization of
                                                            the network is overdue.
These solutions would free up significant funds for
operations and provide much needed time for the Postal      The Postal Service recently announced major changes
Service to optimize its infrastructure and address the      to its network and workforce, with plans to study nearly
major challenges it faces in a more stable environment,     3,700 Postal Service-operated retail facilities in the
allowing proper project management and planning.            near term and many others beyond, and also to study
                                                            252 processing plants for closure. It has targeted a
OPTIMIZATION OF THE NETWORK                                 workforce reduction of about 220,000 people through
                                                            attrition and layoffs through 2015. Our studies support
The Postal Service has about 32,000 retail offices where    these actions and encourage further examination of the
products, postage, and services are sold, and more than     network so that the infrastructure is suitably sized and
500 processing facilities that sort mail for distribution   positioned to provide the levels of service needed in
to carrier units. It has about 557,000 total career




                                                                                                                                         April 1 — September 30, 2011 | 7
OPTIMIZATION OF THE NETWORK




                                          today’s environment. Many of the Postal Service’s recent             Retail
                                          proposals promote solutions that are similar to those
                                          recommended in our work on modernizing the retail,                   The Postal Service’s 32,000 retail outlets number more
                                          mail processing, transportation, and delivery networks.              than the domestic locations of Wal-Mart, McDonalds,
                                                                                                               and Starbucks combined. More than 35 percent of the
                                          Human Capital                                                        Postal Service’s retail revenue comes from expanded
                                                                                                               access locations, such as grocery stores, drug stores,
                                          Despite a high-degree of automation, mail remains                    office supply stores, self-service kiosks, and
                                          labor-intensive. Labor costs comprise nearly 80 percent              usps.com. The current Postal Service-operated retail
                                          of the Postal Service’s costs, which implies that the                facility network substantially exceeds demand by
                                          Postal Service must cut its labor costs to achieve                   customers. The Postal Service recently unveiled its plan
                                          substantive savings. In practice, cutting labor costs in             to shrink the retail network by closing low-activity retail
                                          concert with volume decline is challenging due to the                offices, yet providing customers greater retail access
                                          Postal Service’s significant fixed cost structures. Still,           through its Village Post Office™ concept, which would
                                          the Postal Service has done a good job of matching its               allow local merchants to sell stamps and flat-rate
                                          workforce to its workload, cutting workhours by 477                  packaging. Its proposal to close 3,652 Post Offices is a
                                          million and reducing its number of career employees by               first step in realigning the retail network but many more
                                          more than 230,000 since 2000.                                        closures must be considered in the near future.
                                          Since 1972, the total cost of benefits rose an                       Our work suggests that one third of Post Offices
                                          astounding 448 percent above inflation, while real                   should be examined to be sure they are needed. We
                                          wage expenditures declined by nearly 3 percent. This                 collaborated on a study with a respected economist
                                          extraordinary increase is the result of three factors: a             to develop an optimization model that aligns demand
                                          general trend toward higher benefits costs that affects              and supply. The study indicated that the Postal Service
                                          most U.S. companies; the gradual transfer of postal                  has too many retail facilities located too close together,
                                          retiree benefits costs from the federal government to                especially in small towns and rural areas. The study
                                          the Postal Service; and finally, the repeated overcharges            found that large urban areas appear to have the optimal
                                          for these same retiree benefits costs.                               amount and location of retail units, but the number
                                                                                                               of open windows and staffing may be too low, which
                                                                                                               results in lost revenue.

                                                                                                               Mail Processing
                                                                                                               The current mail processing network represents 12
                                                                                                               percent of the Postal Service’s operating expenses. Built
                                                                                                               for much larger volumes of mail and before the advent of
                                                                                                               automation and worksharing, the network has an excess
                                                                                                               of plants and capacity. The Postal Service has the legal
                                                                                                               authority to close plants, but political resistance has
                                                                                                               made it difficult to close or consolidate these facilities.
                                                                                                               Despite a decline of 44 billion pieces of mail since 2007
                                                                                                               and a reduction of almost 128,000 career employees,
                                                                                                               the Postal Service has closed only 14 major processing
                                                                                                               facilities in that time.

                                                                                                               The network also was designed to meet specific service
                                                                                                               standards for First-Class Mail, notably, overnight delivery
                                                                                                               within certain distances. But the need for this level
                                                                                                               of service has declined as business transactions and
                        With 32,000 retail offices, the Postal Service has more retail outlets than the U.S.   personal correspondence move to electronic alternatives.
                        stores of Wal-Mart, McDonalds, and Starbucks combined. Pictured are Post Offices
                        near ZIP Code 20036 using the usps.com locator tool.




8 | Semiannual Report to Congress
                                                                                                                               OPTIMIZATION OF THE NETWORK




As a result, relaxed service standards would also change
the extent of the network required.

The Postal Service is in the process of studying
252 plants for closure, including 58 processing and
distribution centers (P&DCs), and making First-Class
Mail primarily a 2- to 3-day service for the contiguous
states. Our work in this area suggests the Postal Service
could operate with fewer than 200 major processing
facilities. Our white paper, A Strategy for a Future Mail
Processing and Transportation Network, took a “green
field” approach to consider what the optimal network
would be if the Postal Service were being established
today. Using simulation models to design a network for
future mail volume, we determined the Postal Service
would need about half the number of major P&DCs                  Delivery is now the highest fixed cost in the system, making up more than 30
it currently operates, with a small number of those              percent of the Postal Service’s operating expenses.
being used as hubs to route mail between plants. The
model, moderated by actual plant location, is useful in
                                                                 has assisted the Postal Service in reducing network
determining the needed capacity.
                                                                 transportation costs by recommending increased
Transportation                                                   controls over its fuel purchasing program and by
                                                                 recommending route reductions and other efficiencies
The Postal Service’s transportation and logistics                in its postal vehicle services and highway contract route
network, representing about 9.3 percent of operating             operations.
expenses, is one of the largest in the world, reaching
every community, town, and city in the United States.            With less mail to process and a gradual shrinking of its
Network transportation costs the Postal Service more             workforce, the Postal Service also needs to consider how
than $6 billion annually: air transportation is almost $3        best to structure overall management of the operation.
billion; surface transportation is $3.3 billion; and other       It may no longer make sense to have seven area offices
transportation is $50 million. The Postal Service has cut        and 67 districts. A better use of resources might be to
its transportation costs over the years and continues to         fold area operations into Postal Service Headquarters,
target it for cost control while still meeting or exceeding      since the primary responsibility of the areas is to collect
service standards.                                               data for headquarters. Reducing area operations and
                                                                 consolidating more of the 67 districts would provide
As the Postal Service’s network changes, so will its use         an opportunity for the Postal Service to streamline its
of transportation. As it closes mail processing facilities, it   management structure as well as reduce costs. A fresh
will need to reroute trucks and haul mail differently than       look at the entire organization is necessary, which
it does today. Likewise, incentives the Postal Service           should also consider eliminating management and
gives mailers to enter mail at various locations should          mission support redundancies. It may be time to review
reduce the Postal Service’s transportation usage and             the two parallel investigative organizations and withdraw
costs. Implementation of its Network Distribution Center         substantial resources from nonpostal investigations.
(NDC) plan has helped the Postal Service to capture
savings estimated at $135 million over the past several          There remain many opportunities to better manage the
years as the NDC plan reduced the number of surface              network using the detailed data that the Postal Service
transportation routes and encourages a shift of mail             collects through scanning of the Intelligent Mail Barcode
from higher-cost air transportation to lower-cost ground         (IMb). The IMb is expected to increase mail visibility,
transportation. Similarly, the proposed elimination of the       enhance revenue verification, accountability, and delivery
overnight service standard for First-Class Mail should           predictability, as well as help drive improvements in
allow the Postal Service to structure its transportation         service performance and customer satisfaction. This
network more efficiently. Fewer facilities require less          information should help the Postal Service in a number
staffing, another opportunity for cost savings. The OIG          of areas, from managing service performance to



                                                                                                                                        April 1 — September 30, 2011 | 9
SIMPLIFICATION




                                                                             protecting revenue to          The Postal Service considers its proposal to deliver mail
                                                                             assisting in contingency      only 5 days a week a key strategy in its cost-savings
                                                                             planning. The business        plan. Its studies indicate it would save about $3 billion a
                                                                             intelligence available to     year by eliminating Saturday delivery, while its regulator,
                                                                             mailers from the IMb          the Postal Regulatory Commission, has estimated the
                                                                             will help them focus          savings at closer to $1.9 billion annually. We have not
                                                                             their future marketing        studied the 5-day delivery issue, but we have promoted
                                                                             campaigns, which              the concept of developing a comprehensive delivery
                                                                             increases mail’s value        strategy. The current delivery modes have been pieced
                                                                             and helps keep it             together over many years, lacking rationalization. The
                                                                             viable.                       OIG has recommended that the Postal Service develop
                                                                                                           a strategy that rationalizes the modes of delivery with
                                                                             Delivery                      an increased reliance on curbside delivery, which would
                                                                                                           save the Postal Service up to $4.5 billion a year. Future
                                                                                The role of the letter
                                                                                                           strategies should consider conversion from curbside to
                                                                                carrier remains critical
                                                                                                           centralized delivery mode, such as cluster boxes, for as
      Our work determined that moving from existing door-to-door                to maintaining a
                                                                                                           much as an additional $5.1 billion in savings.
      delivery to curbside and cluster-box delivery methods could save          strong infrastructure
      the Postal Service billions of dollars in annual delivery costs.          and a high level of        These changes in delivery modes would not require
                                                                                service and customer       congressional legislation as a move from 6-day delivery
                                                                                satisfaction. For many     to 5-day delivery would. While delivery mode changes
                                          citizens, the letter carrier is the “face” of the Postal         would not be easy, they should not be dismissed simply
                                          Service. More importantly, delivery to the “last mile” –         because they are difficult to implement. As the Postal
                                          to the mailbox at a home or business – is at the heart           Service’s largest cost center, delivery needs a strategic
                                          of the Postal Service’s business. But the loss of mail           review.
                                          volume presents the need for a paradigm shift in the
                                          carrier workforce as well. Mail volumes are shrinking,           SIMPLIFICATION
                                          but delivery points continue to grow at about 1 million
                                          per year, increasing delivery costs while income per stop        The Postal Service provides competitively priced
                                          declines. Delivery is now the highest fixed cost in the          products with good service. Advertising mail is among
                                          system, making up 33 percent of the Postal Service’s             the most targeted and personal forms of marketing
                                          operating expenses.                                              available, and at affordable prices. The Postal Service
                                                                                                           offers the low-cost alternative for package shipping. And
                                        This changing dynamic begs for a carrier compensation              it handles trillions of dollars of transactions, including
                                        system that maximizes efficiency and minimizes the                 payments of more than one half of America’s household
                                        need for constant supervision. The current inability to            bills.
                                        consistently use compensation systems to efficiently
                                        manage letter carriers, who spend most of their time on            However, potential new customers often find barriers to
                                        the street rather than in the office, is costly.                   entry too high. With more than 7,600 domestic prices
                                                                                                           for three product lines – letters, flat mail, packages
                                        We estimate the Postal Service could potentially save              – and about 1,700 pages of regulations, mail can be
                                        more than $2.5 billion annually if it changed city letter          overwhelming for the uninitiated. The Postal Service
                                        carrier compensation to match the compensation for                 needs to simplify its mail entry rules and price structure,
                                        rural carriers. Such a change could also incentivize               so that ease of use is the priority. Simplicity would
                                        efficient performance. Additional potential savings could          encourage new customers to try mail and persuade
                                        occur if optimum standards for carrier performance are             existing customers to expand their usage.
                                        developed and used to design a compensation system
                                        that is focused on maximum efficiency. As part of the              Our work found that simplification of the rate structure
                                        developement of these standards, contract routes should            and rules would help lift the barriers to entry. Too much
                                        be considered, where appropriate, as these are less                complexity exists:
                                        costly per delivery than either city or rural carrier routes.




10 | Semiannual Report to Congress
                                                                                                                 MODERNIZATION THROUGH INNOVATION




 2,361 domestic prices (31%) were not used in              collection, which suggests it could one day supplement,
  FY 2010 and another 1,237 domestic prices (16%)            or replace, today’s method of statistical sampling for
  had a volume of less than 10 pieces.                       measuring costs. The Postal Service appears focused on
 Mailing Standards of the United States Postal Service     improving costing systems and working toward simplicity
  Domestic Mail Manual, the compendium of mailing            in pricing and mail preparation. Simplicity would also
  regulations, has more than 1,700 pages and grows           serve to improve revenue assurance, as complicated
  with each update. This massive tome cannot be edited       mail preparation rules confuse not only mail users but
  to a realistic size or scope. The Postal Service needs     mail acceptance personnel as well.
  to start with a blank sheet of paper and a room full of
                                                             MODERNIZATION THROUGH INNOVATION
  customers in overhauling its mailing regulations.
 Old price-setting systems rely on statistical sampling    As an institution older than the nation itself, the Postal
  for setting prices even though the Postal Service          Service has adapted well to changing technologies
  collects real-time data now from the IMb and by            and times. Throughout its history, the Postal Service
  machine scanning of mailpieces.                            has embraced new transportation technologies, such
                                                             as steamboats, rail and air travel, often boosting these
 Postal price setting has not fundamentally changed in
                                                             burgeoning industries in the process. The Postal Service
  40 years, despite passage five years ago of the Postal
                                                             also adopted automation technologies, shifting from a
  Accountability and Enhancement Act that set out to
                                                             highly manual system to one that relies on equipment to
  modernize the Postal Service’s system for setting
                                                             handle and sort mail more efficiently.
  prices.
                                                             The Postal Service now finds that it can’t merely adapt
It is time to consider a new model for measuring costs
                                                             to a changing market, it also must innovate. The digital
and pricing products. The IMb allows for extensive data
                                                             revolution has changed the landscape dramatically.


   Expanding the Postal Platform
   From the Internet to the digital economy, the worlds of communications,
   transportation, and commerce are fundamentally changing. This “digital revolution,”
   in combination with the Great Recession of 2008 and 2009, has had a significant
   impact on postal operators around the world, resulting in a steep decline in personal,
   business, and advertising mail volumes. We analyzed the changing digital landscape,
   the new world of communications, and the Postal Service’s new role in the white
   paper The Postal Service Role in the Digital Age – Part 1: Facts and Trends. Building
   on that first white paper, The Postal Service Role in the Digital Age – Part 2:
   Expanding the Postal Platform presents a strategic positioning framed by three guiding
   principles:
    Promoting solutions for the communications problems of the digital age.
    Using the core competencies and assets of the Postal Service.
    Considering the policy implications of the strategy based on the current legal and
      regulatory environment.
   The paper suggests employing an “eMailbox” that links a physical address to an
   electronic mailbox for every citizen and business. The Postal Service could build
   a digital platform that supports communications and commerce for postal, governmental, and commercial
   applications. The paper provides six additional initial applications for consideration, including an eGovernment
   application that promotes the expansion of government services throughout the postal platform; tools for
   identity validation, privacy protection and transaction security; and hybrid and reverse hybrid mail that allow
   senders and receivers to convert digital documents to physical and physical documents to digital.




                                                                                                                            April 1 — September 30, 2011 | 11
IMODERNIZATION THROUGH INNOVATION




                                     Many Americans have embraced the digital age and              address in an eMailbox for each registered citizen and
                                     globalism, reshaping how they communicate, recreate           business that decides to opt in. Features of the eMailbox
                                     and work, and how businesses market to them. We live          might include the capabilities to:
                                     and work in a global community, where communications           Send and receive messages in a secure/encrypted
                                     have no national borders. These economic and                    environment.
                                     communications shifts reduce our use of the traditional
                                     infrastructure. As these changes play out, we also             Certify the digital identity of both sender and receiver
                                     struggle with the significant new challenges brought            for transactions and government business.
                                     on by the digital revolution, with many of its problems        Convert electronic messages, documents, or photos
                                     largely unexamined and unaddressed by the nation.               into physical mailpieces, such as letters or cards
                                                                                                     (hybrid mail), so that those who still rely on hardcopy
                                     However, he traditional infrastructure remains valuable.        delivery have options in an increasingly digital world.
                                     Consumers and businesses still rely on hard-copy
                                     communications and efficient delivery systems. In the          Receive personal mail in digital format (reverse hybrid)
                                     event of man made or natural disasters or national              so our highly mobile society can view their mail at any
                                     emergencies, the postal system is often the only reliable       location, at any time.
                                     mode of communication. Current technological advances          Provide an eLockbox – a special section of the
                                     in paper and envelopes suggest emerging needs.                  eMailbox that provides additional security for sensitive
                                                                                                     or personal records or data, such as medical records,
                                     Further, consumers’ concerns about privacy and                  wills, and legal documents. These would be stored
                                     identity security in the digital age raise the need for a       and sent when needed or required by an emergency,
                                     reliable provider of secure services. The Internet was          such as a medical event while away from home.
                                     not constructed to ensure privacy, validate participant
                                     identity, or facilitate financial transactions. A trusted      Provide electronic time/date stamp of digital
                                     government entity might best provide services that              communications to certify receipt.
                                     ensure privacy is protected around medical records, data
                                     collection, and confidential transactions.                    Cultural Shift

                                     The digital age is changing lives, but it has flaws           Entering the digital market won’t be easy for an
                                     and disadvantages, and the national infrastructure            organization that has struggled to fully embrace
                                     should attempt to address these to position Americans         innovative processes. The Postal Service and its
                                                                                                   stakeholders also are short on risk tolerance and capital,
                                     to prosper in the 21st Century. With this changing
                                                                                                   two more tools necessary for successful business
                                     landscape, it may be the ideal time to rethink the
                                                                                                   development. Innovation needs to be encouraged and
                                     definition of universal service. From our perspective,
                                                                                                   rewarded, perhaps through creation of a separate
                                     universal service in a digital world should mean
                                                                                                   strategic business unit with its own reporting chain. Risk
                                     providing a safety net at a minimal cost. The Postal
                                                                                                   should be accepted and failures expected, although both
                                     Service’s role as a trusted provider of delivery services
                                                                                                   should be managed carefully and metrics developed to
                                     in the paper world should be melded with a new role in
                                                                                                   properly measure success and failure. Inevitably, errors
                                     the digital global world. This symbiotic relationship would
                                                                                                   will occur, but they should be addressed quickly and
                                     tap the strengths of the Postal Service while opening
                                                                                                   walled off from critical operations.
                                     the door for opportunities to expand its presence in an
                                     evolving digital market in a variety of ways. For example     Partnerships with businesses and customers already
                                     the Postal Service could provide a platform where             operating in these spaces should be explored. Capital to
                                     postal, government, and commercial applications can be        investigate opportunities could come from savings from
                                     developed to serve all. The Postal Service has a unique       optimization efforts, reinvestments from poor or outdated
                                     opportunity to provide a bridge between the physical          ventures, or partnering with the private sector or other
                                     and digital worlds, focusing on those offerings that          government agencies.
                                     are closest to its current mission of binding the nation
                                     together through delivery services. One approach, which       The Postal Service should also review its lessons from
                                     many developed nations have adopted, would be to              earlier digital efforts from the 1990s and 2000s, and
                                     link a physical address in its database to an electronic      ensure that new efforts would be embraced by the




12 | Semiannual Report to Congress
                                                                                                                   MODERNIZATION THROUGH INNOVATION




stakeholder community. Rolling out small projects              era in which effective communication and delivery are
through market tests and pilots might be a good way            essential.
to assess risk tolerances, experiment, and learn from        2.	Commingling of federal government and
successes and failures.                                         Postal Service pension and benefit funds, and
                                                                mismanagement of these funds, have added to
Innovation in All Areas                                         the expense and created a drag on the nation’s
Innovation, of course, should not be restricted to              communications and delivery infrastructure. The
the Postal Service’s operations in the digital market.          government has, in effect, used the Postal Service’s
The Postal Service also has to revamp the way it                finances as a cash cow to remedy some of the
does business on every front. It needs processes for            shortcomings of its own finances. This unintentional
innovation across the board – from acceptance, tracking,        tax on Americans has contributed to artificially
triage, design, implementation, to metric measurement.          inflated prices and bled the Postal Service at a
                                                                time when it is not strong enough to tolerate such
The Postal Service also must look at the types of               additional stress on its finances. These practices are
products it currently offers the American public                inappropriate and at cross-purposes with the goals of
and develop new innovative products to capture an               a self-sufficient Postal Service, as well as having an
increasing share of the growing parcel market. It               efficient and well-managed government. The nation
could provide customers with services that might not            owes its citizens a lean and strong infrastructure,
otherwise be readily available to them, for example, in         as well as transparency regarding the true cost of
rural America.                                                  government.
Increased use of Global Positioning System (GPS) could       3.	The Postal Service should simplify its mail induction
help the Postal Service better manage its delivery fleet        rules and reform its complex pricing structure. The
and the overall transportation network. The existing GPS        complexity is intimidating to new customers and
for delivery vehicles has helped in street management           strains the capacity of employees to accurately assess
and anecdotally curtailed negative behavior, as well as         and collect revenues from customers. The revenue is
provided a basis for return-on-investment. An end-to-           needed, and revenue protection discourages abusive
end, single-sourced GPS platform for the entire fleet of        practices and preferential treatment.
vehicles and trucks that includes “passive scanning”         4.	The Postal Service should update its mission to serve
technologies to track mail and vehicles on a real-time          Americans’ communications and delivery needs. The
basis could increase the Postal Service’s presence as           foreign posts of the world’s leading nations now serve
the preferred shipper in the growing parcel market.             citizen and commercial interests with digital services,
                                                                in addition to traditional mail services. They provide
The Road Ahead                                                  bridges, allowing citizens to traverse the digital divide.
This report summarizes the ongoing work of the OIG              Risks await nations that fail to provide an adequate
in its support of the Postal Service as it searches for         communications infrastructure during the current
an effective solution to its current financial crisis. The      information age.
well-known problem has reached a critical level, though
the solution is lagging behind the severe need for such      The effort will require innovative thinking about the
a comprehensive response. We believe the solution            entire organization, from the “big picture” issues, such
should proceed along four avenues:                           as a digital strategy, to the more mundane aspects of
                                                             daily operations. We look forward to continuing to work
1.	The Postal Service was structured for a much larger       closely with the Postal Service to address the challenges
   volume of mail and demand for services than is now        and collaborate on solutions.
   required. There has been an inadequate response and
   substantial interference to optimization efforts, and
   the situation has now reached the point of emergency.
   The very large size of the Postal Service is costly and
   leaves the nation with a bloated infrastructure in an




                                                                                                                              April 1 — September 30, 2011 | 13
SIGNIFICANT AUDIT WORK
BY RISK CATEGORY

AUDIT SYNOPSES
For the period April 1— September 30, 2011

STRATEGIC RISK
Retirement for Postal Service Employees on Workers’ Compensation
We performed this audit to determine the monetary impact to the Postal
Service if Congress were to reform the Federal Employees Compensation Act
to address employees who have reached retirement age. We found that the
agency could save about $37.8 million annually if changes were made in this
area.
                                                                                    The National Postal Museum has a purchase price of $47 million and an assessed
Postal Service Work Rules and Compensation Systems                                  tax value of $304 million. This is just one example of the Postal Service’s significant
Our audit determined that certain contract provisions and compensation              real estate holdings, which could be taken into consideration when evaluating benefit
arrangements hinder the Postal Service’s ability to manage its human                obligations. Photo courtesy of the National Postal Museum.
resources effectively and efficiently. Further, limits on the use of part-time
employees reduce workforce flexibility and increase the number of workhours         Leveraging Assets to Address Financial Obligations
expended. We determined that the three primary groups of mail carriers (city,       The Postal Service has the authority to transfer its real property to other
rural, and contract) have different compensation systems and performance            government agencies with or without reimbursement when the transfer would
standards. City carriers are generally paid by the hour, while rural and contract   serve the public interest. Therefore, the Postal Service could leverage its real
carriers are generally paid by the route. Additionally, substitute carriers for     property assets with the consent of both the U.S. Department of Treasury and
each group are paid differently.                                                    Office of Personnel Management under terms and conditions to which all
                                                                                    parties agree. The Postal Service would retain title to the leveraged properties
To address these inconsistencies, management needs to determine optimal             unless or until it is no longer able to fund its retirement programs at an
standards for carrier performance and pursue the changes necessary to               operational level. If the Postal Service becomes insolvent, the leveraged real
achieve a compensation system that maximizes carrier efficiency. We estimate        property could be liquidated to return the programs to an operational level.
that the Postal Service could save more than $2.5 billion annually if it changed
city letter carrier compensation to match the compensation for rural carriers.      Postal Service’s Innovation Process for Competitive
                                                                                    and Market-Dominant Products
The Postal Service disagreed with the calculation of monetary impact in             The Postal Service faces regulatory and market constraints that make
this report, and also raised concerns about the recommendations. They did,          innovation more difficult than for private companies. Despite these external
however, cite recent instances in which flexibilities in the work rules had been    barriers, the Postal Service has introduced some innovations including
achieved. We agree with management that additional flexibilities have recently      Priority Mail Flat Rate Boxes, Intelligent Mail barcode, Critical Mail, Simplified
been implemented, and cited those instances in the report.                          Addressing, and the Flats Sequencing System. Management should increase
                                                                                    its efforts to support a culture of innovation that would support advancements
Postal Service Patent Management Continuation                                       within current statutory authority. This includes a comprehensive innovation
We partnered with an intellectual property management firm to look at the           strategy and a more disciplined process for the development and
Postal Service’s management of its patent portfolio. Our evaluation of the          implementation of market-based initiatives.
Postal Service’s active patents showed that strategic management of existing
and new patents could result in significantly increased revenue.                    Market Intelligence
                                                                                    The Postal Service could benefit from a stronger integrated market intelligence
                                                                                    strategy that incorporates best practices utilized by leading companies
New Approaches to Reduce Costs
                                                                                    to target new and existing customers and make more informed business
We found that the Postal Service has opportunities to save $143 million
                                                                                    decisions. Overall, the Postal Service has not fully implemented a cohesive,
annually by reducing costs for investigative activities and armed security
                                                                                    structured market intelligence strategy, making it difficult for senior managers
forces, expanding the Forever Stamp™ program, and reducing employee
                                                                                    to manage the wealth of information that can be leveraged to further inform
benefits to align with other federal government agencies.
                                                                                    decision-making.




14 | Semiannual Report to Congress
                                                                                                                                                                           FINANCIAL RISK




    Additionally, management could be missing key marketing opportunities due                       The TOPS technology initiative was implemented for the routing of
    to incomplete or inaccurate customer data. While the Postal Service collects                      air transportation, but not for surface transportation (one of its major
    customer transactional data and conducts opinion polls and market research,                       components) and long-range air route planning as originally designed.
    it lacks the ability to fully integrate and transform this data into meaningful                 The PVS-MS technology initiative was implemented to monitor driver
    information to more fully know its customers’ needs and offer suitable                            and fleet performance, but lacked the necessary connectivity to function
    products and services.                                                                            properly and was discontinued in 2008.
    Modes of Delivery                                                                               The YMS pilot technology initiative was implemented at two locations and
    We found that the Postal Service should develop a comprehensive strategic                         improved yard efficiency through automation, but it did not replace all
    plan to move from existing door-to-door delivery to curbside delivery, which                      required manual processes.
    could save the agency more than $4.5 billion annually. Further, we determined                  Transportation Cost System Inputs into the Cost and Revenue
    that the Postal Service could convert curbside delivery to centralized delivery                Analysis Report
    and mandate centralized delivery for new delivery points, strategies that                      The Postal Service currently spends about $69 million annually for its manual
    could save the Postal Service another $5.1 billion in FY 2011. Management                      data collection efforts to prepare the Cost and Revenue Analysis (CRA) report.
    disagreed with the findings in this report.                                                    This includes about $3.9 million per year to collect data for the statistical
                                                                                                   models within the Transportation Cost System. This audit explores alternate
    Intelligent Mail: Realizing Revenue Assurance Benefits                                         ways of preparing the transportation cost component of the CRA using
    The Postal Service postponed implementing an Intelligent Mail program                          automated data, thus reducing manual data collection efforts. The report
    objective to focus on implementing other aspects of the program. The Postal                    determined that additional planning, systems design, and system integration
    Service removed the automated revenue assurance requirement in the                             in evolving systems could enable the Postal Service to use operational data
    original Decision Analysis Report. Without this automation, the Postal Service                 for CRA cost attribution purposes.
    may not be able to reduce the $293 million it spends annually on business
    mail acceptance personnel salaries and benefits or comprehensively confirm                     Global Positioning System
    the $26 billion in annual business letter mail revenue.                                        We reviewed the Postal Service’s use of global positioning system (GPS)
                                                                                                   technology and found various opportunities to enhance the use of GPS. GPS
    Transportation Initiatives                                                                     technology has been implemented on only 3 percent of delivery vehicles
    The Postal Service manages a vast transportation network that moves more                       and not on tractors or minivans that transport mail. For delivery operations,
    than 170.6 billion mailpieces at an annual cost of about $7.9 billion. To                      management uses standard GPS reports from the vendor (rather than
    improve operations and optimize the transportation and distribution network,                   customized reports) and districts do not consistently use exception data from
    the Postal Service procured the:                                                               the reports to manage operations. The existing GPS for delivery vehicles
                                                                                                   has helped in street management and appears to have curtailed negative
     Surface Visibility (SV) system designed to improve the visibility of mail as it             behavior, as well as provided a basis for return-on-investment analyses.
      moves through the plant-to-plant surface transportation network.                             However, the audit disclosed that the Postal Service could develop an end-to-
     Transportation Optimization, Planning, and Scheduling (TOPS) system to be                   end, single-sourced GPS platform and back-office accountability for the entire
      used as a national transportation network optimization tool that enhances                    fleet of vehicles and trucks with a focus on taking costs out of the delivery
      the surface and air transportation mail assignment processes.                                and transportation system.
     Postal Vehicle Service Management System (PVS-MS), designed to provide
                                                                                                   Project Phoenix
      transportation managers with the technological mechanism to monitor,                         We determined that the Postal Service may prevent delays – such as those
      measure, and manage heavy fleet assets and associated labor.                                 experienced on Project Phoenix1 – on future projects by improving technology
     Yard Management System Pilot (YMS Pilot), designed to track vehicles at                     solution requirements and the design process. The Postal Service planned
      network distribution centers (NDCs) within the yard and dock areas.                          to implement release 1.2 of Project Phoenix in April 2010, but it has not yet
                                                                                                   been released.
    We found that although the Postal Service spent more than $300 million on
    these four transportation technology initiatives, none of them achieved all of                 FINANCIAL RISK
    the intended results. Specifically:
                                                                                                   Strategic Approaches to Revenue Protection
     The SV technology initiative was generally capable of functioning as                        Postal Service officials collaborate and communicate regularly with internal
      planned, but it is not fully providing the intended transportation visibility.               and external stakeholders and have a wide variety of program groups
1
  Project Phoenix is a management initiative to modernize the Postal Service’s ability to serve consumers and small businesses in a multichannel environment. The project includes digital
access, both web and mobile, call center channels, and the development of re-usable technology for other retail channels. Project Phoenix focuses on enhancing the usps.com website and
re-engineering the underlying information technology (IT) that supports three key revenue-generating channels within the Postal Service: the website (usps.com), the contact center, and retail.
The project should enable the Postal Service to launch future revenue-generating products and services more quickly by re-using common IT components rather than building them from
scratch.




                                                                                                                                                              April 1 — September 30, 2011 | 15
FINANCIAL RISK




                                                        that address revenue        statements. Throughout the year, we reviewed internal controls over financial
                                                        protection issues and       reporting and identified field operational control issues regarding vehicle
                                                        strategies. The Postal      sales requests, shuttle service payments, managing capital personal property,
                                                        Service continues to        and eBuy purchases. Further, we identified operational issues regarding
                                                        address revenue leakage     headquarters’ overview of relocation service payments, shuttle service
                                                        through technological       payments, and management of capital personal property in that the Postal
                                                        initiatives as well as      Service did not review supporting documentation for relocation services as
                                                        checklists, quick service   part of the payment process.
                                                        guides, and training for
                                                        clerks. However, revenue    FY 2010 Sarbanes-Oxley Testing for Selected Business Processes
                                                        leakage will continue to    We found that the Sarbanes-Oxley Program Management’s Office properly
                                                        occur until automated       tested, documented, and reported its examination of key controls within the
                                                        verification procedures     air transportation, highway transportation, and personal property/equipment
                                                        that use mail processing    processes. However, we identified opportunities for improvement in work paper
                                                        equipment and intelligent   documentation for the compensation, benefits, and motor vehicles processes.
                                                        mail technologies           Also, in some cases we found that the documentation was insufficient to allow
                                                        replace current manual      a subsequent auditor to reach the same conclusion.
                                                        processes. We estimate
                                                        that management             Effects of Compliance Rules on Mailers
The Postal Service has opportuniities to improve the    could prevent an            The Postal Service did not always fully consider how changes to mail
passport application process and could find increased   annual revenue loss         compliance rules impact mailers. Specifically, the Postal Service did not
revenue by capturing a larger share of the passport     of about $200 million       always adequately estimate the cost to mailers of complying with proposed
photo market.                                           with enhanced revenue       rules, collaborate with the mailing industry, and train and monitor personnel
                                                        protection strategies.      who accept business mailings. However, the Postal Service has increased
                                                                                    emphasis on improving communication and cooperation with the mailing
Postal Service Five-Year Financial Plan                                             industry and has taken several steps to be more responsive to customer
This review was to evaluate the reasonableness of assumptions used to               needs and improve the customer experience.
create the Postal Service’s Five-Year Financial Plan. We found that overall, the
assumptions were reasonable; however, there are some areas to consider for          Postal Service Refunds
future plan updates. For example:                                                   The Postal Service has opportunities to improve the Value Added Refunds
                                                                                    (VAR), Special Postage Payment Systems (SPPS) and meter mail refund
 Overall revenue has fallen below expected levels projected in the plan;          processes. Specifically, the Postal Service could automate the VAR refund
   however, although noted, declining revenue trends were not incorporated          process to eliminate some costs and workload. In addition, the Postal Service
   into the numerical projections of the plan.                                      has not documented SPPS refund processes. Finally, the Postal Service is
 The plan includes various marketing initiatives to generate future               not covering its costs to process meter mail refunds. We estimate that the
   additional revenue. Management revised their performance measurement             Postal Service could recover about $1.62 million annually in processing costs
   methodology for these initiatives. These revisions, together with recent         by making changes to these processes. As a result of our audit, the Postal
   volume and revenue trends and the recent organizational redesign, could          Service developed a standard timeframe for processing spoiled and unused
   affect future revenue projections from these marketing initiatives.              meter mail refunds.

 At the time of our data request, personnel could not support savings from        Management of the Highway Contract Route Voyager Card Program
   the closure of Post Offices and were not aware of the methodology or             We found that the Postal Service did not always ensure that highway contract
   assumptions used to calculate the estimate. Therefore, the Postal Service        route (HCR) suppliers purchase only authorized grades of fuels or remained
   had to prepare a revised estimate of the savings.                                within the contract limitations on the number of fuel gallons purchased. We
 Management included the Postal Service’s estimated savings related to            also determined that HCR Voyager cards were not always safeguarded and
   implementation of 5-day delivery and did not consider the impact of its          secured because the Postal Service did not have a comprehensive control
   difference with the Postal Regulatory Commission’s estimate.                     environment aligned with internal control best practices.
 The OIG has identified other cost-saving opportunities with significant          Purchasing Compliance and Imprudent Purchases Follow-Up Audit
   potential monetary impact that were not considered in the plan.                  We found that the Postal Service has improved the effectiveness of local
                                                                                    purchasing activities and reduced spending of employees using the SmartPay
FY 2010 Financial Statements Audit – San Mateo Information
                                                                                    Purchase Card. For example, the Postal Service decreased SmartPay
Technology and Accounting Service Center
                                                                                    purchases from $266.7 million in FY 2009 to $239.4 million in FY 2010
During our audit, we noted that overall the Postal Service complied with
                                                                                    and recently created two purchasing shared services centers (PSSC) to
laws and regulations that have a direct and material effect on the financial
                                                                                    improve oversight of local purchases and advise field managers on controlling




16 | Semiannual Report to Congress
                                                                                                                                                  OPERATIONAL RISK




expenditures. Yet, during our recent review, we identified employee purchases
that did not comply with Postal Service policy. We also found an opportunity to
further improve the effectiveness of the PSSCs.

Financial Controls Over Passport Applications
We identified three areas where the Postal Service has opportunities to
strengthen its financial controls over passport applications and the revenue
associated with related fees. Specifically, the Postal Service needs (1) a
reconciliation process for the collection and financial reporting of application
fees collected at retail units; (2) improved controls over fees collected for
passport photos; and (3) a reevaluation of the fee charged for passport photos.
In addition, there could be an opportunity for increased revenue by capturing a
larger share of the market for passport photos.

Internal Controls Over the Contract Close-out Process
Postal Service personnel did not always follow contract close-out procedures
or records management requirements. Of the 649 contracts we selected
for review, we were able to review only 539 contract files, because postal          A valid business case existed for consolidating mail processing operations from the
employees could not locate 110 contract files at the time of our site visits.       Beckley, WV, Post Office (pictured) into the Charleston, WV, P&DC.
Of the 539 contract files we reviewed, we determined that 381 were missing
required close-out documents, the contracts had expired and had not been
                                                                                   2009 Pay for Performance Program
properly closed out, or had unreliable data.
                                                                                   We determined that managers responsible for evaluating or approving
                                                                                   sampled employees’ FY 2009 core requirement ratings were not always
Contract Management Data
                                                                                   compliant with Pay for Performance (PFP) policies and procedures.
In 137 of the 139 contract actions we reviewed, we found that Postal Service
                                                                                   Specifically, we found that managers lowered core requirement ratings in
employees did not adequately record contract data into the postal contracting
                                                                                   a manner inconsistent with PFP policies and procedures, which state that
management system. System design limitations contributed to 73 percent of
                                                                                   employees should be rated on these requirements based on agreed-upon
the errors, and employee input errors accounted for the rest. These issues,
                                                                                   objectives and targets and those end-of-year ratings should reflect employees’
which involved contracts valued at about $2.1 billion, affect the transparency
                                                                                   individual achievements. In addition, managers used numeric targets to rate
of the reported data and could result in erroneous decisions based on
                                                                                   postmasters on their core requirements instead of behavioral objectives as
incomplete and incorrect contract data.
                                                                                   specified in the policy.
Contract Funding Approval
Our audit found that Postal Service officials generally submitted eBuy             OPERATIONAL RISK
requisitions to validate the funding approval process before entering into
contractual agreements during FYs 2008 and 2009. However, officials did not        Assessment of Overall Plant Efficiency 2011
submit requisitions for 16 of 143 (11 percent) randomly selected contracting       We found that the Postal Service could improve operational efficiency in the
actions, totaling more than $600 million, before making contractual                areas of overtime hours, mail handling, automated and mechanical equipment,
commitments or incurring potential liabilities.                                    allied operations, and manual operations. This would allow the Postal Service
                                                                                   to reduce more than 14 million workhours by the end of FY 2013 and achieve
Conflicts of Interest: Facility Leases and Contract Delivery Services              at least median productivity levels in the network. Additionally, the workhour
Our audit determined that the Postal Service entered into about 1,200 leases       reduction would allow the Postal Service to avoid costs of more than $647.5
with current or former postal employees with an annual rent value of $8.2          million based on workhour savings for 1 year.
million. Of these properties, 982 were active leases, with an annual rent value
of $5.4 million. About 170 of the active properties were leased from current       Facility Optimization
postal employees. Some of the leases pose risks of violations, while others          Nationwide
give the appearance of a lack of impartiality.                                       We statistically projected that the Postal Service maintains 67 million
                                                                                     square feet of excess space nationwide and has a greater opportunity to
Similarly, the Postal Service entered into 78 of the 7,797 total Contract            aggressively optimize excess space through disposal or leasing than its
Delivery Services contracts with current or former employees that, in some           FY 2011 target for reducing interior space. We estimate that if the Postal
cases, resulted in apparent violations of federal regulations and Postal Service     Service initiates disposal action for the excess space identified, it may
policies. Others also give the appearance of impropriety.                            realize at least $3.48 billion nationwide over typical and remaining lease
Management disagreed with the assessment of questioned costs.                        terms. This amount represents a calculated 10-year potential savings in
                                                                                     lease, custodial, building maintenance, and utility costs.




                                                                                                                                          April 1 — September 30, 2011 | 17
OPERATIONAL RISK




                                                                                                   reassignments; (2) Oshkosh P&DF is more efficient and processes its mail
                                                                                                   volumes at a lower cost than Green Bay P&DC; (3) Mail processing cost
                                                                                                   savings were overestimated, but significant savings should be achieved;
                                                                                                   and (4) Some Area Mail Processing (AMP) guidelines were not followed, but
                                                                                                   had no impact on the business case.

                                                                                                   Bowling Green, KY, Processing and Distribution Facility
                                                                                                   Our audit determined that a valid business case exists for consolidating
                                                                                                   originating mail processing operations from the Bowling Green P&DF into
                                                                                                   the Evansville P&DF and Nashville P&DC to achieve cost savings of about
                                                                                                   $3.2 million annually. No career employee will lose their job at either
                                                                                                   location, although there may be some reassignments at the Bowling Green
                                                                                                   P&DF. We also determined that AMP worksheets should be enhanced when
                                                                                                   consolidating operations into two or more gaining facilities.

                                                                                                Mail Transport Equipment — Needs, Distribution, and Use
Cardboard boxes on pallets are used to supplement over-the-road containers at the               We assessed whether the Postal Service effectively planned for the needs,
Cincinnati Network Distribution Center (NDC). A comprehensive analysis and effective            distribution, and use of mail transport equipment (MTE) during its planning and
processes are necessary to maintain the correct balance of Mail Transport Equipment             implementation of the Network Distribution Center (NDC) network. We found
rolling stock in the NDCs, which would ensure that the Postal Service does not spend            that there was an imbalance of MTE rolling stock in the NDC network (some
needlessly on cardboard containers.                                                             NDCs had an excess and others had a shortage). This occurred because
                                                                                                Postal Service headquarters did not perform a comprehensive analysis of
                                                                                                needed MTE rolling stock; and did not enforce or establish effective processes
Facility Consolidations                                                                         to manage, control, and redistribute existing MTE rolling stock in the NDC
  University Station, Eugene, OR                                                                network. As a result, some NDC sites purchased cardboard containers that
  In August 2010, the Postal Service approved the transfer of all operations                    may not have been needed for about $7.5 million over a 2 year period.
  and Post Office Boxes™ from the University Station Post Office into the
  Eugene Main Post Office and later closed University Station in January                        Postal Vehicle Service Transportation Routes —
  2011. We received a congressional inquiry expressing concern that public                      Baltimore Processing and Distribution Center
  inputs were limited during the discontinuance process. We determined that                     Baltimore P&DC officials were not effectively managing Postal Vehicle
  the Postal Service followed applicable federal law and postal policies to                     Service (PVS) transportation processes and schedules as evidenced by the
  discontinue the University Station operations. However, we identified various                 underutilized trips we identified. Ultimately, we concluded that they could
  concerns with the economic analysis and believe improvements could be                         remove 19,062 excess workhours from existing PVS schedules and reduce
  made to allow for a more objective evaluation.                                                related fuel use and costs as well as damage claims, thereby saving about
                                                                                                $7.3 million over a 10-year period.
   Beckley, WV, Post Office
   Our review determined that a valid business case existed to consolidate                      Postal Vehicle Services — Scheduling and Staffing —
   mail processing operations from the Beckley, WV, Post Office into the                        Western Pennsylvania District
   Charleston, WV, Processing and Distribution Center (P&DC) to achieve                         During our review we determined that the Western Pennsylvania District
   annual cost savings of about $1.1 million. We identified projected annual                    can more efficiently and effectively manage PVS transportation processes
   maintenance cost savings were overstated by $228,181 during fieldwork.                       and schedules, thereby reducing driver workhours and associated fuel use
   Management corrected the proposed maintenance savings to reflect the                         and damage claims. By making these changes, we estimate the Western
   correct savings of $189,555.                                                                 Pennsylvania District could save about $1 million annually in labor and related
                                                                                                costs.
   Oshkosh, WI, Processing and Distribution Facility
   With regard to the Oshkosh Processing and Distribution Facility (P&DF)                       Timely Processing of Mail at the Richmond, VA,
   consolidation, we found that although the consolidation would result in                      Processing and Distribution Center
   cost savings, adequate facility and machine capacity did not exist at the                    The Richmond P&DC experienced difficulties with the timely processing
   Green Bay P&DC to process the additional mail volume and service could                       of mail during FY 2010 and Quarter 1, FY 2011. This condition led to
   be negatively impacted. Our analysis also indicated that: (1) No career                      significant mail delays and service declines in First-Class Mail, Periodicals,
   employees will lose their jobs at either location although there may be some                 and Standard Mail classes. The primary causes for the excessive delayed
                                                                                                mail were inadequate staffing and supervision, low mail throughput on

2 Mail containers did not always have color-code tags, and frequently the tags did not contain the date and time. Not properly completing color codes prevented accurate reporting and made

adherence to processing mail on a first-in, first-out basis difficult.




18 | Semiannual Report to Congress
                                                                                                                                                     OPERATIONAL RISK




machines, failure to consistently color-code arriving mail,2 and not accurately       for ensuring that
identifying and reporting delayed mail. Also, damage to mail from poorly              OSHA recordable
packaged mail resulted in delayed processing of flat mailpieces. During the           injuries or illnesses
audit, management initiated corrective actions. Delayed mail volume at this           are appropriately
facility rose while similar-sized facilities’ delays decreased during the period of   identified, classified,
October 1 through December 31, 2010.                                                  and recorded. Officials
                                                                                      responsible for OSHA
City Delivery Standard Operating Procedures                                           recordkeeping did
We conducted an audit on city delivery issues discovered in previous reviews          not receive sufficient
and found that the morning standard operating procedures process, designed            training for recording
to ensure that units operate efficiently, did not fully achieve intended results.     OSHA injuries and
Specifically, 1,256 delivery units either did not achieve certification, or           illnesses. Additionally,
achieved certification, but did not maintain performance levels afterwards.           existing policy does not
These conditions occurred due to weaknesses in the certification criteria             provide clear guidance
and not adhering to procedures. As a result, the Postal Service incurred              for determining
unnecessary workhours at a cost of about $40.2 million for FY 2009 and                OSHA recordable              An “eMailbox” solution linking a physical address to an
$47.9 million for FY 2010.                                                            dates, and managers          electronic address for every citizen and business is one
                                                                                      completed the OSHA           of the suggestions in our Digital Age series of white
National Assessment of City Delivery Performance                                      Forms 300 manually,          papers.
Results presented for our nationwide city delivery office efficiency review           which increased the
are based on results and recommendations from similar audits conducted                risk of inaccurate
during FYs 2010 and 2011. The goal of the audits was to identify actions              recordkeeping.
that city delivery units needed to take to increase efficiency and reduce costs
using the national average percent to standard measure as a baseline. Our             The Postal Service Role in the Digital Age Part 2 — Expanding the
benchmarking comparison determined that 21 districts used more minutes                Postal Platform
per route than the average carrier route in the nation. The Postal Service could      From the Internet to the digital economy, the worlds of communications,
save more than $88 million in 1 year if its least productive districts operated at    transportation, and commerce are fundamentally changing. This “digital
the average productivity level.                                                       revolution,” in combination with the Great Recession of 2008 and 2009, has
                                                                                      had a significant impact on postal operators around the world, resulting in a
Service Performance Measurement Data — Commercial Mail                                steep decline in personal, business, and marketing mail volumes. We analyzed
Our audit determined that the process used to obtain service performance              the changing digital landscape, the new world of communications, and the
scores for commercial mail is not effective. The Postal Service has                   Postal Service’s new role in the white paper The Postal Service Role in the
experienced significant issues with the quantity, accuracy, and reliability of its    Digital Age – Part 1: Facts and Trends. Building on the first white paper, The
data, resulting in the exclusion of about 88 percent of Full-Service Intelligent      Postal Service Role in the Digital Age – Part 2: Expanding the Postal Platform
Mail Barcode mail from service performance measurement. Specifically, the             presents a strategic positioning framed by three guiding principles:
Postal Service did not meet its initial milestones for implementing this process
because it underestimated the complexity of obtaining reliable data.                   Promoting solutions for the communications problems of the digital age.
                                                                                       Using the core competencies and assets of the Postal Service.
Postal Service Performance during the 2010 Fall Mailing Season
During the 2010 fall mailing season, the Postal Service had about 3.4 billion          Considering the policy implications of the strategy based on the current
delayed mail pieces (6 percent of total mail volume). This represents an                legal and regulatory environment.
increase of 904 million mail pieces (37 percent) over the same period last
year. About 95 percent of this delayed mail was Standard Mail. This adversely         The white paper suggests employing an “eMailbox” that links a physical
impacted service and resulted in about $10.9 million in revenue at risk. We           address to an electronic mailbox for every citizen and business. The Postal
identified a small amount of stand-by time during this period; thus, it appears       Service could build a digital platform that supports communications and
that most employees were engaged in processing mail.                                  commerce for postal, governmental, and commercial applications. The paper
                                                                                      provides six additional initial applications for consideration::
Compliance With Occupational Safety and Health Administration
Recordkeeping Requirements                                                             An eGovernment application that promotes the expansion of government
We reviewed a sampling of Occupational Safety and Health Administration                 services throughout the postal platform and uses the eMailbox to send and
(OSHA) forms from selected postal facilities for calendar years 2009 and                receive secure and official communication with federal agencies.
2010. We found that 90 percent of the OSHA Forms 300, and 25 percent
of the OSHA Forms 301 contained errors or were incomplete. The errors                  Tools for identity validation, privacy protection, and transaction security that
occurred because the Postal Service did not have adequate procedures                    allow users to verify the individuals and businesses they are communicating




                                                                                                                                             April 1 — September 30, 2011 | 19
OPERATIONAL RISK




   with, the safety of their personal information, and the security of their        Barriers to Changing the Retail Network
   purchases and financial transactions.                                            While American retail service and society have changed tremendously in the
 Hybrid and reverse hybrid mail that allow senders and receivers to convert
                                                                                    past 40 years, the size and distribution of the Postal Service’s retail network
   digital documents to physical and physical documents to digital.                 today does not greatly differ from the network that existed in 1971. It fails to
                                                                                    reflect the changes in where and how Americans live today.
 Enhanced shipping services and delivery of secure online purchases
   through flexible pick-up and delivery options, expanded payment choices,         The white paper, Barriers to Retail Network Optimization, identifies and
   and a cost calculation that includes all charges and fees for purchases          describes some of the obstacles that have prevented the Postal Service from
   (even international) at the time of sale.                                        adjusting its network:
 Digital concierge services that integrate an individual’s physical and digital
   communications in a single secure “lock box” into the eMailbox and                Statutory restrictions prevent closing Post Offices for economic reasons and
   help manage “information overflow,” providing quick access to important            impose requirements for notice, consultation, and appeal procedures.
   communications and other personal documents (such as medical records              Regulatory procedures and interpretations create burdens on the Postal
   and wills).                                                                        Service’s ability to make adjustments.
 A network to provide digital currency and redeem cash at Post Office              Political obstacles to rightsizing result from the natural inclination of
   locations and online.                                                              affected groups to protest the loss of local Post Offices.
Although more Americans are turning to the digital channel to communicate,           Institutional barriers within the Postal Service have prevented action. These
make purchases, and store personal information, there are drawbacks                   include a lack of sustained focus over time on retail optimization, problems
that leave a significant portion of the population underserved. To meet the           with the availability and quality of data, past dependence on a highly
population’s needs and “bind the nation together” in a digital world, the Postal      decentralized bottom-up process, and the absence of a well-articulated
Service must modernize its role.                                                      strategic retail vision.

Simplified Address Mail — An Easier Way for Small Businesses
to Reach Local Customers                                                            Although the Postal Service has recently taken new steps to right size its retail
Advertising mail is an important product for the Postal Service. It is an           network — removing some institutional barriers — statutory, regulatory, and
important way for businesses to reach their customers, but many local small         political obstacles remain, which hinder the Postal Service’s efforts to optimize
businesses and others underuse or avoid advertising mail. The rules, rates,         its retail network.
and regulations can be complex and confusing. For saturation mailings, or
those going to nearly every address on a carrier’s route, simplified addressing     A Strategy for a Future Mail Processing and Transportation Network
allows businesses to use a simple “Postal Customer” address instead of a            For more than 230 years, the Postal Service evolved with the needs of a
full street address. While the Postal Service has tested a number of simplified     growing country. A vast and complex network of processing facilities and
address products in the past, early this year it rolled out a national product      transportation links developed to meet its universal service obligation. The
available for all “flat-size” saturation mailings.                                  result was a legacy network built for a different level of processing capabilities,
                                                                                    mail mix, and volume growth than exist today. Now the Postal Service has
In the white paper Simplified Address Mail: An Easier Way for Small                 highly automated processing technology, extensive presorting and deeper drop
Businesses to Reach Local Customers, the Risk Analysis Research Center              shipments, and an uncertain future due to decreasing mail volumes.
(RARC) lays out the advantages of the simplified address mail concept. The
paper finds that, if fully implemented, a simplified address system could           For several years, the Postal Service introduced plans to consolidate its mail
potentially increase Postal Service annual revenue by over $1 billion. This         processing plants and reconfigure its transportation network, including its
would benefit all users of the system by making universal service more              first-ever annual plan under the Postal Accountability and Enhancement
affordable.                                                                         Act of 2006. This annual plan outlined the three core rationalization efforts:
                                                                                    closure of Air Mail Centers (AMC); Area Mail Processing (AMP) consolidation
The advertising mail medium has a history of success, particularly in the area      of outgoing and/or incoming mail processing operations; and transformation
of geographically targeted advertising, which is precisely the purpose of the       of the Bulk Mail Center (BMC) network. The Postal Service has made some
simplified address service. The key to realizing the wide-range of benefits         progress — closing all but one AMC, initiating and implementing numerous
associated with this system now depends on implementation. To reach its             AMP consolidations, and transforming BMCs into Network Distribution Centers.
full potential, the Postal Service must ensure the system is easy to use and
that its advantages are well-communicated to the small business community.          In spite of these efforts, fundamental questions remain: What should the
The Postal Service’s successful implementation of a simplified address mail         mail processing and transportation network look like to meet future demand?
program can help maintain the value of mail in the face of market changes           And how many plants will be needed? The OIG’s whitepaper, A Strategy for
and electronic diversion with little financial risk.                                a Future Mail Processing & Transportation Network, answers some of these
                                                                                    questions and offers an approach that can be used to create a future mail
                                                                                    processing and transportation network based on modeling techniques and




20 | Semiannual Report to Congress
                                                                                                                                                OPERATIONAL RISK




stakeholder input. The analysis showed that a revised network of 135 major          With this question in mind, RARC asked Christensen Associates, an economic
mail processing facilities, inclusive of 15 consolidation hubs, could lower net     consulting firm with expert knowledge of postal service issues, to identify and
processing and transportation costs by about $2 billion annually than the           estimate the impact and cost savings by relaxing premium service standards
existing network. Equally important, the new configuration would generally          by 1 day. We selected 1 day because it should have a low impact on customer
meet or exceed existing service performance.                                        demand given mailers’ stated preference for consistency over high speed and
                                                                                    because it maintains the differentiation in service between preferential and
Since publication of the whitepaper, the Postal Service announced plans to          non-preferential mail.
review mail processing facilities in hopes of shrinking the number of plants to
fewer than 200 by 2013. This network modification is one important facet of a       The research indicates potential annual savings of up to $1.5 billion
4-year effort to cut $20 billion and permanently reshape the Postal Service as      in premium pay and other mail processing costs. The study identifies
a leaner organization.                                                              additional transportation savings, but it is difficult to quantify the magnitude
                                                                                    in conjunction with those of other mail processing activities. The research
The Cost Structure of the Postal Service —                                          also analyzes overtime pay, but it is difficult to measure savings due to
Facts, Trends, and Policy Implications                                              data limitations. Other indirect sources of potential, substantial savings
The Postal Service is at a critical juncture in its history – in 2010, it           such as network realignment and facility consolidations can result from
experienced its largest single-year net loss of $8.5 billion. In response, RARC     longer processing and transportation windows, but are beyond the scope
published The Cost Structure of the Postal Service: Facts, Trends, and Policy       of this paper. As a result, this paper presents a lower bound estimate of the
Implications, which discussed significant trends and drivers of the Postal          achievable cost savings by relaxing service standards by 1 day.
Service’s major cost components including labor (benefits and workers
compensation liability), non-labor (for example, fuel contract management),         Retail and Delivery: Decoupling Could Improve Service
and capital expenditures.                                                           and Lower Costs
                                                                                    The Postal Service has “coupled” its retail and delivery operations, both
In addition to examining a range of topics essential to the economic viability of   managerially and physically, since delivery services were first established
the Postal Service and the future health of the postal “ecosystem,” this paper      almost 150 years ago. Historical business and residential patterns, and mail
provides insight into some of the more critical policy issues confronting the       delivery efficiencies largely determined the location of postal facilities. Even
organization in the wake of new legislative requirements and record losses in       today, postal facilities typically house both delivery and retail operations.
volume and revenue. Two points were of particular importance:                       Yet current and future customer access needs are quickly changing:
                                                                                    geographically and demographically. Could separating retail and delivery
 The mail business is labor intensive to the extent that labor comprises 80       functions improve customer service and save costs?
  percent of Postal Service expenses. This implies that, in order to achieve
  substantive cost savings, the Postal Service must cut labor costs. However,       RARC strategically studied the concept of “decoupling” the Postal Service’s
  in practice, cutting labor costs is challenging due to the Postal Service’s       delivery and retail components’ physical and managerial functions. The
  significant fixed cost structures.                                                whitepaper, Retail and Delivery: Decoupling Could Improve Service and Lower
 Since 1972, the total cost of benefits rose an astounding 448 percent            Costs, drew upon the insights of key stakeholders, private sector delivery
  above inflation, while real wage expenditures declined by nearly 3 percent.       companies within the United States, foreign postal operators, and expert
  This extraordinary increase is the result of three factors: a general trend       business consultants. The study found that selective decoupling of retail and
  toward higher benefits costs that affects most U.S. companies, the gradual        delivery operations, both physically and managerially, could result in new
  transfer of postal retiree benefits costs from the federal government to          retail products and services that are more responsive to changing market
  the Postal Service, and the repeated overcharges for these same retiree           conditions and diverse customer needs — across the entire country. Notably,
  benefits costs.                                                                   the paper determined that a decoupling strategy affords the Postal Service
                                                                                    more flexibility to respond to changing customer needs for retail and delivery
                                                                                    services. Equally important, decoupling could help transform both retail and
As the Postal Service moves forward, this analysis suggests that a                  delivery into two best-practice driven strategic business units, each having
combination of continued cost reductions, legislative action to manage              its own distinct skills, training, and performance measures. This approach
cost burdens, and investment in select projects that continue its history of        would likely improve the services and performance of both Postal Service
productivity increases can help the Postal Service return to economic viability.    components.

Cost of Service Standards                                                           There is a compelling case for the Postal Service to decouple retail from
The Postal Service provides a range of expedited delivery standards to its          delivery as a business strategy. Each contributes to the Postal Service’s long-
customers including 1- to 3-day service for First-Class Mail, 2- to 3-day           term viability and financial performance. Developing an integrated strategy
service for Priority Mail, and expedited handling for Periodicals. The postal       that maximizes the value of both functions has the potential to be extremely
processing and delivery system evolved over time to support these products          beneficial to the Postal Service and its customers in terms of reducing costs,
and service standards; however, the diversion of much of this mail to               increasing revenue, and improving customer service.
electronic alternatives raises the question of whether the high speed service is
still worth any extra cost.




                                                                                                                                         April 1 — September 30, 2011 | 21
SIGNIFICANT INVESTIGATIVE WORK

INVESTIGATIVE SYNOPSES
For the period April 1— September 30, 2011

FINANCIAL CRIMES
A large portion of the $66 billion in revenue generated by the Postal Service
in FY 2011 is handled at the 32,000 postal retail locations. Employees who
allegedly embezzle funds, kite or otherwise misuse money orders, or steal
and misuse postal-issued credit cards receive investigative attention from our
special agents.

 A former Maryland sales and service associate pled guilty in June in federal
   court to misappropriation of Postal Service funds. The OIG investigation
   disclosed that the associate fraudulently issued 183 Postal Service no-fee
   money orders to employees, family members, and companies that provided
   benefits or services to the employee from September 2007 through May
   2009. The money orders were also used for personal use to pay bills, rent,
   and cash totaling about $78,500. The sales associate resigned during the
   investigation. Sentencing is pending.                                          An OIG investigation discovered that a station manager was embezzling checks, money
                                                                                  orders, and cash, and stealing stamps that he sold to two carriers, who sold them on
 A California station reported a shortage of more than $200,000 in the unit
                                                                                  the street at a discount. All three were indicted on federal charges and have left Postal
   reserve and in the vending machine. In conjunction, investigators received
                                                                                  Service employment.
   information that a carrier was selling stamps from a “closed office” at a
   discount. The OIG investigation found the station manager stole stamps          A former Tennessee highway contract route (HCR) driver was sentenced
   and sold them to two carriers who subsequently sold the stamps on the             in April for his involvement in theft of and illegal use of Voyager fuel cards
   street. In June 2010, both carriers were removed from the Postal Service          issued to a Postal Service contractor. In November 2009, OIG special
   and the station manager retired. In July 2011, one carrier pled guilty to         agents conducted investigative inquiries at several fueling centers where
   the felony theft of government property and was sentenced to 2 years of           fraudulent fuel purchases were determined to have been made. At the
   probation and restitution of $7,040. The second carrier has pled guilty           time special agents received this information, nearly 6,000 gallons of
   in federal court and sentencing is pending. The station manager was               diesel and unleaded fuel had already been purchased with the stolen
   sentenced in federal court in September for embezzled checks, money               Voyager cards. While special agents were conducting investigative inquiries
   orders, and cash from stamp and vending sales.                                    at one location, a transaction for one of the Voyager cards in question
 In July, a former California sales and services associate pled guilty in          was currently being processed. The special agents then responded to
   federal court to embezzlement and grand theft. Video footage documented           the location of the transaction, which led to the former contract driver
   the employee not reporting sales transactions and placing cash from the           attempting to flee on foot. After a brief foot chase, the OIG special agents
   drawer in her pocket. To further conceal her embezzlement scheme, the             arrested this individual, who had in his possession three stolen Voyager
   associate replenished her cash drawer with cash prior to being counted.           fleet cards that had been issued to the Postal Service contractor. This
   The OIG investigation disclosed the associate embezzled more than                 individual, along with a co-conspirator, were indicted in April 2010 for
   $24,000 in Postal Service funds during a 4-year period. Subsequently, the         allegedly committing fraud and related activity in connection with an access
   employee was removed from the Postal Service. Sentencing is pending.              device. The co-conspirator entered a guilty plea and was sentenced prior
                                                                                     to 36 months imprisonment and ordered to pay in excess of $219,000
 An Illinois postmaster pled guilty in June to multiple criminal charges           in restitution. The former highway contract route driver was subsequently
   including the theft of more than $4,300 in Postal Service funds,                  sentenced to 10 months imprisonment and ordered to pay in excess of
   bigamy, and perjury. The postmaster was sentenced to 60 days in jail              $19,000 in restitution to the Postal Service.
   and 2 years of probation, and ordered to pay a $1,000 fine and make
   restitution payment to the Postal Service. The investigation revealed that      A Tennessee sales and service associate was sentenced in April to 6
   the postmaster stole Postal Service funds and also used his government            months incarceration with the Bureau of Prisons and ordered to pay
   assigned computer to create a false dissolution of marriage document,             restitution to the Postal Service totaling approximately $86,000 after
   forged a state judge’s name and used the document in a hearing to                 admitting to manipulating entries into a computer terminal and taking
   cover-up multiple marriages. The postmaster was subsequently issued a             postal funds for personal use. The OIG received information of an
   proposed letter of removal from the Postal Service.                               alleged postage affixed scheme resulting in embezzlement of postal




22 | Semiannual Report to Congress
                                                                                                                                  WORKERS’ COMPENSATION FRAUD




  funds. In December 2010, the sales associate entered a guilty plea of
  misappropriation of postal funds. The sales associate resigned after being
  informed by the Postal Service that he would be removed.
 A former Kentucky postmaster was sentenced in April to 3 years of
  probation and ordered to pay in excess of $12,000 in restitution to the
  Postal Service for misappropriation of postal funds and money orders. In
  2009, a review of records identified Postal Service money orders were
  cashed prior to the reported date of sale. In February 2010, an accounting
  of the postmaster’s individually assigned window credit disclosed a
  shortage of $12,151. During an interview, the postmaster admitted to
  embezzling postal funds and kiting postal money orders. In February 2010,
  the postmaster resigned from his position and pled guilty to kiting money
  orders and embezzling postal funds.
 In May, a former Kentucky sales and service associate pled guilty to one
  count violation of misappropriation of Postal Service funds. The judge
  sentenced the associate to 2 years of probation and ordered restitution
  in excess of $5,800 payable to the Postal Service (which was paid in
                                                                                    A former Michigan letter carrier alleged total disability from a work-related back injury
  full by the defendant). During a review of the employee’s accountability
                                                                                    in 2005, but our investigation found that she was selling real estate. OIG agents
  with agents, the sales associate attempted to repay $4,000, which she
                                                                                    witnessed the former letter carrier attempt to sell multiple homes – evidence that led
  produced from within folded pieces of paperwork. During the subsequent
                                                                                    to a termination of the employee’s benefits.
  interview, she said she once discovered a money order voucher was
  missing from her daily postal receipts. The associate said she did not
  know what to do since she could not enter the money orders without the            and 60 administrative personnel actions, including removals and suspensions
  vouchers and since they have to be issued in sequence. She said she               and termination of benefits.
  discontinued entering receipts in the postal accounting system and kept
  the cash in her drawer instead of depositing the funds daily. When agents         Claimant Fraud
  asked about the four personal checks made out to the Postal Service found         The workers’ compensation program exists for employees who are
  in her cash drawer, she stated she would place personal checks in her             legitimately injured while on duty. The program provides benefits to injured
  drawer to remove cash to purchase stamps at other post offices when she           employees and their families while the employee is unable to work. Postal
  was low. She admitted that she borrowed postal funds for personal use,            employees who attempt to defraud OWCP with false claims are criminally
  “whenever the need came up.”                                                      prosecuted to permanently prevent payment of additional compensation and
                                                                                    to recover funds fraudulently obtained. Cases that may require administrative
 An OIG investigation disclosed that a former Colorado sales and service          action are referred to the Postal Service and the DOL. Special agents work
  associate falsely claimed refunds to defraud the Postal Service in the            closely with Health and Resource Management specialists from the Postal
  amount of $12,732. The false refunds were created by entering fictitious          Service on all phases of these investigations. Following are examples of work-
  stamp refund transactions in varying amounts into the computer terminal.          ers’ compensation fraud cases investigated during this period.
  Video footage documented that customers did not return stamps and the
  associate did not provide cash refunds. The associate admitted to the              A former Michigan letter carrier was arrested and admitted in a May federal
  scheme and subsequently resigned from his position at the Postal Service.           court appearance to a role in a workers’ compensation fraud scheme. The
  In June, the former associate was sentenced in federal court to 6 months            employee was provided with pre-trial diversion and ordered to complete
  incarceration, 3 years of supervised release, and was ordered to pay                40 hours of community service and pay about $7,000 in restitution to the
  $7,526 in restitution to the Postal Service.                                        Postal Service. The employee was further ordered to never seek future
                                                                                      federal employment. During the investigation, we determined that the letter
WORKERS’ COMPENSATION FRAUD                                                           carrier reported about 20 on-the-job injuries in her 16 years of employment
                                                                                      with the Postal Service and allegedly suffered a back injury while on duty
The monetary and medical benefits paid by the Postal Service to workers’
                                                                                      in 2004, which allowed her to earn workers compensation benefits. The
compensation claimants (employees who sustained job-related injuries) in
                                                                                      investigation further determined that the former letter carrier was selling
October 2011 totaled more than $1.2 billion and its estimated total liability for
                                                                                      real estate. OIG agents witnessed the former letter carrier attempt to sell
future workers’ compensation costs is more than $15.1 billion. Administered
                                                                                      multiple homes for a real estate business that she was affiliated with. As a
by the U.S. Department of Labor (DOL), the Office of Workers’ Compensation
                                                                                      result of the OIG’s evidence, the DOL terminated the employee’s benefits
Programs (OWCP) provides direct compensation to providers, claimants, and
                                                                                      and the Postal Service realized a cost avoidance of more than $930,000.
beneficiaries. The Postal Service later reimburses the OWCP in a process
known as “charge-back billings.” Investigative efforts during this reporting         In August, a former Indiana letter carrier pled guilty to workers’
period resulted in nearly $65 million in cost savings or avoidances, 19 arrests,      compensation fraud. The investigation revealed that the employee
                                                                                      submitted approximately $1,871 in false travel reimbursement vouchers




                                                                                                                                              April 1 — September 30, 2011 | 23
WORKERS’ COMPENSATION FRAUD




   to the DOL for non-existent travel to receive medical services. Starting in             California Department of Insurance and DOL OIG revealed the custodian
   2008, the letter carrier began submitting reimbursement claims for travel               misrepresented his condition. Surveillance video depicted the custodian
   dates on which she did not travel, or she inflated the claimed mileage.                 conducting home improvement projects, loading plywood onto a truck, and
   The investigation also revealed that the former letter carrier maintained               other activities beyond his limitations. The employee was removed from the
   an Internet business selling sex toys, sexual enhancement pills, and                    Postal Service and his termination of benefits resulted in a cost avoidance
   pornographic DVDs on eBay. The letter carrier’s sentencing is pending.                  of $848,791.
 After a 3-day jury trial, a North Carolina couple was found guilty on nine             On August 1, a former Texas letter carrier was sentenced to 3 years
   of the 13 felony counts of false statements and fraud to obtain federal                 of probation, including 365 days of home confinement, 160 hours of
   employee’s compensation. The husband and wife were both on the periodic                 community service, and restitution in the amount of $172,000 to the Postal
   roll after they claimed injuries while in the performance of their Postal               Service. The OIG investigation discovered that from 2005 to 2010 the letter
   Service duties. Surveillance conducted by OIG agents showed the couple                  carrier submitted false travel vouchers for approximately 96,000 miles
   repeatedly exceeded their medical restrictions by driving on numerous                   in medical reimbursable transportation claims. The letter carrier claimed
   occasions for several miles, bending, mowing the lawn, and sitting on                   that she attended three appointments daily for rehabilitation treatment, 6
   stools while gambling for an extended period of time at a North Carolina                days a week, filing approximately 480 travel reimbursement requests and
   casino. The cost avoidance to the Postal Service is more than $2.1 million              ultimately receiving payment of approximately $207,706. However, the
   and the couple was terminated as a result of the investigation. Sentencing              letter carrier actually traveled to 13 medical appointments, which should
   is pending.                                                                             have only yielded a reimbursement amount of $391.
 An OIG investigation determined in April that a former North Carolina                  An investigation determined that a former Michigan carrier exceeded her
   distribution clerk misrepresented her fitness for duty and continued to                 stated medical limitations while receiving federal worker’s compensation
   receive OWCP benefits, thus avoiding a return to gainful employment with                benefits for 2 years. The employee routinely participated in exercise
   the Postal Service. Agents determined that the employee exceeded her                    and fitness activities at a local YMCA where she was observed bending,
   physical restrictions by exercising at a local gym approximately 4 to 6 days            twisting, weight lifting, and performing various activities beyond her stated
   per week for over a year. The employee’s compensation was terminated                    disabilities. The DOL-OWCP terminated the employee’s compensation
   resulting in a cost avoidance of more than $1.1 million dollars.                        resulting in a cost avoidance of $776,961 to the Postal Service.
 A former custodian from the Network Distribution Center in Bell, California.            Subsequently, the employee was terminated from the Postal Service. The
   was found guilty in July of one count of insurance fraud of the workers’                former carrier pled guilty on April 29 to one count of false statements or
   compensation program. Subsequently, he was sentenced to 3 years                         fraud to obtain federal employees’ compensation. Sentencing is pending.
   of probation, 100 hours of community service, and ordered to pay                       A former Pennsylvania letter carrier pled guilty in June to 4 counts
   $4,600 in restitution to the Postal Service. A joint investigation with the             of providing false statements or fraud to obtain federal employees
                                                                                           compensation. He supplied false statements on four Department of Labor
                                                                                           forms on which he was required to report his employment activity and
                                                                                           income. The former carrier had been out of work from the Postal Service
                                                                                           since 1994, due to an alleged work-related back injury. The investigation
                                                                                           determined he had been working in another state at an auto repair shop
                                                                                           for several years. The investigation confirmed he received payment for this
                                                                                           employment. In addition, video evidence showed him bending and picking
                                                                                           up heavy boxes, as well as sacks of asphalt and repairing pot holes with a
                                                                                           tamper. The former carrier admitted to working at the auto repair shop for
                                                                                           about 5 years. The treating physician immediately returned the claimant
                                                                                           to full-duty work and the DOL terminated the claim, resulting in more than
                                                                                           $936,000 in cost avoidance for the Postal Service. The DOL also found
                                                                                           the claimant at fault for creating an overpayment exceeding $177,000.
                                                                                           Sentencing was scheduled for late September.

                                                                                         Medical Provider Fraud
                                                                                         The workers’ compensation program is also subject to fraud and abuse by
                                                                                         medical providers used by postal employees injured on the job. A few seek
                                                                                         to take advantage of this program by submitting false bills, colluding with
                                                                                         claimants to extend benefits, or falsifying claim documents. When evidence of
Employees who attempt to defraud the workers’ compensation program are criminally        abuse exists, OIG agents investigate these providers.
prosecuted. This former custodian was charged with insurance fraud after an
investigation found he had misrepresented his condition. Surveillance video showed him    A New York neurologist pled guilty on July 6 to one count of health care
conducting home improvement projects, loading plywood on a truck, and other activities     fraud. The neurologist billed DOL-OWCP, Medicare, the Federal Employees’
beyond his limitations.                                                                    Health Benefit Plan, and other health care benefit programs for fraudulent




24 | Semiannual Report to Congress
                                                                                                DELAY, DESTRUCTION, AND THEFT OF MAIL BY EMPLOYEES




  medical services. The investigation conducted jointly with Health and
  Human Services, DOL, Office of Personnel Management; and local and
  state police departments determined that from January 2006 to December
  2009, the neurologist submitted claims for services that were not
  rendered; billed two different health care benefit programs for the same
  service performed on the same patient; and billed for services performed
  when he was out of the country. As a plea agreement, he agreed to forfeit
  $905,789. Sentencing is scheduled for December.

DELAY, DESTRUCTION, AND THEFT OF MAIL BY
EMPLOYEES
Special agents investigate allegations of postal employees delaying, destroy-
ing, or stealing mail. Suspected employees are referred to prosecutors or to
management for administrative action.

Theft of Mail by Employees
Following are examples of cases in which postal employees stole mail for
personal gain.
                                                                                 A rifled parcel containing prescription drug medication was among the non-deliverable
 OIG agents developed information in July 2009 that a former Arkansas          mail that agents discovered in a letter carrier’s vehicle. The carrier was sentenced to 4
  mail handler over-labeled packages and parcels at the Memphis Processing       months imprisonment, community service, and ordered to pay restitution.
  and Distribution Center causing them to be rerouted to this personal
  residence. The former mail handler was sentenced in April to 24 months            recovered from the top portion of the driver’s console. Also, in plain view
  in federal prison, and ordered to pay a $10,000 fine and restitution. The         inside the vehicle, agents observed undelivered Standard and Periodical
  mail handler had previously been charged with theft of mail and possession        mail along with other rifled letters, and they recovered mail from the door
  of stolen mail matter. Pursuant to a federal search warrant, OIG agents           pockets, sun visor, rear seat area, and the rear cargo area of the vehicle --
  and the local police department seized 17 stolen firearms, including four         in total, about 3,310 pieces of mail including 347 rifled First Class letters
  fully automatic military rifles, thousands of dollars worth of silver coins,      and a rifled prescription drug parcel. The Postal Service terminated the
  and tens of thousands of dollars of other merchandise, all stolen from the        letter carrier’s employment in February 2010.
  mail. Agents seized hundreds of Postal Service “We Care” bags, which            A New York letter carrier was found guilty on one count of conspiracy to
  were used by the mail handler to carry merchandise stolen from the mail           defraud the government, mail theft, and conspiracy to commit mail theft.
  handler’s work area. The mail handler retired while under investigation.          This investigation, conducted jointly with Internal Revenue Service-Criminal
 The OIG received numerous complaints in late 2007 through early 2009             Investigation Division, revealed the letter carrier assisted in a scheme
  that gift cards were not being delivered to customers. An investigation           to defraud the government of more than $15 million in fraudulently filed
  determined that a Cincinnati mail handler compromised thousands of                income tax returns. The investigation determined the letter carrier was
  greeting cards, stole more than $10,000 in cash, and $1,000 in gift cards         stealing fraudulent U.S. Treasury checks destined for numerous bad
  from letters sent through his work area. During the investigation, agents         addresses on his delivery route. The letter carrier was receiving a sum
  caught the mail handler stealing mail while at work. Agents recovered the         of money for each U.S. Treasury check he procured for the individuals
  stolen funds in an envelope from his pocket during a search. The mail             involved in the scheme. The letter carrier is scheduled to be sentenced in
  handler subsequently admitted that he had stolen various articles from the        September.
  mail for about two and a half years and admitted to the theft of the funds.
  The investigation further determined that an associate of the mail handler     Delay or Destruction of Mail by Employees
  used at least one of the stolen gift cards. The mail handler resigned from     Citizens and businesses expect their deposited mail to be delivered in a timely
  the Postal Service and pled guilty to theft of mail in May.                    manner and not be delayed or destroyed. Postal employees and contractors
                                                                                 who delay, desert, or dump mail are investigated by our special agents.
 A Kentucky letter carrier pled guilty in May to obstruction of
  correspondence and was sentenced to 4 months imprisonment; 60 hours             A Maryland motor vehicle operator was sentenced to 6 months
  of community service and ordered to pay restitution in excess of $3,100.          incarceration, 6 months home detention, 2 years supervised release, 100
  The OIG received complaints from individuals alleging that the Postal             hours community service, and ordered not to seek future employment
  Service failed to deliver the mail on a specific route. In February 2010,         with the Postal Service. Agents investigated a report of discarded mail at
  agents observed the carrier take the non-deliverable mail “for a ride”,           a secluded location in Maryland. After searching the area, a large volume
  opening a letter containing currency. Agents approached the carrier in            of undelivered and burned mail was discovered spread across a wooded
  her vehicle at the end the business day and discovered an opened letter           lot. The motor vehicle operator was identified as the responsible party and
  on the front passenger seat of her vehicle. Funds from the envelope were




                                                                                                                                           April 1 — September 30, 2011 | 25
CONTRACT FRAUD/OFFICIAL MISCONDUCT




   was charged with the delay and destruction of mail. Subsequently, he was           fraudulent check scheme to pay for his satellite business’ bulk mailings
   removed from the Postal Service.                                                   by writing checks from fictitious accounts or an account with insufficient
 Agents received a tip from an anonymous customer that a former West                funds throughout several California cities.
   Virginia rural carrier left undelivered mail and Postal Service property at an
   abandoned residence. The investigation determined that the abandoned             OFFICIAL MISCONDUCT
   residence was previously rented by the rural carrier. Agents gained access       Postal Service employees commit misconduct when they:
   to the residence and discovered hundreds of pieces of undelivered mail as
   well as mail processing equipment. The former rural carrier pled guilty in        Misuse Postal Service computers.
   July to one count of petit larceny. The rural carrier’s sentencing is pending.
   The Postal Service terminated the rural carrier’s employment in May 2010.         Destroy or steal postal property.
                                                                                     Lie or forge signatures on official documents.
CONTRACT FRAUD                                                                       Steal funds.
The Postal Service manages contracts, ranging from multimillion dollar               Abuse authority.
national contracts for services such as transportation networks and IT
                                                                                     Sabotage operations.
infrastructures to local contracts for supplies and services at individual
postal facilities. The OIG aids the Postal Service by investigating allegations      Use narcotics or sell drugs while on duty.
of contract fraud, waste, and misconduct. When contract improprieties are            Abuse alcohol while on duty.
documented, special agents present the evidence for criminal and civil pros-
ecution and administrative remedies.
                                                                                    During this reporting period special agents investigated 44 cases of employ-
 During this reporting period, we conducted 85 contract fraud                     ees selling, possessing, or using illegal drugs on duty; made 38 arrests; and
   investigations, resulting in 15 arrests and nearly $20 million in monetary       the Postal Service took 55 administrative personnel actions. Following are
   benefits to the Postal Service.                                                  examples of cases the OIG investigated involving employee misconduct.
 A Missouri postmaster was sentenced in June to 2 years of probation
                                                                                     A letter carrier pled guilty in March to knowingly conspiring with others
   after pleading guilty to one count of accepting a bribe/gratuity. A mailer
                                                                                      to possess with the intent to distribute more than 1,000 kilograms of
   devised a scheme to defraud the Postal Service by fraudulently indicating
                                                                                      marijuana. The letter carrier and eight other non-Postal Service defendants
   pre-canceled stamps were included in its mailings when they were not.
                                                                                      were charged in a multistate marijuana trafficking and shoplifting
   The mailer and its employee paid the postmaster $20,000 to accept the
                                                                                      conspiracy to transport large quantities of marijuana between Arizona and
   fraudulent mailings. The mailer also paid a Postal Service supervisor, at
                                                                                      southern Ohio. The profits from the marijuana distribution were used to
   the same office, $10,000 to accept the mailings. In June, the mailer’s
                                                                                      purchase automobiles, motorcycles, boats, and property in Arizona and
   employee was sentenced to 3 years of probation after pleading guilty to
                                                                                      Ohio. More than 100 real estate properties, numerous cars and boats are
   mail fraud. Restitution of $2,990,000 was ordered to be paid to the Postal
                                                                                      being sought through asset forfeiture. Sentencing is pending. The Postal
   Service. A few months prior, the mailer pled guilty to mail fraud, false
                                                                                      Service placed the letter carrier on indefinite suspension in February.
   statements, bribery, and offering gratuities. The mailer’s sentencing is
   pending.                                                                          In April, a letter carrier pled guilty to Social Security fraud and was
                                                                                      sentenced to 5 years of probation and ordered to pay restitution of
 In March, following a joint contract fraud investigation by the OIG, Federal
                                                                                      $41,635 to the Social Security Administration (SSA). In 2008, the SSA
   Bureau of Investigation, Army Criminal Investigations Division, and General
                                                                                      OIG provided information that the letter carrier received and cashed his
   Services Administration, a Postal Service contractor was sentenced to 10
                                                                                      mother’s social security benefit checks after her death in 2002. The letter
   years imprisonment, followed by 6 years of supervised release, and $57.3
                                                                                      carrier was interviewed and admitted to using his mother’s SSA benefits
   million in restitution, of which $4.2 million was assigned to the Postal
                                                                                      after her death.
   Service. Two of the convicted Postal Service contractor’s employees were
   sentenced to 3 years imprisonment, followed by 3 years of supervised              A New York maintenance mechanic pled guilty to receipt and possession
   release. The Postal Service contract stated the contractor must use 75             of child pornography in February. This investigation, conducted jointly
   percent disabled persons when producing tray sleeves to process the mail,          with a local police department, revealed the maintenance mechanic
   and that he could not use subcontractors. The investigation discovered             misused his Postal Service computer by searching for and accessing
   that the contractor failed to comply with the contract by not employing            known child pornography websites. It also revealed he downloaded child
   the required number of severely disabled persons and improperly hired              pornography images while on duty at his workplace. Weblogs belonging to
   subcontractors to complete the work.                                               the maintenance mechanic confirmed he spent more than 170 days on the
                                                                                      Internet, averaging 45 minutes per day, from April 2009 until April 2010.
 A mailer in California was sentenced in May to 366 days imprisonment,
                                                                                      The vast majority of that time was spent searching for child pornography.
   followed by 3 years probation, and ordered to pay $342,000 in restitution
                                                                                      The maintenance mechanic was sentenced to 70 months imprisonment
   after pleading guilty to 2 counts of theft of government property and
                                                                                      and 20 years of supervised release. Following the investigation, the
   postage. The OIG investigation discovered that the mailer concocted a
                                                                                      maintenance mechanic retired from the Postal Service.




26 | Semiannual Report to Congress
                                                                                                              EXECUTIVE INVESTIGATIONS AND INTERNAL AFFAIRS




EXECUTIVE INVESTIGATIONS AND INTERNAL AFFAIRS                                       or safety. The OIG reviews postal whistleblower allegations and, when a prima
                                                                                    facie finding of retaliation is reached, refers the matter to postal management
OI conducts criminal and administrative investigations of Postal Service            for action.
executives, and OIG and Postal Inspection Service personnel, as well as
whistleblower reprisal investigations.                                              Allegations received: ..............................................................................95
                                                                                    OIG investigations initiated: ....................................................................14
Whistleblower Reprisal Activity
While the Whistleblower Protection Act does not apply to the Postal Service,        Investigations closed with no finding of retaliation
similar postal policy prohibits whistleblower retaliation. These Employee and          or deferred to other adjudicative body: ................................................19
Labor Relations Manual (ELM) provisions prohibit retaliation against employ-        Allegations closed with no action: .........................................................100
ees who disclose information they reasonably believe to be: 1) a violation of
any rule, law or regulation; or 2) a gross waste of funds, gross mismanage-         Open investigations: ................................................................................5
ment, abuse of authority, or a substantial and specific danger to public health     OIG found reprisal: ...................................................................................0




   OFFICIAL MISCONDUCT — ‘Operation Dirty Eagles’
   In September 2010, a federal grand jury in the District of Puerto
   Rico indicted 20 individuals as a result of an investigation led by
   the OIG and the Drug Enforcement Administration (DEA). Seven
   of the defendants were current employees of the U.S. Postal
   Service. The defendants were charged with conspiracy to possess
   with intent to distribute heroin, cocaine, and marijuana; using
   firearms during and in relation to a drug trafficking crime; unlawful
   possession of a controlled substance; and theft of mail while
   impersonating a mail carrier. Others received pay and benefits
   from the Postal Service without performing their assigned duties.
   Our investigation disclosed that from or about 2003, the seven
   postal employees abused their positions as mail carriers in Puerto
   Rico, to facilitate drug shipments between Puerto Rico, Texas,
   California, and Arizona.

   The conspiracy involved Postal Service employees informing
   clients of successful methods to send narcotics through the mail
   system to avoid detection from law enforcement. The defendants
   met with their co-conspirators at pre-determined locations
   during work hours to receive parcels while wearing their Postal
   Service uniforms, in order to make these transactions appear less     A major investigation in Puerto Rico, led by the OIG and the Drug Enforcement Agency,
   suspicious. The defendants also took parcels to the Post Office and yielded 20 indictments and a recovery of firearms and drugs. Seven postal employees were
   placed them into the mail system. The defendants then obtained        among those indicted on drug, conspiracy, theft of mail, and firearm charges.
   confirmation numbers for their clients so they could track the
   location of the packages. At the conclusion of the transactions, the
   defendants provided receipts and parcel confirmation numbers to their clients as proof that the packages had been mailed.

   The amount of the payments varied based on the weight of the parcel and the amount and type of narcotics being mailed. The defendants also discovered
   other narcotic traffickers who were using the mail system on their routes to send or receive narcotics. The defendants warned these traffickers that they
   had to pay a fee to conduct this activity on their routes. If the traffickers did not pay the mail carriers this fee, the defendants would steal the narcotics.

   From January 2011 to present, 19 of the 20 defendants pled guilty. Fifteen defendants have faced sentences ranging from probation to 108 months
   incarceration, with the remaining four defendants pending sentencing. The final defendant is in federal custody in Illinois. All seven postal employees were
   removed from the Postal Service.




                                                                                                                                                        April 1 — September 30, 2011 | 27
                                                                                                                                                     APPENDIX A




APPENDICES
The Inspector General (IG) Act of 1978 requires semiannual reports on the immediately preceding 6-month periods ending September 30 and March 31. These
reports are sent to Congress and made available to the public.

This report summarizes OIG activities and illustrates significant problems, abuses, and deficiencies, along with recommendations and corrective actions related
to the administration of U.S. Postal Service programs and operations during the reporting period.

The appendices on the following pages fulfill the requirements of the Act.

APPENDIX A
Reports Issued to Postal Service Management
For the period April 1 — September 30, 2011

OIG audit teams conduct performance and financial audits, evaluations, and other reviews to address the business of the Postal Service. Each team issues audit
reports (AR) or management advisory (MA) reports in accordance with the identified needs of the project.



Summary
                                                                                                                         Unsupported
Risk Categories                         Number of Reports        Funds Put to Better Use    Questioned Costs         Questioned Costs              Revenue Impact
Strategic                                                14                $8,920,327,334       $33,375,758                         —               $2,207,054,263
Financial                                               155                 $191,685,233       $979,499,705               $801,107,522                     $312,100
Operational                                              30               $2,356,092,667       $995,514,644               $171,606,700                  $19,193,730
SUB-TOTAL                                               199               $11,468,105,234     $2,008,390,107             $972,714,222              $2,226,560,093
PARIS Risk Model Reports                                 31                           —                  —                          —                             —
TOTAL                                                   230                           —                  —                          —                             —




Fiscal Year 2011 Summary
For the period October 1, 2010 — September 30, 2011

                                                                                                                         Unsupported
                                        Number of Reports        Funds Put to Better Use    Questioned Costs         Questioned Costs              Revenue Impact
Issued Reports                                          306               $73,097,541,486     $2,574,649,973            $1,238,894,416              $2,285,080,889
PARIS Risk Model Reports*                                60                           —                  —                          —                             —
Total                                                   366                           —                  —                          —                             —



*Note – PARIS Risk model reports were not listed in the March 2011 SARC




                                                                                                                                    April 1 — September 30, 2011 | 29
APPENDIX A




   Definitions:
   Questioned Costs. A cost that is unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, contract, and so forth.
   Unsupported Questioned Costs. A cost that is not supported by adequate documentation. Unsupported costs are included with the amounts shown as
   Questioned Costs.
   Funds Put to Better Use. Funds that could be used more efficiently by implementing recommended actions.
   Revenue Impact. Amounts from revenue generating functions such as retail sales, rent, leases, or fees that were underpaid or not realized. In
   addition, this category includes increased revenue from existing functions and generating revenue from new sources.
   PARIS Risk Models. Performance and Results Information Systems (PARIS) models with data visualization techniques. These models identify operational
   and financial risks, and enable OA staff to conduct reviews of Postal Service functions on a nationwide basis, while also identifying areas of emerging risk
   — fundamentally changing the way the OIG examines and monitors risk. We present quarterly summary results and trend analyses of these risk models to
   key Postal Service executives and stakeholders.



Reports with Quantifiable Potential Monetary Benefits
                                                                                    Funds Put                                Unsupported
                                                                                 to Better Use    Questioned Costs       Questioned Costs         Revenue Impact
STRATEGIC RISK
Delivery
Modes of Delivery; DR-AR-11-006; 7/7/2011                                        $4,513,964,171          $24,052,226                     —                        —
Postal Service Patent Management Continuation; DA-MA-11-002; 4/8/2011                       —                     —                      —          $2,054,278,667
Engineering and Facilities
Conflicts of Interest: Facility Leases and Contract Delivery Services;                      —               $737,359               $737,359                       —
DA-AR-11-008; 6/8/2011
FINANCIAL RISK
Cost, Revenue, and Rates
Transportation Cost System Inputs into the Cost and Revenue Analysis Report;        $9,799,206                    —                      —                        —
CRR-AR-11-004; 9/19/2011
Field Financial
Business Mail Acceptance Centralization Process; FF-AR-11-015; 9/23/2011          $118,969,551          $113,009,745                     —                        —
Caribbean District Financial Risk; FF-AR-11-017; 9/30/2011                                  —                $24,484                $24,484              $312,100
Global Express Guaranteed; FF-AR-11-016; 9/27/2011                                          —               $314,351               $314,351                       —
New Approaches to Reduce Costs; FF-AR-11-009; 6/14/2011                          $1,426,655,830                   —                      —                        —
Postal Service Refunds; FF-AR-11-013; 8/30/2011                                     $13,155,927                   —                      —                        —
Purchasing Compliance and Imprudent Purchases Follow-Up Audit;                                              $314,895               $314,895                       —
FF-AR-11-010; 6/21/2011
Stamp Distribution Procedures; FF-AR-11-012; 7/29/2011                               $5,907,151                   —                      —                        —
Financial Reporting
Fiscal Year 2010 Financial Statements Audit – San Mateo Information Technology              —                $ 75,838              $ 75,838                       —
and Accounting Service Center; FT-AR-11-008; 4/7/2011
Officer Compensation for Calendar Year 2010; FT-AR-11-011; 9/23/2011                        —                $ 59,174                    —                        —
Human Resources and Security
Retirement for U.S. Postal Service Employees on Workers’ Compensation;            $377,936,529                    —                      —                        —
HR-MA-11-001; 4/22/2011




30 | Semiannual Report to Congress
                                                                                                                                                  APPENDIX A




                                                                                     Funds Put                             Unsupported
                                                                                  to Better Use    Questioned Costs    Questioned Costs       Revenue Impact
Supply Management
Audit of Incurred Costs of ICF Group, Incorporated for Fiscal Year 2007;                     —                 $350                  —                         —
CA-CAR-11-009; 7/26/2011
Audit of SICK, Inc. Proposal for the Flats Edge Doubles Detection (FEDD)                     —              $72,994                  —                         —
Modification Kits; CA-CAR-11-007; 7/11/2011
Bell Services Group, Inc. Invoice Claim; CA-MA-11-001; 4/20/2011                             —               $2,652                  —                         —
Report on Audit of Proposal Submitted by Northrop Grumman Corporation,                       —          $154,389,118        $143,509,693                       —
Electronic Systems Company; CA-CAR-11-010; 9/2/2011
Report on Audit of Siemens, Industry Inc., Mobility Division, Infrastructure                 —             $648,106                  —                         —
Logistics Rate Proposal; CA-CAR-11-012; 9/22/2011
Transportation
Management of the Highway Contract Route Voyager Card Program;                      $53,652,604          $53,719,737                 —                         —
NL-AR-11-003; 6/7/2011
OPERATIONAL RISK
Cost, Revenue, and Rates
Service Performance Measurement Data - Commercial Mail; CRR-AR-11-003;                       —                   —                   —               $19,193,730
9/6/2011
Delivery
Follow-Up on City Delivery Standard Operating Procedures; DR-AR-11-007;                      —          $88,128,993                  —                         —
9/26/2011
National Assessment of City Delivery Efficiency 2011 - Office Performance;                   —           $88,192,128                 —                         —
DR-MA-11-002; 7/19/2011
Engineering and Facilities
Facility Optimization: Former Southeast Area Districts; DA-AR-11-007; 5/13/2011    $151,624,144                  —                   —                         —
Facility Optimization: Great Lakes Area; DA-AR-11-005; 4/22/2011                     $19,977,519                 —                   —
Facility Optimization: Pacific Area Districts; DA-AR-11-006; 5/13/2011             $172,248,822                  —                   —                         —
Nationwide Facility Optimization; DA-AR-11-009; 8/26/2011                         $1,992,347,498                 —                   —                         —
Human Resources and Security
Postal Service Work Rules and Compensation Systems; HR-AR-11-002;                 $2,591,971,598                 —                   —                         —
9/19/2011
Information Technology
Project Phoenix; IT-AR-11-009; 9/14/2011                                                     —                   —                   —             $152,775,596
Network Optimization
Assessment of Overall Plant Efficiency 2011; NO-MA-11-004; 5/20/2011                         —          $647,586,823                 —                         —
Supply Management
Contract Delivery Service Cost Controls; CA-MA-11-002; 9/26/2011                             —            $8,918,958          $8,918,958                       —
Contract Funding Approval; CA-AR-11-005; 8/25/2011                                           —          $601,388,219        $601,388,219                       —
Contract Postal Units Contract Oversight; CA-AR-11-007; 9/30/2011                            —          $162,687,742        $162,687,742                       —
Internal Controls over the Contract Close-out Process; CA-AR-11-004; 4/27/2011               —           $54,742,683         $54,742,683                       —




                                                                                                                                 April 1 — September 30, 2011 | 31
APPENDIX A




                                                                                         Funds Put                             Unsupported
                                                                                      to Better Use    Questioned Costs    Questioned Costs   Revenue Impact
Transportation

Evaluation of Major Transportation Technology Initiatives; NL-AR-11-008;                         —           $9,323,532                 —                 —
9/27/2011
Highway Contract Routes – Western Pennsylvania District; NL-AR-11-007;                    $1,627,975                 —                  —                 —
9/27/2011
Postal Vehicle Service Transportation Routes – Baltimore Processing                      $8,240,606                  —                  —                 —
and Distribution Center; NL-AR-11-004; 7/25/2011
Postal Vehicle Services - Scheduling and Staffing - Western Pennsylvania District;      $10,026,103                  —                  —                 —
NL-AR-11-005; 8/12/2011
TOTAL                                                                                $11,468,105,234      $2,008,390,107       $972,714,222    $2,226,560,093




32 | Semiannual Report to Congress
                                                                                                                                                   APPENDIX A




Report Listing
Complete listing of all OIG reports issued to Postal Service management.

For the period April 1— September 30, 2011


STRATEGIC RISK                                        Sales and Service                                     Boston Business Mail Entry Unit – Boston, MA;
                                                                                                            FF-MA-11-052; 4/7/2011
Cost, Revenue, and Rates                              Market Intelligence; MS-AR-11-005; 8/10/2011
                                                                                                            Fiscal Year 2011 Financial Testing Compliance
Transportation Cost System Inputs into the Cost       Postal Service’s Innovation Process for Competitive   Business Mail Entry Unit Oversight Reviews –
and Revenue Analysis Report; CRR-AR-11-004;           and Market-Dominant Products; MS-AR-11-004;           Charlotte, NC; FF-MA-11-131; 8/2/2011
9/19/2011                                             6/8/2011
                                                                                                            Fiscal Year 2011 Financial Testing Compliance
Delivery                                              Transportation                                        Oversight Reviews – Mid-City Cincinnati Business
Global Positioning System: End-to-End Platform        Evaluation of Major Transportation Technology         Mail Entry Unit Cincinnati, OH; FF-MA-11-137;
and Actionable, Robust Reports Needed to Achieve      Initiatives; NL-AR-11-008; 9/27/2011                  8/5/2011
Goals and Potential Return-on-Investment;
                                                                                                            Fiscal Year 2011 Financial Testing Compliance
DR-MA-11-003; 9/30/2011
                                                                                                            Business Mail Entry Unit Oversight Reviews
Modes of Delivery; DR-AR-11-006; 7/7/2011             FINANCIAL RISK                                        – Cleveland, OH Business Mail Entry Unit –
                                                      Cost, Revenue, and Rates                              Cleveland, OH; FF-MA-11-096; 5/17/2011
Engineering & Facilities
                                                      PostalOne! Mail Data Input Validation;                Fiscal Year 2011 Financial Testing Compliance
Intelligent Mail: Realizing Revenue Assurance                                                               Business Mail Entry Unit Oversight Reviews –
                                                      CRR-AR-11-002; 5/23/2011
Benefits; DA-AR-11-010; 8/30/2011                                                                           Harrisburg Business Mail Entry Unit Harrisburg, PA;
                                                      Engineering & Facilities                              FF-MA-11-140; 8/5/2011
Postal Service Patent Management Continuation;
DA-MA-11-002; 4/8/2011                                Business Mail Acceptance Centralization Process;      Fiscal Year 2011 Financial Testing Compliance
                                                      FF-AR-11-015; 9/23/2011                               Business Mail Entry Unit Oversight Reviews –
Field Financial
                                                      Caribbean District Financial Risk; FF-AR-11-017;      Hartford Business Mail Entry Unit – Hartford, CT;
Leveraging Assets to Address Financial                                                                      FF-MA-11-051; 4/7/2011
                                                      9/30/2011
Obligations; FF-MA-11-118; 7/12/2011
                                                      Conflicts of Interest: Facility Leases and Contract   Fiscal Year 2011 Financial Testing Compliance
New Approaches to Reduce Costs; FF-AR-11-009;                                                               Business Mail Entry Unit Oversight Reviews –
                                                      Delivery Services; DA-AR-11-008; 6/8/2011
6/14/2011                                                                                                   Houston Business Mail Entry Unit – Houston, TX;
                                                      Field Financial                                       FF-MA-11-077; 4/27/2011
Human Resources and Security
                                                      District Practices Affecting Financial Risk;          Fiscal Year 2011 Financial Testing Compliance
Postal Service Work Rules and Compensation
                                                      FF-MA-11-116; 7/11/2011                               Business Mail Entry Unit Oversight Reviews
Systems; HR-AR-11-002; 9/19/2011
                                                                                                            – Industry General Mail Facility Business Mail
                                                      Financial Controls Over Passports; FF-AR-11-011;
Retirement for U.S. Postal Service Employees                                                                Entry Unit – City of Industry, CA; FF-MA-11-160;
                                                      7/27/2011
on Workers’ Compensation; HR-MA-11-001;                                                                     9/12/2011
4/22/2011                                             Fiscal Year 2011 Financial Testing Compliance
                                                                                                            Fiscal Year 2011 Financial Testing Compliance
                                                      Business Mail Entry Unit Oversight Reviews –
Information Technology                                                                                      Business Mail Entry Unit Oversight Reviews
                                                      Albany Business Mail Entry Unit – Albany, NY;
                                                                                                            – Jacksonville Business Mail Entry Unit –
Project Phoenix; IT-AR-11-009; 9/14/2011              FF-MA-11-141; 8/11/2011
                                                                                                            Jacksonville, FL; FF-MA-11-157; 9/8/2011
Network Optimization                                  Fiscal Year 2011 Financial Testing Compliance
                                                                                                            Fiscal Year 2011 Financial Testing Compliance
                                                      Business Mail Entry Unit Oversight Reviews –
Web-Based Application for the Discontinuance                                                                Business Mail Entry Unit Oversight Reviews –
                                                      Austin Business Mail Entry Unit Austin, TX;
of Postal Service-Operated Retail Facilities;                                                               Los Angeles Business Mail Entry Unit –
                                                      FF-MA-11-129; 7/26/2011
EN-AR-11-006(R); 7/7/2011                                                                                   Los Angeles, CA; FF-MA-11-133; 8/3/2011
                                                      Fiscal Year 2011 Financial Testing Compliance
                                                      Business Mail Entry Unit Oversight Reviews –




                                                                                                                                  April 1 — September 30, 2011 | 33
APPENDIX A




Fiscal Year 2011 Financial Testing Compliance         Fiscal Year 2011 Financial Testing Compliance         Fiscal Year 2011 Financial Testing Compliance
Business Mail Entry Unit Oversight Reviews –          Business Mail Entry Unit Oversight Reviews –          Detached Mail Unit Oversight Reviews – DST
Miami Business Mail Entry Unit – Miami, FL;           Salt Lake City Business Mail Entry Unit – Salt Lake   Output Detached Mail Unit – El Dorado Hills, CA;
FF-MA-11-071; 4/27/2011                               City, UT; FF-MA-11-060; 4/14/2011                     FF-MA-11-120; 7/11/2011
Fiscal Year 2011 Financial Testing Compliance         Fiscal Year 2011 Financial Testing Compliance         Fiscal Year 2011 Financial Testing Compliance
Business Mail Entry Unit Oversight Reviews –          Business Mail Entry Unit Oversight Reviews – San      Detached Mail Unit Oversight Reviews – First Data
Nashville Business Mail Entry Unit – Nashville, TN;   Francisco Business Mail Entry Unit –                  Resources Detached Mail Unit, Omaha, NE,
FF-MA-11-132; 7/29/2011                               San Francisco, CA; FF-MA-11-069; 4/15/2011            FF-MA-11-119; 7/8/2011
Fiscal Year 2011 Financial Testing Compliance         Fiscal Year 2011 Financial Testing Compliance         Fiscal Year 2011 Financial Testing Compliance
Business Mail Unit Oversight Reviews – New York       Business Mail Entry Unit Oversight Reviews –          Detached Mail Unit Oversight Reviews – Houston
Business Mail Entry Unit – New York, NY;              San Francisco Business Mail Entry Unit Program –      Chronicle Detached Mail Unit – Houston, TX;
FF-MA-11-097; 5/17/2011                               San Francisco, CA; FF-MA-11-165; 9/19/2011            FF-MA-11-059; 4/14/2011
Fiscal Year 2011 Financial Testing Compliance         Fiscal Year 2011 Financial Testing Compliance         Fiscal Year 2011 Financial Testing Compliance
Business Mail Entry Unit Oversight Reviews –          Business Mail Entry Unit Oversight Reviews –          Detached Mail Unit Oversight Reviews –
North Texas Business Mail Entry Unit – Coppell, TX;   St. Louis Business Mail Entry Unit – St. Louis, MO;   Mailworks Detached Mail Unit – Albany, NY;
FF-MA-11-095; 5/16/2011                               FF-MA-11-164; 9/15/2011                               FF-MA-11-098; 5/18/2011
Fiscal Year 2011 Financial Testing Compliance         Fiscal Year 2011 Financial Testing Compliance         Fiscal Year 2011 Financial Testing Compliance
Business Mail Entry Unit Oversight Reviews –          Business Mail Entry Unit Oversight Reviews –          Detached Mail Unit Oversight Reviews – Moores
Omaha Business Mail Entry Unit – Omaha, NE;           Tampa Mail Processing Annex – Tampa, FL;              Business Detached Mail Unit – Thurmont, MD;
FF-MA-11-061; 4/14/2011                               FF-MA-11-066; 4/19/2011                               FF-MA-11-112; 6/17/2011
Fiscal Year 2011 Financial Testing Compliance         Fiscal Year 2011 Financial Testing Compliance         Fiscal Year 2011 Financial Testing Compliance
Business Mail Entry Unit, Oversight Reviews           Business Mail Entry Unit Oversight Reviews            Detached Mail Unit, Oversight Reviews – New York
– Orlando Mail Processing Annex, Business             – Washington Business Mail Entry Unit –               Life Detached Mail Unit – Alpharetta, GA;
Mail Entry Unit – Orlando, FL; FF-MA-11-138;          Washington, DC; FF-MA-11-163; 9/12/2011               FF-MA-11-108; 6/10/2011
8/8/2011
                                                      Fiscal Year 2011 Financial Testing Compliance         Fiscal Year 2011 Financial Testing Compliance
Fiscal Year 2011 Financial Testing Compliance         Detached Mail Unit Oversight Reviews – American       Detached Mail Unit Oversight Reviews – North
Business Mail Entry Unit Oversight Reviews            Web Detached Mail Unit – Denver, CO;                  American Communications Detached Mail Unit –
– Philadelphia Business Mail Entry Unit –             FF-MA-11-081; 5/6/2011                                Duncansville, PA; FF-MA-11-125; 7/20/2011
Philadelphia, PA; FF-MA-11-134; 8/5/2011
                                                      Fiscal Year 2011 Financial Testing Compliance         Fiscal Year 2011 Financial Testing Compliance
Fiscal Year 2011 Financial Testing Oversight          Detached Mail Unit Oversight Reviews – Cabelas        Detached Mail Unit Oversight Reviews – North
Reviews – Phoenix Business Mail Entry Unit –          Detached Mail Unit – Wheeling, WV;                    American Mailing Service Detached Mail Unit –
Phoenix, AZ; FF-MA-11-130; 7/29/2011                  FF-MA-11-084; 5/10/2011                               El Paso, TX; FF-MA-11-049; 4/6/2011
Fiscal Year 2011 Financial Testing Compliance         Fiscal Year 2011 Financial Testing Compliance         Fiscal Year 2011 Financial Testing Compliance
Business Mail Entry Unit Oversight Reviews            Detached Mail Unit Oversight Reviews – Craftsman      Detached Mail Unit Oversight Reviews – Pitney-
– Pittsburgh, PA Business Mail Entry Unit –           Press Detached Mail Unit – Hyattsville, MD;           Bowes Professional Services Industries Presort
Pittsburgh, PA; FF-MA-11-086; 5/10/2011               FF-MA-11-055; 4/8/2011                                Services Industries Presort Services Detached Mail
                                                                                                            Unit – Grove City, OH; FF-MA-11-121; 7/11/2011
Fiscal Year 2011 Financial Testing Compliance         Fiscal Year 2011 Financial Testing Compliance
Business Mail entry Unit Oversight Reviews –          Detached Mail Unit Oversight Reviews – Data Mail,     Fiscal Year 2011 Financial Testing Compliance
Pittsburgh Business Mail Entry Unit – Pittsburgh,     Detached Mail Unit – Newington, CT;                   Detached Mail Unit Oversight Reviews –
PA; FF-MA-11-166; 9/20/2011                           FF-MA-11-110; 6/14/2011                               Publication Printers Detached Mail Unit – Denver,
                                                                                                            CO; FF-MA-11-064; 4/14/2011
Fiscal Year 2011 Financial Testing Compliance         Fiscal Year 2011 Financial Testing Compliance
Business Mail Entry Unit Oversight Reviews –          Detached Mail Unit Oversight Reviews – Direct         Fiscal Year 2011 Financial Testing Compliance
Portland Business Mail Entry Unit – Portland, OR;     Technologies Detached Mail Unit – Suwanee, GA;        Detached Mail Unit Oversight Reviews – Redi Mail
FF-MA-11-126; 7/22/2011                               FF-MA-11-072; 4/27/2011                               Detached Mail Unit – Fairfield, NJ; FF-MA-11-107;
                                                                                                            6/9/2011




34 | Semiannual Report to Congress
                                                                                                                                                  APPENDIX A




Fiscal Year 2011 Financial Testing Compliance         Fiscal Year 2011 Financial Testing Compliance,       Fiscal Year 2011 Financial Testing Compliance
Detached Mail Unit Oversight Reviews – RR             Plant-Verified Drop Shipment Oversight Reviews       Plant-Verified Drop Shipment Oversight Reviews –
Donnelley Detached Mail Unit – Bolingbrook, IL;       – Denver Mail Processing Annex Plant-Verified        Prescott Post Office – Prescott, AZ;
FF-MA-11-122; 7/18/2011                               Drop Shipment – Denver, CO; FF-MA-11-145;            FF-MA-11-068; 4/20/2011
                                                      8/19/2011
Fiscal Year 2011 Financial Testing Compliance                                                              Fiscal Year 2011 Financial Testing Compliance
Detached Mail Unit Oversight Reviews – Streamlite     Fiscal Year 2011 Financial Testing Compliance        Plant-Verified Drop Shipment Oversight Reviews –
Inc., Detached Mail Unit – Moonachie, NJ;             Plant-Verified Drop Shipment Oversight Reviews       Rapid City Post Office – Rapid City, SD;
FF-MA-11-054; 4/8/2011                                – Dominick V Daniels Processing and Distribution     FF-MA-11-078; 4/27/2011
                                                      Center Plant-Verified Drop Shipment – Kearny, NJ;
Fiscal Year 2011 Financial Testing Compliance         FF-MA-11-142; 8/17/2011                              Fiscal Year 2011 Financial Testing Compliance
Detached Mail Unit Oversight Reviews – Trend                                                               Plant-Verified Drop Shipment Oversight Reviews
Offset Detached Mail Unit - Carrollton, TX;           Fiscal Year 2011 Financial Testing Compliance        – San Francisco Network Distribution Center
FF-MA-11-115; 7/6/2011                                Plant-Verified Drop Shipment Oversight Reviews       Plant-Verified Drop Shipment – Richmond, CA;
                                                      – Fort Worth Processing and Distribution Center –    FF-MA-11-155; 9/2/2011
Fiscal Year 2011 Financial Testing Compliance         Fort Worth, TX; FF-MA-11-144; 8/23/2011
Detached Mail Unit Oversight Reviews – United                                                              Fiscal Year 2011 Financial Testing Compliance
Litho Detached Mail Unit – Ashburn, VA;               Fiscal Year 2011 Financial Testing Compliance        Plant-Verified Drop Shipment Oversight Reviews
FF-MA-11-079; 4/28/2011                               Plant-Verified Drop Shipment Oversight Reviews       – San Jose Processing and Distribution Center,
                                                      – Fort Worth Processing and Distribution Center –    Plant-Verified Drop Shipment – San Jose, CA;
Fiscal Year 2011 Financial Testing Compliance         Fort Worth, TX; FF-MA-11-161; 9/9/2011               FF-MA-11-135; 8/3/2011
Detached Mail Unit Oversight Reviews – World
Marketing Detached Mail Unit – Doraville, GA;         Fiscal Year 2011 Financial Testing Compliance        Fiscal Year 2011 Financial Testing Compliance
FF-MA-11-113; 6/17/2011                               Plant-Verified Drop Shipment Oversight Reviews –     Plant-Verified Drop Shipment Oversight Reviews
                                                      Grand Junction Foresight Carrier Annex Plant-        – San Jose Processing and Distribution Center,
Fiscal Year 2011 Financial Testing Compliance,        Verified Drop Shipment – Grand Junction, CO;         Plant-Verified Drop Shipment – San Jose, CA;
Plant-Verified Drop Shipment Oversight Reviews –      FF-MA-11-150; 8/30/2011                              FF-MA-11-167; 9/23/2011
Albany, NY; FF-MA-11-148; 8/19/2011
                                                      Fiscal Year 2011 Financial Testing Compliance        Fiscal Year 2011 Financial Testing Compliance
Fiscal Year 2011 Financial Testing Compliance         Plant-Verified Drop Shipment Oversight Reviews       Plant-Verified Drop Shipment Oversight Reviews
Plant-Verified Drop Shipment – Oversight Reviews      – Greensboro Network Distribution Center –           – Seattle Processing and Distribution Center –
– Atlanta Plant-Verified Drop Shipment – Atlanta,     Greensboro, OH; FF-MA-11-154; 9/2/2011               Seattle, WA; FF-MA-11-050; 4/6/2011
GA; FF-MA-11-139; 8/8/2011
                                                      Fiscal Year 2011 Financial Testing Compliance        Fiscal Year 2011 Financial Testing Compliance
Fiscal Year 2011 Financial Testing Compliance,        Plant-Verified Drop Shipment Oversight Reviews       Plant-Verified Drop Shipment Oversight Reviews
Plant-Verified Drop Shipment Oversight Reviews –      – Linthicum Processing and Distribution Center       – Shrewsbury Central MA Processing and
Atlanta Network Distribution Center – Atlanta, GA;    – Linthicum Heights, MD; FF-MA-11-085;               Distribution Center – Shrewsbury, MA;
FF-MA-11-146; 8/22/2011                               5/10/2011                                            FF-MA-11-073; 4/25/2011
Fiscal Year 2011 Financial Testing Compliance         Fiscal Year 2011 Financial Testing Compliance        Fiscal Year 2011 Financial Testing Compliance
Plant-Verified Drop Shipment Oversight Reviews –      Plant-Verified Drop Shipment Oversight Reviews       Plant-Verified Drop Shipment Oversight Reviews –
Austin Processing and Distribution Center – Austin,   – New Castle Processing and Distribution Facility    Southern Connecticut Processing and Distribution
TX; FF-MA-11-063; 4/14/2011                           Plant-Verified Drop Shipment – New Castle, PA;       Center – Wallingford, CT; FF-MA-11-151;
Fiscal Year 2011 Financial Testing Compliance         FF-MA-11-147; 8/23/2011                              8/29/2011
Plant-Verified Drop Shipment Oversight Reviews –      Fiscal Year 2011 Financial Testing Compliance        Fiscal Year 2011 Financial Testing Compliance
Bloomington Processing and Distribution Facility –    Plant-Verified Drop Shipment Oversight Reviews       Plant-Verified Drop Shipment Oversight Reviews –
Bloomington, IL; FF-MA-11-159; 9/8/2011               – North Texas Processing and Distribution Center –   Southern Maine Processing and Distribution Center
Fiscal Year 2011 Financial Testing Compliance         Coppell, TX; FF-MA-11-127; 7/22/2011                 – Scarborough, ME; FF-MA-11-162; 9/9/2011
Plant-Verified Drop Shipment Oversight Reviews        Fiscal Year 2011 Financial Testing Compliance        Fiscal Year 2011 Financial Testing Compliance
– Columbus Plant-Verified Drop Shipment –             Plant-Verified Drop Shipment Oversight Reviews       Plant-Verified Drop Shipment Oversight Reviews
Columbus, GA; FF-MA-11-128; 7/26/2011                 – Pittsburgh Network Distribution Center –           – Springfield Logistics and Distribution Center –
Fiscal Year 2011 Financial Testing Compliance         Warrendale, PA; FF-MA-11-152; 9/1/2011               Springfield, MA; FF-MA-11-156; 9/7/2011
Plant-Verified Drop Shipment Oversight Reviews
– Columbus Processing and Distribution Center –
Columbus, OH; FF-MA-11-153; 9/1/2011




                                                                                                                                 April 1 — September 30, 2011 | 35
APPENDIX A




Fiscal Year 2011 Financial Testing Compliance           Fiscal Year 2011 Financial Testing Compliance       Fiscal Year 2011 Financial Testing Compliance –
Plant-Verified Drop Shipment Oversight Reviews –        Postal Retail Unit Oversight Reviews – Silverado    Voyager eFleet Card Program Oversight Reviews
Springfield Mail Processing and Distribution Facility   Station – Las Vegas, NV; FF-MA-11-099;              – Wyoming Post Office – Wyoming, RI;
– Springfield, IL; FF-MA-11-136; 8/11/2011              5/18/2011                                           FF-MA-11-057; 4/14/2011
Fiscal Year 2011 Financial Testing Compliance,          Fiscal Year 2011 Financial Testing - Compliance     Fiscal Year 2011 Review of Statistical Tests –
Plant-Verified Drop Shipment, oversight Reviews –       Postal Retail Unit Oversight Reviews – Taneytown,   Atlanta District; FF-MA-11-070; 4/25/2011
Terre Haute Plant-Verified Drop Shipment – Terre        MD; FF-MA-11-090; 5/16/2011
Haute, IN; FF-MA-11-158; 9/8/2011                                                                           Fiscal Year 2011 Review of Statistical Tests –
                                                        Fiscal Year 2011 Financial Testing Compliance       Capital District; FF-MA-11-124; 7/20/2011
Fiscal Year 2011 Financial Testing Compliance           Postal Retail Unit Oversight Reviews – Terre Hill
Plant-Verified Drop Shipment Oversight Reviews –        Postal Office – Terre Hill, PA; FF-MA-11-092;       Fiscal Year 2011 Review of Statistical Tests –
Washington National Distribution Center – Capitol       5/17/2011                                           Central Plains District; FF-MA-11-089; 5/12/2011
Heights, MD; FF-MA-11-076; 4/26/2011                                                                        Fiscal Year 2011 Review of Statistical Tests –
                                                        Fiscal Year 2011 Financial Testing Compliance
Fiscal Year 2011 Financial Testing Compliance           Voyager eFleet Card Program Oversight Reviews       Chicago District; FF-MA-11-109; 6/13/2011
Postal Retail Unit Oversight Reviews – Best Wishes      – Bakersfield Hillcrest Annex – Bakersfield, CA;    Fiscal Year 2011 Review of Statistical Tests -
Postal Retail Unit – Santa Rosa, CA;                    FF-MA-11-065; 4/14/2011                             Detroit District; FF-MA-11-088; 5/11/2011
FF-MA-11-082; 5/10/2011
                                                        Fiscal Year 2011 Financial Testing Compliance       Fiscal Year 2011 Financial Testing Compliance
Fiscal Year 2011 Financial Testing Compliance           Voyager eFleet Card Program, Oversight Reviews –    Review of Statistical Tests – Fort Worth District;
Postal Retail Unit Oversight Reviews – Manassas         Duluth, MN; FF-MA-11-104; 5/27/2011                 FF-MA-11-048; 4/1/2011
Park Postal Retail Unit – Manassas Park, VA;
FF-MA-11-093; 5/16/2011                                 Fiscal Year 2011 Financial Testing Compliance       Fiscal Year 2011 Review of Statistical Tests –
                                                        Voyager eFleet Card Program Oversight Reviews       Hawkeye District; FF-MA-11-103; 5/26/2011
Fiscal Year 2011 Financial Testing – Compliance         – Gibsonville Voyager eFleet Card Program –
Postal Retail Unit Oversight Reviews – Merlin           Gibsonville, NC; FF-MA-11-058; 4/14/2011            Fiscal Year 2011 Review of Statistical Tests –
Postal Retail Unit – Merlin, OR; FF-MA-11-094;                                                              New York District; FF-MA-11-105; 6/8/2011
5/16/2011                                               Fiscal Year 2011 Financial Testing Compliance
                                                        Voyager eFleet Card Program Oversight Reviews       Fiscal Year 2011 Review of Statistical Tests
Fiscal Year 2011 Financial Testing Compliance           – Interbay Station Voyager eFleet Card Program –    – Philadelphia Metropolitan; FF-MA-11-117;
Postal Retail Unit Oversight Reviews – NW St.           Tampa, FL; FF-MA-11-056; 4/15/2011                  7/8/2011
Johns Finance Station (FTSA) – Jacksonville, FL;                                                            Fiscal Year 2011 Review of Statistical Tests –
FF-MA-11-080; 4/28/2011                                 Fiscal Year 2011 Financial Testing Compliance
                                                        Voyager eFleet Card Program Oversight Reviews       Sacramento District; FF-MA-11-111; 6/16/2011
Fiscal Year 2011 Financial Testing                      – Kirkwood Delivery Annex Voyager eFleet Card       Fiscal Year 2011 Review of Statistical Tests –
                                                        Program – Kirkwood, MO; FF-MA-11-062;               Southeast New England District; FF-MA-11-075;
Compliance Postal Retail Unit Oversight Reviews         4/18/2011
– Junction Post Office – Junction, TX; FF-                                                                  4/26/2011
MA-11-101; 5/23/2011                                    Fiscal Year 2011 Financial Testing Compliance       Fiscal Year 2011 Review of Statistical Tests –
                                                        Voyager eFleet Card Program Oversight Reviews –     Western New York District; FF-MA-11-106;
Fiscal Year 2011 Financial Testing Compliance           Lincoln Post Office Voyager eFleet Card Program
Postal Retail Unit Oversight Reviews                                                                        6/8/2011
                                                        – Lincoln, CA; FF-MA-11-074; 4/25/2011
– Lawrenceville Crogan Street Station –                                                                     Fiscal Year 2011 Review of Statistical Tests –
Lawrenceville, GA; FF-MA-11-087; 5/12/2011              Fiscal Year 2011 Financial Testing                  San Diego District; FF-MA-11-114; 6/17/2011
Fiscal Year 2011 Financial Testing Compliance           Compliance Voyager eFleet Card Program              Global Express Guaranteed; FF-AR-11-016;
Postal Retail Unit Oversight Reviews – North Little     Oversight Reviews – Rochester Downtown Station      9/27/2011
Rock Main Office – North Little Rock, AR;               Voyager eFleet Card Program – Rochester, NY;
FF-MA-11-100; 5/20/2011                                 FF-MA-11-067; 4/19/2011                             Government Relations Operations; FF-AR-11-014;
                                                                                                            9/23/2011
Fiscal Year 2011 Financial Testing Compliance           Fiscal Year 2011 Financial Testing Compliance
Postal Retail Unit Oversight Reviews – Orangeburg       Voyager eFleet Card Program Oversight Reviews       Postal Service Refunds; FF-AR-11-013;
Postal Retail Unit – Orangeburg, NY;                    – Wellesley Hills Branch – Wellesley Hills, MA;     8/30/2011
FF-MA-11-102; 5/25/2011                                 FF-MA-11-083; 5/10/2011
                                                                                                            Purchasing Compliance and Imprudent Purchases
Fiscal Year 2011 Financial Testing Compliance           Fiscal Year 2011 Financial Testing Compliance       Follow-Up Audit; FF-AR-11-010; 6/21/2011
Postal Retail Unit Oversight Reviews – Perry Hall,      Voyager eFleet Card Program Oversight Reviews
                                                                                                            Stamp Distribution Procedures; FF-AR-11-012;
MD, Postal Retail Unit – Perry Hall, MD;                – Westside Station Voyager eFleet Card Program –
                                                                                                            7/29/2011
FF-MA-11-091; 5/16/2011                                 Greensboro, NC; FF-MA-11-053; 4/7/2011




36 | Semiannual Report to Congress
                                                                                                                                                APPENDIX A




Statistical Tests for Fiscal Year 2011;           Supply Management                                     Engineering and Facilities
FF-MA-11-168; 9/29/2011
                                                  AECOM U.S. FY 2009 Labor Floor Check;                 Facility Optimization: Former Southeast Area
Financial Reporting                               CA-CAR-11-008; 7/14/2011                              Districts; DA-AR-11-007; 5/13/2011
Fiscal Year 2010 Financial Statements Audit –     Audit of Incurred Costs of ICF Group, Incorporated    Facility Optimization: Great Lakes Area; DA-
San Mateo Information Technology and Accounting   for Fiscal Year 2007; CA-CAR-11-009; 7/26/2011        AR-11-005; 4/22/2011
Service Center; FT-AR-11-008; 4/7/2011
                                                  Audit of SICK, Inc.’s Proposal for the Flats Edge     Facility Optimization: Pacific Area Districts; DA-
Fiscal Year 2010 Sarbanes-Oxley Testing for       Doubles Detection (FEDD) Modification Kits;           AR-11-006; 5/13/2011
Selected Business Processes; FT-MA-11-003;        CA-CAR-11-007; 7/11/2011
5/19/2011                                                                                               Internal Controls Over Facility Rental Income; DA-
                                                  Bell Services Group, Inc. Invoice Claim;              MA-11-003; 6/17/2011
Fiscal Year 2011 10Q Review; FT-ID-11-009         CA-MA-11-001; 4/20/2011
and FT-AR-11-012-; 6/22/2011; 8/3/2011                                                                  Nationwide Facility Optimization; DA-AR-11-009;
                                                  Contract Funding Approval; CA-AR-11-005;              8/26/2011
Fiscal Year 2011 Quarter III, Draft Fonn IC-Q     8/24/2011
Financial; FT-ID-11-012; 8/3/2011                                                                       Field Financial
                                                  Contract Management Data; CA-AR-11-002;
Independent Report on Employee Benefits,          4/27/2011                                             Bank Secrecy Compliance for Fiscal Year 2011;
Withholdings, Contributions, and Supplemental                                                           FT-AR-11-010; 6/24/2011
Semiannual Headcount Reporting Submitted to the   Internal Controls over the Contract Close-out
                                                  Process; CA-AR-11-004; 4/27/2011                      Human Resources and Security
Office of Personnel Management; FT-AR-11-012;
9/30/2011                                         Report on Audit of Proposal Submitted by Northrop     Compliance with Occupational Safety and Health
                                                  Grumman Corporation, Electronic Systems               Administration Recordkeeping Requirements;
Officer Compensation for Calendar Year 2010;                                                            HR-AR-11-004; 5/27/2011
FT-AR-11-011; 9/23/2011                           Company; CA-CAR-11-010; 9/2/2011
                                                  Report on Audit of Siemens, Industry Inc., Mobility   Postal Service Facility Security; HR-AR-11-005;
Postal Service Five-Year Financial Plan;                                                                8/5/2011
FT-MA-11-004; 8/18/2011                           Division, Infrastructure Logistics Rate Proposal;
                                                  CA-CAR-11-012; 9/22/2011                              Stand-by Time; HR-MA-11-003; 8/12/2011
Unemployment Compensation; FT-MA-11-005;
9/30/2011                                         Transportation                                        Information Technology

Human Resources and Security                      Management of the Highway Contract Route              Data Breach Incident Reporting; IT-AR-11-006;
                                                  Voyager Card Program; NL-AR-11-003; 6/7/2011          8/11/2011
2009 Pay for Performance Program;
HR-AR-11-006; 8/8/2011; HR-AR-11-006;                                                                   Remote Access Controls; IT-AR-11-008;
8/8/2011                                          OPERATIONAL RISK                                      9/14/2011

Mystery Shopper Program; HR-MA-11-002;            Cost, Revenue, and Rates                              Network Optimization
4/28/2011                                                                                               Beckley, WV Post Office Facility Consolidation; EN-
                                                  Service Performance Measurement Data -
Postal Service Workers’ Compensation Program;     Commercial Mail; CRR-AR-11-003; 9/6/2011              AR-11-005; 4/21/2011
HR-AR-11-007; 9/30/2011                                                                                 Bowling Green, KY Consolidation; EN-AR-11-008;
                                                  Delivery
Information Technology                                                                                  8/25/2011
                                                  Follow-Up on City Delivery Standard Operating
Chief Information Officer’s Budget Data;          Procedures; DR-AR-11-007; 9/26/2011                   University Station, Eugene, OR Consolidation; EN-
IT-AR-11-007; 8/25/2011                                                                                 AR-11-007; 7/20/2011
                                                  Mail Volume Measurement for City Delivery
Sales and Service                                 Carriers – Greater Indiana District DR-AR-11-005      Network Processing
                                                  6/29/2011
Effects of Compliance Rules on Mailers;                                                                 Assessment of Overall Plant Efficiency 2011;
MS-AR-11-006; 8/24/2011                           National Assessment of City Delivery Efficiency       NO-MA-11-004; 5/20/2011
                                                  2011 - Office Performance; DR-MA-11-002;
Mail Verification Procedures at Long Island                                                             Oshkosh, WI Processing and Distribution Facility
                                                  7/19/2011
Detached Mail Units; MS-AR-11-003; 5/26/2011                                                            Consolidation; NO-AR-11-006; 7/29/2011

Strategic Approaches to Revenue Protection;                                                             Postal Service Performance During the 2010 Fall
MS-AR-11-007; 9/30/2011                                                                                 Mailing Season; NO-AR-11-007; 9/7/2011




                                                                                                                               April 1 — September 30, 2011 | 37
APPENDIX A




Timely Processing of Mail at the Richmond, VA        Contract Postal Units Contract Oversight;            Postal Vehicle Service Transportation Routes –
Processing and Distribution Center;                  CA-AR-11-007; 9/30/2011                              Baltimore Processing and Distribution Center;
NO-AR-11-008; 9/13/2011                                                                                   NL-AR-11-004; 7/25/2011
                                                     The Sufficiency of Recent Policy Changes
Sales and Service                                    Regarding Contracting Conflicts of Interest;         Postal Vehicle Services - Scheduling and Staffing
                                                     CA-AR-11-006; 8/31/2011                              - Western Pennsylvania District; NL-AR-11-005;
Overweight Inbound International Mail;                                                                    8/12/2011
MS-MA-11-001; 9/13/2011                              Transportation
Supply Management                                    Highway Contract Routes – Western Pennsylvania
                                                     District; NL-AR-11-007; 9/27/2011
Contract Delivery Service Cost Controls;
CA-MA-11-002; 9/26/2011                              Mail Transport Equipment – Needs, Distribution,
                                                     and Use; NL-AR-11-006; 9/23/2011

PARIS Risk Models
Complete listing of all OIG PARIS Risk Models issued to Postal Service management.

For the period April 1— September 30, 2011
Field Financial                                      Fiscal Year 2011 Surface Transportation Risk         Fiscal Year 2011 Maintenance Risk Model Quarter
                                                     Model Quarter 2; NL-ID-11-005; 5/11/2011             3; DA-ID-11-007; 7/29/2011
Fiscal Year 2011 BMEU Quarter 3; FF-ID-11-017;
8/15/2011                                            Fiscal Year 2011 Surface Transportation Risk         Fiscal Year 2011 Real Estate Risk Model Quarter 2;
                                                     Model Quarter 3; NL-ID-11-007; 8/3/2011              DA-ID-11-005; 5/13/2011
Fiscal Year 2011 BMEU Quarter 2; FF-ID-11-011;
5/13/2011                                            Cost, Revenue, and Rates                             Fiscal Year 2011 Real Estate Risk Model Quarter 3;
                                                                                                          DA-ID-11-008; 8/4/2011
Fiscal Year 2011 Cost and Controls Model -           Fiscal Year 2011 Cost, Revenue and Rates Risk
Quarter 2; FF-ID-11-012; 5/16/2011                   Model Quarter 2;CRR-ID-11-008; 5/18/2011             Human Resources and Security
Fiscal Year 2011 Cost and Controls Model -           Fiscal Year 2011 Continuous Audit - Cost, Revenue    Fiscal Year 2011 Human Capital Optimization Risk
Quarter 3; FF-ID-11-018; 8/16/2011                   and Rates Risk Model Quarter 3; CRR-ID-11-004;       Model, Quarter 2; HR-ID-11-003; 5/17/2011
                                                     8/15/2011
Financial Reporting                                                                                       Fiscal Year 2011 Human Capital Optimization Risk
                                                     Information Technology                               Model, Quarter 3; HR-ID-11-004; 9/2/2011
Fiscal Year 2011 BSA Compliance-Quarter 3;
FT-ID-11-010; 8/10/2011                              Fiscal Year 2011 IT Security Risk Model Quarter 3;   Fiscal Year 2011 Security Risk Model Quarter 2;
                                                     IT-ID-11-005; 8/25/2011                              HR-ID-11-005; 9/28/2011
Fiscal Year 2011 Continuous Audit GL Trending –
Quarter 2; FT-ID-11-008; 5/18/2011                   Sales and Service                                    Supply Management
Fiscal Year 2011 Continuous Audit GL Trending –      Fiscal Year 2011 Retail Customer Service Quarter     FY 2011 Supplier Solvency Model Report Quarter
Quarter 3; FT-ID-11-011; 8/31/2011                   2; MS-ID-11-005; 5/16/2011                           2; CA-ID-11-003; 5/13/2011
Fiscal Year 2011 BSA Compliance-Quarter 2;           Fiscal Year 2011 Retail Customer Service Quarter     FY 2011 Supplier Solvency Model Report Quarter
FT-ID-11-007; 5/13/2011                              3; MS-ID-11-007; 8/12/2011                           3; CA-ID-11-004; 8/4/2011
Delivery                                             Fiscal Year 2011 Revenue Risk Model Quarter 2;       Planning and Strategic Studies
                                                     MS-ID-11-006; 5/16/2011
FY 2011 City Delivery Efficiency Model Quarter 2;                                                         FY 2011 Workplace Environment Risk Model
DR-ID-11-003; 6/14/2011                              Fiscal Year 2011 Revenue Risk Model Quarter 3;       Quarter 2; CI-ID-11-022; 6-13-2011
                                                     MS-ID-11-008; 8/15/2011
FY 2011 City Delivery Efficiency Model Quarter 3;                                                         FY 2011 Workplace Environment Risk Model
DR-ID-11-004; 8/17/2011                              Engineering and Facilities                           Quarter 3; CI-ID-11-029; 9/20/2011
Transportation                                       Fiscal Year 2011 Green Risk Model Quarter 3; DA-     Network Processings
                                                     ID-11-009; 8/4/2011
Fiscal Year 2011 Air Transportation Risk Model                                                            Network and Delivery Optimization Risk Model
Quarter 2; NL-AR-11-006; 5/11/2011                   Fiscal Year 2011 Maintenance Risk Model Quarter      Quarter 2; NO-AR-11-004; 5/12/2011
                                                     2; DA-ID-11-005; 5/13/2011
Fiscal Year 2011 Air Transportation Risk Model
Quarter 3; NL-ID-11-008; 8/11/2011




38 | Semiannual Report to Congress
                                                                                                                                                            APPENDIX B




APPENDIX B
Findings of Questioned Costs
For the period April 1— September 30, 2011


As required by the IG Act, the following pages show the total number of audit reports and the total dollar value of questioned costs in audit reports.

Questioned Cost: A cost that is unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, or contract.

                                                                                                                                                     Unsupported Costs
                                                                                                                                                            Included in
Description                                                                                      Number of Reports        Questioned Costs            Questioned Costs
Reports for which no management decision was made at the beginning of the reporting period                       5                  $1,876,254                           —
Reports requiring management decision that were issued during the reporting period                              22            $2,008,390,107                 $972,689,738
TOTAL                                                                                                           27            $2,010,266,361                 $972,689,738


Reports for which a management decision was made during the reporting period (i & ii)                           18            $1,853,279,539                 $829,180,045
   (i) Dollar Value of disallowed cost                                                                                            $673,366,803               $665,475,043
   (ii) Dollar value of cost not disallowed                                                                                   $1,179,912,736                 $163,705,002
Reports for which no management decision was made by the end of the reporting period                             9                $156,986,822               $143,509,693
Negotiations are ongoing
Reports for which no management decision was made within 6 months of issuance                                    2                  $1,064,010                           —
(See Note 1 for a list of individual reports)
Reports for which no management decision was made within 1 year of issuance                                      3                    $812,244                           —
(See Note 2 for a list of individual reports)


Note 1 — Reports for which no management decision was made within 6 months of issuance:
                                                                                                                                         Unsupported Costs Included
Subject                                                        Report/Case Number            Report Date    Questioned Costs                    in Questioned Costs
Incurred Costs of Serco, Incorporated for                                CA-CAR-11-004         3/14/2011               $197,124                                          —
Fiscal Year 2007
Lunda Construction Company Payment Request                               CA-CAR-11-006         3/30/2011              $866,886                                           —
TOTAL                                                                                                                $1,064,010                                          —


Note 2 — Reports for which no management decision was made within 1 year of issuance:

                                                                                                                                         Unsupported Costs Included
Subject                                                        Report/Case Number            Report Date    Questioned Costs                    in Questioned Costs
Tom Roberts Realty U.S. Postal Service Contract                          CA-CAR-10-010         7/28/2010                   $73                                           —
Termination Settlement Proposal Submitted by C.R.                       CA-CAR-09-019          7/24/2009              $336,849                                           —
Daniels, Incorporated
Audit of Portions of a Termination for Convenience                      CA-CAR-09-011          3/16/2009              $475,322                                           —
Settlement Proposal Submitted by Northrop Grumman
Electronic Systems
TOTAL                                                                                                                 $812,244                                           —


Note 3 — Contract reports with a significant audit finding:
None for this report period




                                                                                                                                           April 1 — September 30, 2011 | 39
APPENDIX C




APPENDIX C
Recommendations That Funds Be Put to Better Use
For the period April 1 — September 30, 2011

As required by the IG Act, the following pages show the total number of audit reports and the total dollar value of recommendations for funds that can be put to
better use by management.

Funds Put to Better Use: Funds that could be used more efficiently by implementing recommended actions.



Description                                                                                  Number of Reports     Dollar Value
Reports for which no management decision was made at the beginning of the reporting period                 —                 —
Reports issued during the reporting period                                                                  16   $11,468,105,234
TOTAL                                                                                                       16   $11,468,105,234


Reports for which a management decision was made during the report period (i & ii)                          16   $11,468,105,234
   (i) Value of recommendations agreed to by management                                                    —       $413,242,828
   (ii) Value of recommendations that were not agreed to by management                                     —     $11,054,862,406
Reports for which no management decision was made by the end of the reporting period                       —                 —
Reports for which no management decision was made within 6 months of issuance                              —                 —
(See Note 1 for a list of individual reports)
Reports for which no management decision was made within 1 year of issuance                                —                 —
(See Note 2 for a list of individual reports)


Note 1 — Reports for which no management decision was made within 6 months of issuance:
None for this report period


Note 2 — Reports for which no management decision was made within 1 year of issuance:
None for this report period




40 | Semiannual Report to Congress
                                                                                                                                                                                    APPENDIX D




APPENDIX D
Other Impacts
For the period April 1— September 30, 2011

Overview

Many of our audit reports identify areas for improvement that result in non-monetary benefits to the Postal Service. These benefits include improvements to
service, protection of assets and improvements in the reliability of data.



                                                                                                                                     Type of Measure                           Value or Amount
IMPROVED SERVICE
Recommendations that address the Postal Service’s efforts to improve the quality and accessibility of its products                   Number of Recommendations                                   32
and services
Number of customer service audits conducted                                                                                          Number of Audits                                            25


SAFEGUARDING ASSETS
Assets or Accountable Items at Risk
Inadequate internal controls put the value of assets or accountable items (such as cash and stamps) at risk of loss                  Dollar Value                                   $1,981,913,472
Physical Safety and Security
Dollar value of physical assets (plant, computer equipment, vehicles, and so forth) at risk of loss due to inadequate                Dollar Value                                                —
physical protection
Recommendations that address the safety and security of Postal Service employees and/or the work environment                         Number of Recommendations                                   —
Number of employee/facility safety and security audits conducted                                                                     Number of Audits                                            29
Information Technology Security
Inadequate controls/protection put the value of data, IT assets (software, networks), and employee work time at risk of loss         Dollar Value                                                —
Dollar value of data at risk                                                                                                         Dollar Value                                                —
Number of data security/IT security audits conducted                                                                                 Number of Audits                                            16
Revenue at Risk
Dollar value of revenue that the Postal Service is at risk of losing. (Mailers seeking alternative solutions for current services)   Dollar Value                                    $606,390,860
Disbursements at Risk
Dollar value of disbursements made where proper Postal Service internal controls and processes were not followed                     Dollar Value                                      $27,561,031
Goodwill / Branding
An “adverse impact” on goodwill is an actual event/problem that harms the Postal Service’s reputation or a                           Number of Issues Identified                                 27
potential problem that could negatively impact the Postal Service “brand name”
Misallocation of Costs
A misallocation of costs can occur when Postal Service costs are misclassified as volume variable, product specific, or              Dollar Value                                                —
institutional costs
Predicted Savings Shortfall
The difference between the savings predicted by the Decision Analysis Report for capital investment projects and the                 Dollar Value                                         $228,181
actual savings realized
Potential Additional Revenue
Revenue the Postal Service could potentially generate for goods delivered or services rendered based on suggested                    Dollar Value                                                —
improvements




                                                                                                                                                                   April 1 — September 30, 2011 | 41
APPENDIX D




                                                                                                               Type of Measure                  Value or Amount

RELIABILITY OF DATA
Records at Risk
Data at risk of corruption or loss due to inadequate internal controls and or protection                       Number of Data Records at Risk               112
Dollar value of data used to support management decisions that is not fully supported or completely accurate   Dollar Value                       $7,549,573,700




42 | Semiannual Report to Congress
                                                                                                                                                                    APPENDIX E




APPENDIX E
Reports with Significant Recommendations Pending Corrective Actions
For the period through September 30, 2011

As required by the IG Act, the following pages include a list of each audit report for which no management decision has been made by the end of the
reporting period.



                                                   Report Title, Recommendation Summary
                                                          	 R = Recommendation number
Report Number                Issue Date                   	 TID = Target Implementation Date
HM-AR-07-002                 5/16/2007             Postal Service’s Workplace Safety and Workplace-Related Injury Reduction Goals and Progress

                                                   R-1 — Closely monitor conversion to the SAP Environmental Health and Safety module and, as soon as possible, ensure the
                                                         upgraded system captures costs by facility, district/performance cluster, and area office as well as the costs for the
                                                         following key categories:
                                                             Non-injury accidents.
                                                             Injury accidents.
                                                             Type of injury.
                                                             Type of illness.
                                                             Per employee.

                                                          TID: September 2011
IS-AR-07-016                 8/20/2007             Audit of Database Administration Practices

                                                   R-2 — Establish policies and procedures for the protection and use of sensitive and business-controlled sensitive data in the
                                                         test, development, and production environments. TID: January 2012
IS-AR-07-017                 8/29/2007             Separation of Duties at the Eagan, MN; San Mateo, CA; and St. Louis, MO, Information Technology and Accounting
                                                   Service Centers

                                                   R-1 — Assess the risk of the duties of all Information Technology and Accounting Service Center positions (career and non-
                                                         career) for the purpose of assigning these positions as sensitive. TID: January 2012

                                                   R-4 — Notify the Postal Inspection Service when a new Information Technology and Accounting Service Center position is
                                                         created, a new employee is hired, or an employee is promoted to a new position, to make certain the proper clearance
                                                         level is attributed to the employee. TID: January 2012
FF-AR-08-131                 3/19/2008             Fiscal Year 2007 Financial Installation Audits – Business Mail Entry Units

                                                   R-2 — Provide proper management oversight and instructions to schedule periodic verifications when Periodicals mailings are
                                                         received during non-business hours. TID: December 2011
FF-MA-08-001                 7/21/2008             Fiscal Year 2008 – Use of No-Fee Money Orders

                                                   R-2 — Evaluate the feasibility of restricting the use of no-fee money orders for local purchases in order to reduce the Postal
                                                         Service’s exposure to financial loss. TID: June 2012




                                                                                                                                                  April 1 — September 30, 2011 | 43
APPENDIX E




                                               Report Title, Recommendation Summary
                                                      	 R = Recommendation number
Report Number                    Issue Date           	 TID = Target Implementation Date
SA-AR-08-009                     7/23/2008     Postal Service Continuity of Operations for the Great Lakes Area

                                               R-1 — Update contact information of key continuity of operations personnel at least semiannually, or more often as changes
                                                     occur. TID: December 2010

                                               R-2 — Complete continuity of operations training, including Postal Alert and Notification System training. TID: December 2010

                                               R-3 — Identify and prioritize essential functions. TID: December 2010

                                               R-4 — Establish a formal review process to ensure continuity of operations plans are completed, updated annually, and
                                                     maintained in the Postal Alert and Notification System, as required. TID: December 2010

                                               R-5 — Establish an area emergency management coordinating committee to provide oversight and assistance to district and
                                                     facility Emergency Management Teams in establishing, implementing, and reviewing emergency management plans.
                                                     TID: December 2010

                                               R-6 — Establish specific guidance for identifying and selecting alternate facilities, to include, at a minimum, the number
                                                     of alternate facilities that should be identified, and criteria regarding location, mail volume, and mail capacity. TID:
                                                     December 2010

                                               R-7 — Require personnel responsible for continuity of operations at primary and alternate facilities to conduct tests and
                                                     exercises to ensure alternate facilities can effectively process the primary facilities’ mail. TID: December 2010
SA-AR-08-013                     8/22/2008     Security Clearances for Postal Service Employees

                                               R-1 — Establish and implement a policy to periodically assess the risks associated with the duties of all Postal Service
                                                     positions to determine which positions require a security clearance. TID: January 2012

                                               R-2 — Revise the Administrative Support Manual, as appropriate, to reflect changes to the list of positions requiring a security
                                                     clearance. TID: January 2012
IS-AR-08-016                     8/29/2008     Identity Theft Potential in the Change of Address Process
                                               R-1 — Update the Internet and Telephone Change of Address applications to eliminate acceptance of anonymous prepaid
                                                     credit cards. TID: June 2012
IS-AR-09-001                     10/8/2008     Electronic Travel Voucher System Controls
                                               R-1 — Revise Postal Service Handbook F-15, Travel and Relocation, to require travelers to arrange for lodging at the prevailing
                                                     government lodging rate, whenever practical. TID: October 2011
                                               R-2 — Revise Postal Service Handbook F-15, Travel and Relocation, to require travelers to obtain prior approval and justify
                                                     exceeding the government lodging rate within the notes on the electronic voucher. TID: October 2011
                                               R-3 — Customize the Electronic Travel Voucher System to require the traveler to input a value in the room tax field (even if the
                                                     room tax is zero) or provide the traveler with a check box to indicate taxes not applicable in cases where the lodging stay is
                                                     tax exempt. TID: October 2011
                                               R-4 — Customize the Electronic Travel Voucher System to remove the option to combine room rate and room taxes into a single
                                                     entry. TID: October 2011
FF-AR-09-055                     12/26/2008    Fiscal Year 2008 Financial Installation Audits – Post Offices, Stations, and Branches

                                               R-5 — Issue guidance to the field to destroy all copies of Postal Service Form 1096, Customer Receipt, and determine when
                                                     this has been completed. TID: February 2012
FT-MA-09-001                     1/13/2009     Postal Service Management Instruction – Expenses for Internal and External Events

                                               R-2 — Consult with senior level management to further update the Management Instruction, Expenses for Internal and
                                                     External Events to require that all expenses associated with internal and external events be included in a unique
                                                     general ledger account(s). TID: September 2011




44 | Semiannual Report to Congress
                                                                                                                                              APPENDIX E




                             Report Title, Recommendation Summary
                                    	 R = Recommendation number
Report Number   Issue Date          	 TID = Target Implementation Date
IS-AR-09-004    2/20/2009    Access Controls in the Enterprise Data Warehouse

                             R-3 — Update the Business Impact Assessment for the Enterprise Data Warehouse and recertify the system as required by
                                  Postal Service Handbook AS-805-A, Application Information Security Assurance (ISA) Process. TID: October 2011
DR-MA-09-001    2/23/2009    Management of City Letter Carriers’ Street Performance

                             R-1 — Revise existing Postal Service policies and Standard Operating Procedures to reduce the number of required Delivery
                                   Operations Information System reports from eight to four to aid supervisors in managing carrier street performance.
                                   TID: October 2011

                             R-2 — Modify the Delivery Operations Information System Route/Carrier Daily Performance Analysis Report to show “exceptions”
                                   - i.e., only actual route times varying from projected route times. TID: October 2011
CA-AR-09-005    6/1/2009     Supply Management’s Oversight of Delegations of Authority

                             R-2 — Remind delegatees of their responsibility to ensure compliance with their delegation of authority letters and require
                                   delegatees to certify they have instituted a system of controls and oversight to ensure:
                                      Best value determinations are performed and documented.
                                      Annual reports are developed and provided to Supply Management detailing financial activities, including
                                        the number of contracts or agreements entered into and associated expenditures.
                                      Annual ethics training is completed and documented for staff involved in administering contracts or agreements.

                                     TID: December 2011

                             R-3 — Require the Travel, Retail, and Temporary Services Category Management Center to develop procedures for collecting
                                   reports required under the delegations of authority and for reviewing delegatees’ control and oversight systems to
                                   ensure the delegation of authority letter minimum control requirements are met. If minimum control requirements are
                                   not met, discontinuation should be considered, with the results and justification documented in an oversight file.
                                   TID: December 2011
EN-AR-09-005    9/28/2009    Performance Goals for Market-Dominant Products

                             R-1 — Document the methodology used to develop future performance goals for market-dominant products.
                                   TID: December 2012
SA-AR-09-008    9/29/2009    Postal Service Aviation Security Capping Report

                             R-1 — Strengthen internal controls requiring management reviews to ensure corrective actions are taken to improve the
                                   performance of noncompliant offices. TID: September 2011

                             R-2 — Develop and implement performance measures or other appropriate evaluation factors to improve operations personnel
                                   performance in following established policies and procedures for detecting and preventing anonymous and potentially
                                   dangerous mail from entering the mailstream. TID: September 2011
NL-AR-09-010    9/30/2009    Fuel Management Consumption Strategies for Surface Network Operations

                             R-1 — Revise the fuel consumption strategy for surface network operations covering Postal Service and HCR transportation to
                                   ensure that it is comprehensive and implements the industry best practices identified in our audit. TID: June 2011

                             R-2 — Assess and implement all opportunities for owned, leased, and contracted vehicles to use technology to reduce wind
                                   resistance and identify the most viable advanced aerodynamics options consistent with industry best practices and
                                   adjust contracts as appropriate to account for the reduced fuel need. TID: June 2011

                             R-3 — Establish and implement tire inflation maintenance requirements for its owned heavy-duty vehicle fleet, as well as its
                                   leased, and contracted vehicles consistent with industry best practices and adjust contracts as appropriate to account
                                   for the reduced fuel need. TID: June 2011

                             R-5 — Evaluate HCR and, where feasible, implement speed limit requirements consistent with industry best practices and
                                   adjust contracts as appropriate to account for the reduced fuel need. TID: June 2011




                                                                                                                           April 1 — September 30, 2011 | 45
APPENDIX E




                                              Report Title, Recommendation Summary
                                                     	 R = Recommendation number
 Report Number                   Issue Date          	 TID = Target Implementation Date
 DR-AR-10-001                    10/15/2009   Use of the Carrier Optimal Routing System

                                              R-1 — Resolve performance issues with the system and application problems with Web Carrier Optimal Routing (WebCOR)
                                                    and implement the web-based program nationwide. TID: September 2011

                                              R-3 — Mandate districts to track and monitor vehicle mileage changes in the Carrier Optimal Routing system.
                                                    TID: December 2012
 IS-AR-10-002                    12/22/2009   General Control Review of Human Resources Shared Service Center

                                              R-1 — Designate as sensitive those positions at the Human Resources Shared Service Center that require access to personally
                                                    identifiable information. TID: January 2012

                                              R-2 — Initiate appropriate security clearance investigations for all employees in sensitive positions at the Human Resources
                                                    Shared Service Center. TID: January 2012

                                              R-5 — Revise Handbook AS-805, Information Security, to clarify the approval process for wireless access points on the Postal
                                                    Service network. TID: March 2012
 DA-MA-10-001                    1/28/2010    Sustainability: Promoting Energy and Recycling Compliance Fiscal Year 2009

                                              R-1 — Issue written guidance to installation managers to encourage the use of more remote building management systems.
                                                    TID: October 2011
 MS-AR-10-001                    2/9/2010     Plant-Verified Drop Shipment Controls

                                              R-4 — Provide an electronic reporting solution whereby PS Form 8125, Plant-Verified Drop Shipment (PVDS) Verification
                                                    and Clearance, information at the destination facility can be compared with the information at the origin location.
                                                    Discrepancies or incomplete forms should be investigated. TID: December 2012
 EN-AR-10-003                    2/12/2010    Manasota Processing and Distribution Center Consolidation

                                              R-1 — Ensure the implementation activities of processing and distribution center consolidations begin immediately after area
                                                    mail processing proposal approval and require headquarters’ approval when implementation is delayed more than 3
                                                    months. TID: May 2011
 DR-AR-10-003                    3/16/2010    Rural Delivery Christmas Operations

                                              R-1 — Renegotiate with the National Rural Letter Carriers Association (NRLCA) to eliminate the supplemental Christmas
                                                    Overtime Pay Provision, Article 9.2(k), set forth in the NRLCA Agreement expiring in November 2010 and any
                                                    subsequent NRLCA agreements. TID: December 2012




46 | Semiannual Report to Congress
                                                                                                                                                     APPENDIX E




                             Report Title, Recommendation Summary
                                    	 R = Recommendation number
Report Number   Issue Date          	 TID = Target Implementation Date
IS-AR-10-008    5/4/2010     Certification and Accreditation Process

                             R-1 — Provide Corporate Information Security the authority necessary to enforce and execute the responsibilities for managing
                                   the Certification and Accreditation process. TID: January 2012

                             R-2 — Update Handbook AS-805, Information Security, to require mandatory annual training on the Certification and
                                  Accreditation process for all portfolio managers. TID: January 2012

                             R-3 — Ensure all portfolio managers receive mandatory training regarding their role, responsibility, and accountability for
                                   implementing and reinitiating the Certification and Accreditation process. This training should also be made available to
                                   all executive sponsors. TID: January 2012

                             R-4 — Hold portfolio managers accountable to complete the Certification and Accreditation process within the Technology
                                   Solutions Life Cycle prior to implementing critical applications into the production environment. TID: January 2012

                             R-5 — Complete the Certification and Accreditation process for all critical applications currently in production, as required by
                                   Handbook AS-805, Information Security. TID: January 2012

                             R-6 — Ensure the portfolio managers work with the executive sponsors to initiate the recertification process for critical
                                   applications assigned to their functional areas as required by Handbook AS-805, Information Security. TID: January 2012

                             R-7 — Develop a formal, centralized mechanism to track the status of all unmitigated residual risks identified in the applications’
                                   risk mitigation plan. TID: January 2012

                             R-8 — Input unmitigated residual risks identified in the applications’ risk mitigation plan into the formal, centralized tracking
                                   mechanism and track the risks through resolution. TID: January 2012

                             R-9 — Work with executive sponsors to resolve unmitigated residual risks identified in the risk mitigation plans and recertification
                                   letters associated with the critical applications. TID: January 2012

                             R-10 — Establish policy to designate a central repository for storing the Certification and Accreditation documentation.
                                    TID: January 2012

                             R-11— Update Handbook AS-805, Information Security, to designate a single entity responsible for uploading the Certification
                                   and Accreditation information in the central repository for all critical applications. TID: January 2012

                             R-12 — Input the Certification and Accreditation documentation for all critical applications into the central repository.
                                    TID: January 2012
CA-AR-10-004    5/27/2010    Contract Payment Terms
                             R-1 — Revise the Postal Service’s Supplying Principles and Practices, Section 5 12.2, Payment Time Frame, and other
                                   sections as necessary, with language stating that when contracting officers negotiate payment terms other than net 30
                                   days they include the business rationale and associated documentation for the payment terms in the contract file.
                                   TID: September 2011
HR-AR-10-002    5/27/2010    U.S. Postal Service’s Use of Employees in Rehabilitation Status

                             R-1 — Establish a plan to in-source all call center work, including a staffing and training plan. TID: None

                             R-2 — Expedite negotiations and finalize an agreement with the American Postal Workers Union that addresses staffing for
                                   in-sourced call center work. TID: None
NO-MA-10-001    6/11/2010    Assessment of Overall Plant Efficiency 2010

                             R-1 — Reduce 16.2 million workhours by FY 2012 with an associated economic impact of $743,961,610.
                                   TID: December 2012
CI-MA-10-001    6/18/2010    Civil Service Retirement System Overpayment by the Postal Service

                             R-1 — Pursue all necessary actions, including those suggested by the Office of Inspector General, to either secure the return
                                   of the $75 billion overpayment or to otherwise realize the benefit of this overpayment to the Postal Service. TID: None




                                                                                                                                  April 1 — September 30, 2011 | 47
APPENDIX E




                                                Report Title, Recommendation Summary
                                                       	 R = Recommendation number
Report Number                   Report Number          	 TID = Target Implementation Date
MS-AR-10-004                    7/28/2010       Efficiency of Retail Customer Service Operations

                                                R-1 — Implement best practices for Retail Customer Service operations at all facilities. TID: October 2011

                                                R-2 — Explore opportunities to consolidate business mail acceptance operations at post offices, stations, and branches. TID:
                                                      October 2011

                                                R-3 — Periodically evaluate operating efficiency by assessing performance against productivity targets and adjusting resources in
                                                      response to workload changes. TID: December 2011

                                                R-4 — Re-deploy employees, as appropriate, to facilities where there is sufficient workload to support the workhours. TID:
                                                      October 2011
IS-AR-10-012                    8/4/2010        L’Enfant Badge Access Controls

                                                R-1 — Perform periodic reviews of all badge access to the L’Enfant Plaza Headquarters building and sensitive work areas and
                                                      remove access for individuals who no longer require it. TID: January 2012
FF-AR-10-210                    8/6/2010        Revenue for Official Mail from the House of Representatives Mailroom

                                                R-1 — Coordinate with the U.S. House of Representatives mailroom and the Southern Maryland Business Mail Entry Unit to
                                                      develop and implement processes to verify postage claimed for individually franked mailpieces, such as establishing
                                                      alternate mailing system agreements. TID: March 2011
FT-MA-10-001                    8/16/2010       Federal Employees Retirement System Overfunding

                                                R-1 — Pursue legislative action to alter the Postal Service’s Civil Service Retirement and Disability Fund Contributions for 1 or
                                                      more years until the Federal Employees Retirement System surplus is extinguished. TID: September 2011

                                                R-2 — Coordinate with the Office of Personnel Management to identify causes of actual payout differences between the
                                                      Postal Service and the rest of the federal government and use that information to reduce the risk of future surpluses.
                                                      TID: September 2011

                                                R-3 — Pursue legislative action to define future distribution of significant surpluses. TID: September 2011

                                                R-4 — Coordinate with the Office of Personnel Management to create a sub-account within the Civil Service Retirement and
                                                      Disability Fund exclusive to the Postal Service. TID: September 2011
EN-AR-10-005                    8/17/2010       Stations and Branches Optimization and Consolidation

                                                R-1 — Develop detailed policies and procedures for the station and branch closing process. TID: October 2011

                                                R-2 — Improve the reliability and usefulness of retail facilities data by validating, correcting, and updating information in the
                                                      database. TID: October 2011

                                                R-3 — Develop measurable criteria to mitigate inconsistencies in evaluating factors used for determining feasibility to
                                                      discontinue operations. TID: October 2011

                                                R-4 — Process and approve or disapprove discontinuance proposals in a timely manner. TID: October 2011
DA-MA-10-004                    8/31/2010       Postal Service Patent Management

                                                R-1 — Establish a strategic plan with timelines to capitalize on the Postal Service’s patent inventory strength.
                                                      TID: October 2011
MS-MA-10-001                    9/02/2010       Electronic Postmark Program License Fees

                                                R-1 — Develop a process to monitor and validate licensees’ Electronic Postmark usage. TID: None

                                                R-3 — Initiate actions to collect the past due Electronic Postmark license fees. TID: None




48 | Semiannual Report to Congress
                                                                                                                                              APPENDIX E




                             Report Title, Recommendation Summary
                                    	 R = Recommendation number
Report Number   Issue Date          	 TID = Target Implementation Date
IS-MA-10-001    9/2/2010     Securing Sensitive Data on Postal Inspection Service Laptops

                             R-1 — Create and maintain an inventory of all existing Inspection Service laptops. TID: October 2011

                             R-2 — Install full disk encryption on all new Inspection Service laptop computers before deployment. TID: September 2011

                             R-3 — Develop an expedited deployment schedule to reduce the risk of sensitive data loss from the unencrypted laptops.
                                   TID: October 2011

                             R-4 — Remove and destroy hard drives, or completely degauss, all sensitive data stored on the older Postal Inspection Service
                                   laptops before disposing of the equipment. TID: September 2011

                             R-5 — Enter all new laptops in the centralized inventory system upon deployment to Inspection Service users.
                                   TID: September 2011
EN-AR-10-006    9/17/2010    Southeast Area Processing and Distribution Center Consolidations

                             R-1 — Complete the full consolidation feasibility study on the Daytona Beach Processing and Distribution Facility into the Mid-
                                   Florida Processing and Distribution Center and take action to eliminate excess space in the Mid-Florida Processing and
                                   Distribution Center TID: December 2011

                             R-2 — Determine alternate uses of excess space at the Birmingham Processing and Distribution Center and annex.
                                   TID: June 2011
FF-AR-10-224    9/20/2010    Postal Service Area and District Office Field Structure

                             R-1 — Develop a comprehensive strategic plan to guide future area and district field structure decisions. The plan should
                                   address environmental factors, mail volumes, technological advancements, operational considerations and other issues
                                   impacting Postal Service strategic goals. TID: September 2011

                             R-2 — Implement one or more of the three options, or combinations of portions of these options, for consolidating the area
                                   and district field structure:
                                       Consolidate district offices that are within 50 miles of one another.
                                       Consolidate area and district offices that have less than the mean mail volume and workhours.
                                       Relocate area offices to headquarters.

                                     TID: None

                             R-3 — Develop a policy and process for performing a comprehensive evaluation of the area and district office structure at
                                   least every 5 years. TID: March 2012

                             R-4 — Develop a policy and procedures to maintain adequate supporting documentation for all area and district consolidations or
                                   expansions as part of a comprehensive strategic plan. TID: March 2012




                                                                                                                            April 1 — September 30, 2011 | 49
APPENDIX E




                                                  Report Title, Recommendation Summary
                                                         	 R = Recommendation number
 Report Number                       Issue Date          	 TID = Target Implementation Date
 CA-AR-10-005                        9/20/2010    U.S. Postal Service Purchasing Policies

                                                  R-1 — Establish a competition advocate within the Postal Service to independently review and approve justifications for
                                                        noncompetitive purchases and support the use of competition in the Postal Service. The competition advocate should
                                                        also prepare and submit an annual report to the chief financial officer and vice president, Supply Management,
                                                        describing barriers to competition and goals and plans for increasing competition. TID: November 2011

                                                  R-3 — Review the need for and propriety of all existing contracts with former executives. TID: September 2011

                                                  R-5 — Take steps to ensure full and accurate tracking and public reporting of noncompetitive contracting actions. Data
                                                        reported should include, but not be limited to, total dollars committed both competitively and noncompetitively; and
                                                        the contractor, dollar value, and noncompetitive justifications for noncompetitive contracts. The tracking mechanism
                                                        should be able to identify when a noncompetitive contract has crossed the review and approval threshold based on
                                                        modification after initial award. TID: November 2011

                                                  R-6 — Revoke delegations of authority for contracts that acquire goods and services for the Postal Service and bring these
                                                        contracts into compliance with all Postal Service purchasing policies. TID: December 2011

                                                  R-9 — Institute an oversight mechanism to ensure and track compliance with updated noncompetitive contracting policies.
                                                        TID: March 2012
 IS-AR-10-014                        9/23/2010    Controls Over Payment Card Transaction Data

                                                  R-1 — Finalize and implement a Payment Card Industry remediation plan that includes all associated costs, resources, and
                                                        milestones needed to achieve and maintain Payment Card Industry-Data Security Standards compliance.
                                                        TID: September 2013

                                                  R-3 — Ensure the Payment Card Industry compliance requirements are included in all pre- and post-award contract
                                                        documentation that includes, but is not limited to, statements of work, amendments, and modifications.
                                                        TID: December 2011

                                                  R-4 — Validate and monitor all service providers’ Payment Card Industry compliance status throughout the lifetime of the
                                                        contract. TID: December 2011
 NL-AR-10-010                        9/29/2010    Air Networks – Federal Express Transportation Agreement – National Analysis

                                                  R-5 — Standardize Postal Service oversight at Terminal Handling Services operations to ensure adequate on-site Postal
                                                        Service representation to monitor Federal Express operations and ensure local compliance with established processes
                                                        and procedures. TID: March 2011
 NL-AR-10-009                        9/29/2010    Management of Mail Transport Equipment - National Analysis

                                                  R-1 — Further develop, update and reinforce national Mail Transport Equipment policies and procedures contained in the
                                                        Postal Operations Manual (POM) and the Postal Handbook PO-502, Container Methods, which address Mail Transport
                                                        Equipment inventory and accountability controls, including validating customer Mail Transport Equipment needs as well
                                                        as tracking and reconciling Mail Transport Equipment loaned to mailers and other external customers. TID: June 2011

                                                  R-2 — Continue pursuing implementation of a planned automated Mail Transport Equipment management system and ensure
                                                        its functionality for inventory and accountability processes and for enhancing the Postal Service’s visibility into Mail
                                                        Transport Equipment internally and at mailers. TID: June 2011

                                                  R-3 — Reestablish an on-hand Mail Transport Equipment volume count process, both internally and externally, until an
                                                        automated Mail Transport Equipment management system is fully developed, deployed, and operational.
                                                        TID: June 2011

                                                  R-4 — Ensure that Area Distribution Networks’ Offices have appropriate resources assigned responsibly to monitor and
                                                        manage Mail Transport Equipment, and maintain compliance with Postal Operations Manual requirements.
                                                        TID: June 2011

                                                  R-5 — Document the current process for identifying annual, routine Mail Transport Equipment purchase requirements and
                                                        ensure the process includes Mail Transport Equipment Service Center network information and facility and mailer
                                                        inventory data, to ensure that only the necessary amount of Mail Transport Equipment is purchased. TID: June 2011




50 | Semiannual Report to Congress
                                                                                                                                                 APPENDIX E




                             Report Title, Recommendation Summary
                                    	 R = Recommendation number
Report Number   Issue Date          	 TID = Target Implementation Date
NL-AR-10-008    9/29/2010    Postal Vehicle Services - Scheduling and Staffing - Atlanta District

                             R-2 — Fully utilize the flexibility under the existing American Postal Workers Union Collective Bargaining Agreement and
                                   Memorandum of Understanding to increase the use of split days off for Postal Vehicle Service drivers and maximize the
                                   use of part-time regular PVS drivers where possible. TID: June 2011

                             R-3 — Increase the allowable percentage of all types of part-time employees to allow maximum use of part-time regular
                                   employees in facilities with Postal Vehicle Service operations. TID: June 2011

                             R-4 — Provide permanent flexibility to schedule split days off for employees in facilities with Postal Vehicle Service operations.
                                   TID: June 2011
CA-AR-10-006    9/30/2010    Certification Process for Electronic Payments

                             R-1 — Develop an oversight mechanism to monitor and ensure contracting officers’ and/or designated officials’ receipt and
                                   certification of invoices. TID: September 2011

                             R-2 — Reiterate to contracting officers and/or their designees their roles and responsibilities, and the importance of following
                                   Postal Service criteria, policies, and procedures for certification of invoices prior to payment to ensure that invoices are
                                   correct and goods and services were received. TID: August 2011

                             R-3 — Develop and implement written procedures for receiving invoices for annual HCR services and verifying that services
                                   were rendered prior to payment. TID: August 2011

                             R-4 — Identify and notify the contracting officers to oversee and administer all HCR payments in the Postal Service Accounts
                                   Payable Excellence system. TID: August 2011

                             R-5 — Review the $7.6 million in payments made more than 30 days after contract end dates and collect overpayments.
                                   TID: August 2011

                             R-6 — Provide detailed, consistent training for all designated officials on their roles and responsibilities and the usage of the
                                   Utility Management System. TID: August 2011

                             R-7 — Regularly reconcile payments made for utility services to identify and collect overpayments. TID: August 2011

                             R-8 — Ensure that Utility Management System designated official contact information is accurate and that the system requires
                                   positive certification by the designated official before invoice payment. TID: August 2011

FT-MA-10-002    9/30/2010    Summary of Substantial Overfunding and Postal Service Pension and Retiree Health Care Funds.

                             R-1 — Develop a comprehensive legislative strategy to recover overfunded amounts. TID: September 2011

                             R-2 — Aggressively pursue and carefully review all available data related to Civil Service Retirement System, Federal
                                   Employee Retirement System, and retiree health benefit calculations, including those associated with determining any
                                   overfunding situations, to ensure that calculations are reasonable and accurate. TID: September 2011
DR-AR-11-001    11/22/2010   City Delivery Operations Workforce Planning

                             R-1 — Collaborate with area management to continue development and enhancement of an overall city delivery operations
                                   strategy that optimizes the most cost-effective combination of full-time, part-time, and transitional city carrier
                                   resources to reduce overtime workhours and costs for final publication to area officials. TID: December 2011
CA-AR-11-001    11/23/2010   Information Technology Contract Payment Oversight

                             R-1 — Ensure that proper personnel have a contracting officer’s representatives (CORs) letter of designation that allows them
                                   to certify invoices for payment. TID: August 2011

                             R-2 — Require contracting officers’ representatives to reconcile invoices to receiving documents prior to certification for
                                   payment. TID: August 2011




                                                                                                                              April 1 — September 30, 2011 | 51
APPENDIX E




                                              Report Title, Recommendation Summary
                                                     	 R = Recommendation number
Report Number                    Issue Date          	 TID = Target Implementation Date
IT-AR-11-001                     12/6/2010    Network Perimeter Firewall

                                              R-5 — Establish comprehensive firewall security standards TID: September 2011

                                              R-8 — Identify and review firewall access control rules semiannually and remove duplicate and unused firewall access control
                                                    rules. TID: October 2011
NL-MA-11-001                     12/6/2010    Surface Mail Classes on Air Transportation Networks

                                              R-1 — Verify that actions already taken related to minimizing surface mail classes on the FedEx Day-Turn network are applied
                                                    to other air networks to ensure transportation managers use surface transportation, instead of the FedEx Night-Turn,
                                                    commercial air carrier, United Parcel Service, and Christmas air transportation networks to move surface mail types
                                                    where possible. TID: None

                                              R-2 — Routinely provide headquarters and area management with data, including Transportation Cost System/Cost and
                                                    Revenue Analysis data, to monitor and track the volume and avoid additional costs for flying surface mail classes on
                                                    the FedEx Night-Turn, commercial air carrier, United Parcel Service, and Christmas air transportation networks. TID:
                                                    September 2011

                                              R-3 — Reinforce existing policies and procedures for the processing and assigning of mail to air and surface transportation.
                                                    TID: None
CRR-AR-11-001                    12/7/2010    Periodicals Mail Costs

                                              R-2 — Issue guidance to processing facilities that emphasizes managing the expected delivery dates and eliminates using the
                                                    “Hot 2C” program to provide expedited processing or manual processing for select publications. TID: April 2011

                                              R-3 — Re-emphasize use of the Electronic Mail Improvement Reporting System to processing facility personnel and define the
                                                    types of issues that should be reported. TID: May 2011


NO-AR-11-004                     12/14/2010   Houston, TX Processing and Distribution Center Mail Consolidation

                                              R-1 — Pursue expansion of the North Houston Processing and Distribution Center and consolidate the Houston Processing
                                                    and Distribution Center’s mail processing operations into the expanded facility, by fiscal year 2013. TID: None
FF-AR-11-004                     12/15/2010   Express Mail Guarantees

                                              R-1 — Evaluate the reasons for late deliveries for American territories and, if it’s not possible to significantly improve on-time
                                                    delivery, determine if they should adjust or eliminate guarantees. TID: March 2011

                                              R-2 — Review military Express Mail and logistics to evaluate reasons for the delays in delivering mail to military personnel and
                                                    make necessary changes to improve service performance. TID: June 2011

                                              R-3 — Implement actions to include military ZIP Codes in the Service Delivery Calculator. TID: March 2011

                                              R-4 — Identify reasons for late Express Mail deliveries to ZIP Codes in the 50 states with the highest volumes of late deliveries
                                                    and either implement actions to reduce late delivery or determine if they should adjust or eliminate delivery guarantee
                                                    time. TID: March 2011

                                              R-5 — Establish a timeframe for and develop a process to analyze Express Mail refunds by origin and destination to evaluate
                                                    risk and identify necessary changes in service in order to make better business decisions for guarantees.
                                                    TID: March 2011

                                              R-6 — Reiterate to area vice presidents and appropriate district personnel their responsibility to monitor and close inactive
                                                    Express Mail Corporate Accounts when appropriate. TID: March 2011

                                              R-7 — Communicate current Express Mail Corporate Account inactive account information to area vice presidents for action to
                                                    be taken by appropriate district personnel. TID: March 2011




52 | Semiannual Report to Congress
                                                                                                                                              APPENDIX E




                             Report Title, Recommendation Summary
                                    	 R = Recommendation number
Report Number   Issue Date          	 TID = Target Implementation Date
IT-AR-11-002    1/12/2011    Fiscal Year 2010 Selected Information Technology General Controls

                             R-1 — Develop a procedure to notify administrators supporting Windows servers when new group policy updates are available.
                                   TID: August 2011

                             R-2 — Correct discrepancies identified by the periodic reviews of all Windows servers, as appropriate. TID: September 2011

                             R-3 — Develop a methodology to centrally manage all local accounts. TID: September 2011
DR-AR-11-002    1/18/2011    City Delivery Efficiency Review – New York District

                             R-1 — Reduce the New York District’s workhours by 279,853 to achieve an associated economic impact of more than $9.3
                                   million annually, or in excess of $93 million over 10 years. TID: December 2011
NO-MA-11-002    3/1/2011     Management Advisory – Processing of Collection Box Flats in the Philadelphia Metropolitan Customer Service District

                             R-1 — Process collection box flats in accordance with Postal Service Standard Operating Procedures TID: April 2011
IT-AR-11-005    3/14/2011    Securing Information on Portable Devices

                             R-4 — Coordinate and update Information Technology guidance and Handbook AS-701, Materials Management, to define
                                   staff roles and responsibilities for updating laptop changes in the Asset Inventory Management System and 4Z-PS969
                                   system. TID: December 2011
DR-MA-11-001    3/14/2011    The Effects of the Flats Sequencing System on Delivery Operations – Arizona District

                             R-1 — Continue to collaborate with business mailers to ensure flat mailpieces meet automation requirements and reduce the
                                   amount of unworked flat mail sent to delivery units. TID: None
IT-AR-11-004    3/16/2011    Computer Incident Data Reliability

                             R-3 — Integrate the Data Loss Prevention and Security Information Manager applications with the security incident
                                   management system to ensure a single incident data repository. TID: October 2012

                             R-4 — Either modify the existing incident management system or pursue development of a new system that enforces date and
                                   time value sequence and data validation. TID: October 2012
NL-AR-11-002    3/18/2011    Postal Vehicle Service – Scheduling and Staffing – Connecticut Valley District

                             R-1 — Ensure that Southern Connecticut Processing and Distribution Center and Springfield Processing and Distribution
                                   Center managers follow prescribed fleet management procedures for making Postal Vehicle Service schedules
                                   effective, including conducting schedule and vehicle utilization reviews. TID: None

                             R-2 — Verify elimination from the Postal Vehicle Service trip schedules of 7,245 workhours from the Southern Connecticut
                                   Processing and Distribution Center and 2,856 workhours from the Springfield Processing and Distribution Center
                                   identified during our audit and already agreed to by management. TID: March 2011

                             R-3 — Reassess the remaining 4,562 workhours identified in our audit and eliminate the workhours as indicated by the
                                   reassessment, or document the reasons for retaining the workhours. TID: May 2011
EN-MA-11-001    3/25/2011    Benchmarking Mail Distribution to Carriers

                             R-1 — Pursue a delivery unit assistant initiative to have transitional employees or part-time flexible employees perform
                                   in-office activities including casing and preparing mail for carriers. TID: None




                                                                                                                            April 1 — September 30, 2011 | 53
APPENDIX E




                                              Report Title, Recommendation Summary
                                                     	 R = Recommendation number
Report Number                    Issue Date          	 TID = Target Implementation Date
HR-AR-11-001                     3/31/2011    Allegations of Inaccurate Time and Attendance Records

                                              R-1 — Establish and implement controls in the Time and Attendance Collection Systems to document supervisors’ justification
                                                    of changes to employees’ time. TID: January 2012

                                              R-2 — Issue supplemental guidance emphasizing the importance of completing Postal Service Form 1017-A, Time
                                                    Disallowance Record, and PS Form 3971, Request for or Notification of Absence. TID: July 2012

                                              R-3— Establish a review and approval process to ensure time disallowances are appropriate and documented as required.
                                                   TID: July 2012

                                              R-4 — Establish periodic monitoring of clock ring deletions to ensure employee workhours are recorded accurately.
                                                    TID: July 2012

                                              R-5 — Provide periodic refresher training to managers, postmasters, supervisors, and acting supervisors on the Time and
                                                    Attendance Collection System. TID: July 2012

                                              R-6 — Issue supplemental guidance to supervisors and managers regarding the appropriate use of operation codes
                                                    associated with recording safety talks and informational meetings in the Time and Attendance Collection System.
                                                    TID: July 2012
HR-AR-11-003                     3/31/2011    Overtime Usage

                                              R-1 — Develop and implement a plan to attain alignment between current workload and workforce levels, by location, to
                                                    ensure effective and efficient use of Postal Service resources. TID: None

                                              R-2 — Ensure significant changes impacting operations and resources are accounted for in the budget plan. TID: None
DA-MA-11-002                     4/8/2011     Postal Service Patent Management Continuation

                                              R-1 — Work closely with subject matter experts to review highly rated patents to draft claims as appropriate.
                                                    TID: October 2011

                                              R-2 — Develop a comprehensive strategy for developing patent intellectual property that enhances Postal Service products
                                                    and services and its competitive position in the global marketplace and is a source of income. The strategy should
                                                    capitalize on patent evaluations performed to date and include an assessment of business options available for
                                                    achieving the significant financial returns. TID: October 2011

                                              R-3 — Ensure the Postal Service has an effective patent management process and comprehensive licensing program in place.
                                                    This establishes control that protects intellectual capital and provides an appropriate return on investment
                                                    TID: October 2011
HR-MA-11-001                     4/22/2011    Retirement for U.S. Postal Service Employees on Workers’ Compensation

                                              R-1 — Continue to pursue legislative change to reform the Federal Employees’ Compensation Act to reduce workers’
                                                    compensation benefits for retirement age employees. TID: None
CA-AR-11-002                     4/27/2011    Contract Management Data

                                              R-2 — Develop guidance to define data elements that should be recorded in the Contract Authoring Management System.
                                                    TID: June 2011

                                              R-3 — Develop mandatory training for all employees with access to the Contract Authoring Management System.
                                                    TID: October 2011

                                              R-4 — Develop a process along with policies and procedures to ensure validity and completeness of contract data and
                                                    establish definitions of employees’ roles and responsibilities for data quality. TID: June 2011
CA-AR-11-004                     4/27/2011    Internal Controls over the Contract Close-out Process

                                              R-1 — Establish standardized contract close-out policies and procedures. This should include a system alert requiring
                                                    contracting staff to complete Contract Authoring Management System close-out reports before they close-out a
                                                    contract and ensuring that remaining funds are promptly decommitted when the contract is completed and closed.
                                                    TID: September 2011

                                              R-3 — Establish a periodic control to ensure category management center personnel follow records management
                                                    requirements for contract files, including, but not limited to retaining records for the required 6 years. TID: July 2011




54 | Semiannual Report to Congress
                                                                                                                                               APPENDIX E




                             Report Title, Recommendation Summary
                                    	 R = Recommendation number
Report Number   Issue Date          	 TID = Target Implementation Date
NO-MA-11-004    5/20/2011    Assessment of Overall Plant Efficiency 2011

                             R-1 — Reduce 14,017,630 workhours by FY 2012 with an associated economic impact of $647,586,823. TID: September
                                   2013
HR-AR-11-004    5/27/2011    Compliance with Occupational Safety and Health Administration Recordkeeping Requirements

                             R-1 — Enhance procedures to ensure Human Resource Management, Safety, and facility officials are appropriately identifying,
                                   classifying, recording, and communicating Occupational Safety and Health Administration injuries. TID: September
                                   2011

                             R-2 — Revise the Postal Service Occupational Safety and Health Administration Recordable Date policy to better clarify how
                                   to determine Occupational Safety and Health Administration recordable dates when they differ from the initial injury or
                                   illness date. TID: September 2011

                             R-3 — Complete the automation capability of the Occupational Safety and Health Administration Form 300, Log of Work-
                                   Related Injuries and Illnesses, in the Employee Health and Safety system, and require all facilities to generate the
                                   automated form to validate them with the corresponding manual versions. TID: September 2011

                             R-4 — Establish mandatory training for officials responsible for determining Occupational Safety and Health Administration
                                   recordable cases and completing related forms. TID: December 2011
NL-AR-11-003    6/7/2011     Management of the Highway Contract Route Voyager Card Program

                             R-1 — Further develop, update, and reinforce requirements for the Postal Service and HCR suppliers to enhance systems
                                   infrastructure, including incorporating systems edits and automation tools where possible, and monitor fuel
                                   transactions as necessary to avoid unauthorized purchases and ensure adherence to contract gallon limits. TID:
                                   October 2011

                             R-2 — Ensure that contracting officers apply pooling in accordance with established requirements and ensure pools are
                                   appropriately documented and approved. TID: October 2011

                             R-3 — Perform and document all outstanding reconciliations for prior periods to determine excess purchased fuel gallons and
                                   collect resultant overpayments. TID: October 2011

                             R-4 — Implement controls over the contractors that include:
                                     Strengthening procedures for safeguarding and securing HCR Voyager Cards; ensuring suppliers use available tools
                                       to effectively manage the cards; and requiring that suppliers maintain an inventory of issued cards.
                                     Coordinating with the U. S. Bank to limit the number of HCR Voyager Cards issued to highway suppliers; establish
                                       a secure activation protocol for mailed HCR Voyager Cards and unique personal identification numbers; and
                                       implement a periodic review of new, cancelled, and extra HCR Voyager Cards to identify potential patterns of
                                       mismanagement or misuse.
                                    TID: June 2012

                             R-5 — Continue to pursue funding when feasible for enhancing the functionality of the Fuel Asset Management System and
                                   Enterprise Data Warehouse eFuel modules and to ensure the systems are user-friendly and enable management to
                                   more efficiently and effectively monitor authorized gallons, identify excess gallons, and recover any related excess
                                   payments. TID: None

                             R-6 — Periodically assess the financial and operational viability of the HCR Voyager Card program, including performing a
                                   formal cost-benefit analysis based on complete and recent data, considering the costs of implementing controls to
                                   address deficiencies identified in this report as appropriate. TID: September 2011

                             R-7 — Continue to identify and evaluate other fuel management program best practices used in the transportation industry,
                                   and perform a comparative analysis against the existing HCR Voyager Card program, where possible. TID: None




                                                                                                                            April 1 — September 30, 2011 | 55
APPENDIX E




                                                  Report Title, Recommendation Summary
                                                         	 R = Recommendation number
 Report Number                       Issue Date          	 TID = Target Implementation Date
 DA-AR-11-008                        6/8/2011     Conflicts of Interest: Facility Leases and Contract Delivery Services

                                                  R-1 — Revise the Postal Service’s policy for leasing property under 3,000 square feet from employees or relatives to include
                                                        an ethics review. TID: December 2011

                                                  R-2 — Evaluate the universe of potential facility lease conflicts and develop an action plan to minimize active and future
                                                        conflicts. TID: June 2012

                                                  R-3 — Implement a control to systemically identify, monitor, and resolve potential conflicts of interest with facility leases and,
                                                        if necessary, request waivers for leases that represent conflicts. TID: December 2011

                                                  R-4 — Evaluate the universe of potential delivery service contract conflicts and develop an action plan to minimize active and
                                                        future conflicts. TID: September 2011

                                                  R-5 — Implement a control to systemically identify, monitor, and resolve contract delivery service regulatory and policy
                                                        violations in a timely manner. TID: September 2011
 FF-AR-11-009                        6/14/2011    New Approaches to Reduce Costs

                                                  R-3 — Conduct a review to evaluate the benefits of contracting for armed security services. TID: October 2011

                                                  R-4 — If the review supports contracting for security, implement a strategy to utilize contract staffing to supplement or replace
                                                        Postal Service security force positions. TID: October 2011
 DR-MA-11-002                        7/19/2011    National Assessment of City Delivery Efficiency 2011 - Office Performance

                                                  R-1 — Reduce 2,002,690 workhours during fiscal year 2012 with an associated economic impact of $88,192,128. TID: None
 EN-AR-11-007                        7/20/2011    University Station, Eugene, OR, Consolidation

                                                  R-1 — Ensure that district managers review and certify that local managers have identified, reviewed, and documented
                                                        all applicable direct and indirect costs in discontinuance proposals prior to submission to headquarters for final
                                                        determination. TID: None
 NL-AR-11-004                        7/25/2011    Postal Vehicle Service Transportation Routes – Baltimore Processing and Distribution Center

                                                  R-1 — Ensure that Baltimore Processing and Distribution Center managers follow prescribed fleet management procedures for
                                                        making Postal Vehicle Service schedules effective, including conducting schedule and vehicle utilization reviews. TID:
                                                        None

                                                  R-2 — Verify elimination of the 11,789 workhours identified in our audit - and already agreed to by management - from the
                                                        Postal Vehicle Service trip schedules. TID: None

                                                  R-3 — Reassess the remaining 7,273 workhours and eliminate the workhours as indicated by the reassessment or document
                                                        the reasons for retaining them. TID: August 2011

                                                  R-4 — Eliminate from highway contracts 24 trips identified in our audit and already agreed to by local and area management.
                                                        TID: None
 HR-AR-11-005                        8/5/2011     Postal Service Facility Security

                                                  R-1 — Establish and implement a formal plan for conducting Vulnerability Risk Assessment Tool reviews for all postal facilities
                                                        to identify, monitor, and address facility security deficiencies. TID: October 2011

                                                  R-2 — Establish and implement policies and procedures for responsible officials to conduct on-site inspections and
                                                        evaluations to determine the security status of postal facilities. TID: January 2012

                                                  R-3 — Issue supplemental guidance and enhance internal controls to:
                                                          Ensure security control officers conduct facility security surveys as required.
                                                          Ensure corrective actions are taken to address security deficiencies.
                                                          Ensure security control officers take the mandatory security training.

                                                          TID: August 2012




56 | Semiannual Report to Congress
                                                                                                                                               APPENDIX E




                             Report Title, Recommendation Summary
                                    	 R = Recommendation number
Report Number   Issue Date          	 TID = Target Implementation Date
HR-AR-11-006    8/8/2011     2009 Pay for Performance Program

                             R-1 — Clarify policies and procedures to better define the relationship between the national performance assessment and
                                   core requirements, and the role of higher level management in the pay for performance process. TID: November 2011

                             R-2 — Establish and implement mandatory training events that educate new and existing participants and managers on
                                   policy, roles and responsibilities, goal setting, and the program’s objectives. TID: November 2011

                             R-3 — Evaluate the effectiveness of the current process used to establish and use behavioral core objectives to rate
                                   employees’ performance. TID: November 2011
NL-AR-11-005    8/12/2011    Postal Vehicle Services - Scheduling and Staffing - Western Pennsylvania District

                             R-2 — Verify the elimination of 1,252 workhours from the Postal Vehicle Service trip schedules assigned to the Pittsburgh
                                   Processing and Distribution Center. TID: August 2011

                             R-3 — Reassess the remaining 2,056 workhours and eliminate them as indicated by the reassessment, or document the
                                   reasons for retaining the workhours. TID: October 2011

                             R-4 — Negotiate the use of split days off with local union officials and continue to reduce operating costs through staff
                                   reductions. TID: August 2011

                             R-5 — Eliminate the scheduling clerk position from the Pittsburgh P&DC employee complement. TID: August 2011

                             R-6 — Ensure the use of chock blocks at the Pittsburgh Processing and Distribution Center by Postal Vehicle Service motor
                                   vehicle operators and provide oversight of chock block usage. TID: August 2011
HR-MA-11-003    8/12/2011    Stand-by Time

                             R-1 — Assess the inappropriate use of stand-by overtime nationwide, especially in function one, and implement internal
                                   controls to address usage and recording issues identified. TID: September 2011

                             R-2 — Enhance management controls to ensure employees and supervisors accurately report and record stand-by time.
                                   TID: September 2011
CA-AR-11-005    8/24/2011    Contract Funding Approval

                             R-1 — Direct program office officials to submit eBuy requisitions for contract funding approval for transportation contacts
                                   within Contract Authoring Management System prior to contractual commitments. TID: October 2011

                             R-2 — Establish an agreement with Network Operations and Global Business to ensure approved eBuy requisitions for surface
                                   transportation contracts is obtained as required. TID: October 2011
MS-AR-11-006    8/24/2011    Effects of Compliance Rules on Mailers

                             R-1 — Estimate and consider mailing industry costs as part of cost-benefit analyses, where practical, to determine whether
                                   the benefits of new initiatives and rule changes are justified in light of total industry costs. TID: None

                             R-2 — Further involve stakeholder groups in formal dialogue during the strategic planning phase of new initiatives. TID: None

                             R-3 — Enhance transparency and accountability by documenting Postal Service collaborative efforts (discussions, action
                                   items, resolutions, milestones). TID: None

                             R-4 — Continue to train and monitor Postal Service acceptance employees on changes to program requirements and related
                                   compliance rules. TID: None
IT-AR-11-007    8/25/2011    Chief Information Officer’s Budget Data

                             R-1 — Establish and implement an alternate, streamlined finance number assignment process to ensure confidentiality and
                                   timeliness, while maintaining validation controls when carrying out urgent reorganization and redesign activities.
                                   TID: December 2011




                                                                                                                             April 1 — September 30, 2011 | 57
APPENDIX E




                                                  Report Title, Recommendation Summary
                                                         	 R = Recommendation number
Report Number                        Issue Date          	 TID = Target Implementation Date
DA-AR-11-009                         8/26/2011    Nationwide Facility Optimization

                                                  R-2 — Revise the vice president, Facilities, Report Card to include measurement in square footage terms and seek to include
                                                        facility optimization goals as part of the National Performance Assessment. TID: October 2011
DA-AR-11-010                         8/30/2011    Intelligent Mail: Realizing Revenue Assurance Benefits

                                                  R-1 — Establish timeframes for implementing the enhanced/expanded automated verifications as described in the original
                                                        Intelligent Mail infrastructure Decision Analysis Report. TID: January 2013

                                                  R-2 — Develop a tolerance level for low scan rates to use for exception reporting. TID: January 2013

                                                  R-3 —Develop a process for identifying the cause(s) of low scan rates for customer follow-up as warranted.
                                                       TID: January 2013
FF-AR-11-013                         8/30/2011    Postal Service Refunds

                                                  R-1 — Document the Special Payment Postage System refund process and policies and devise a method to communicate the
                                                        changes effectively to customers. TID: December 2011

                                                  R-2 — Analyze and establish an administrative and minimum fee that will cover processing costs. TID: March 2012

                                                  R-3 — Establish a timeframe performance standard for processing customer meter mail refunds. TID: March 2012

                                                  R-4 — Complete the update to the PostalOne! system to enable electronic transmission of Value Added Refund data to
                                                        accounts payable. TID: March 2012
CRR-AR-11-003                        9/6/2011     Service Performance Measurement Data - Commercial Mail

                                                  R-1 — We recommend the chief information officer and executive vice president direct the vice president, Mail Entry and
                                                        Payment Technology, to:
                                                          Establish milestones for implementing recovery of Full-Service Intelligent Mail Barcode discounts provided to mailers
                                                            when Full-Service mailings do not meet the specific requirements for the discounts received.

                                                         TID: None
NO-AR-11-008                         9/13/2011    Timely Processing of Mail at the Richmond, VA, Processing and Distribution Center

                                                  R-1 — Our observations revealed that floor supervisors did not ensure employees adhered to color-code and mail reporting
                                                        requirements. Also, they routinely failed to promptly assess the mail volume and swiftly adjust workhours, assignments,
                                                        sort plans, transportation, and any other operational requirements to ensure the Richmond P&DC met customer service
                                                        commitments. TID: August 2011
IT-AR-11-009                         9/14/2011    Project Phoenix

                                                  R-1 — Modify the Technology Solution Life Cycle process to require the identification, documentation, and analysis of
                                                        applicable back-end business processes and information technology systems during the technology solution
                                                        requirements, analysis, and design phases. TID: November 2011
IT-AR-11-008                         9/14/2011    Remote Access Controls

                                                  R-1 — Implement two-factor authentication to comply with Handbook AS-805 requirements and to meet Payment Card
                                                        Industry – Data Security Standards. TID: December 2012

                                                  R-2 — Configure remote access firewalls according to Handbook AS-805 and applicable firewall security standards.
                                                        TID: March 2012

                                                  R-5 — Configure virtual private network servers and firewalls to support only authorized encryption algorithms
                                                        TID: December 2011

                                                  R-7 — Enforce Handbook AS-805 to require administrators to periodically patch third-party applications in accordance with
                                                        policy. TID: December 2011

                                                  R-11 — Suspend remote access for all employees or contractors until they complete required security awareness training.
                                                        TID: September 2012




58 | Semiannual Report to Congress
                                                                                                                                              APPENDIX E




                             Report Title, Recommendation Summary
                                    	 R = Recommendation number
Report Number   Issue Date          	 TID = Target Implementation Date
HR-AR-11-002    9/19/2011    Postal Service Work Rules and Compensation Systems

                             R-1 — Additional increased flexibility to temporarily assign employees across crafts. TID: November 2011

                             R-2 — Improved workforce flexibility through non-traditional career options, such as emphasizing part-time employment as a
                                   career choice or modifying full-time assignments. TID: November 2011

                             R-3 — A comprehensive study to determine the optimal incentive-based carrier compensation system. TID: November 2011
CRR-AR-11-004   9/19/2011    Transportation Cost System Inputs into the Cost and Revenue Analysis Report

                             R-1 — Coordinate with applicable vice presidents to form a coordination committee to develop system interfaces necessary to
                                   provide automated data from the Transportation Cost System for product costing purposes. TID: December 2011
FF-AR-11-015    9/23/2011    Business Mail Acceptance Centralization Process

                             R-1 — Adopt a standardized, clear process to guide each district on how to conduct a centralization feasibility study and
                                   update the Business Mail Entry Centralization Standard Operating Procedure accordingly. TID: March 2012

                             R-2 — Require each district to conduct a centralization feasibility study, document the results, and take action based on the
                                   results of the study, as appropriate. TID: October 2013

                             R-3 — Manage business mail entry workhour usage to achieve 93 percent efficiency and develop tools to monitor
                                   performance. TID: September 2012

                             R-4 — Establish annual goals for business mail entry workhour efficiency to include measuring performance against goals.
                                   TID: September 2012
FF-AR-11-014    9/23/2011    Government Relations Operations

                             R-1 — Establish procedures to gather workload statistics on all functions within the Office of Government Relations and Public
                                   Policy, periodically monitor those statistics, and make appropriate adjustments to the organizational structure, as
                                   needed. TID: March 2012

                             R-2 — Develop written policies and procedures to guide operations within the Office of Government Relations and Public
                                   Policy. TID: March 2012

                             R-3 — Review placement of the Stamp Services organization within the Office of Government Relations and Public Policy to
                                   determine whether it is properly aligned within the Postal Service based on Stamp Services’ primary mission.
                                   TID: None
NL-AR-11-006    9/23/2011    Mail Transport Equipment – Needs, Distribution, and Use

                             R-1 — Perform a comprehensive mail transport equipment needs analysis for the network distribution center network to
                                   determine the amount of rolling stock, by type, needed on a daily basis to meet operational requirements.
                                   TID: October 2011

                             R-2 — Monitor the purchases of cardboard containers (other than Postal Paks) for network distribution center facilities to
                                   ensure they make only necessary purchases and are the best mail transport equipment option for the Postal Service
                                   given rolling stock inventory in the network. TID: September 2011

                             R-3 — Reissue over-the-road container policy to reflect the present and future operational needs and use of the containers
                                   within and outside the network. TID: October 2011

                             R-4 — Ensure Network Operations takes a more active role in the management and monitoring of the need, distribution, and
                                   use of existing mail transport equipment rolling stock within the network distribution center network.
                                   TID: September 2011
FT-AR-11-001    9/23/2011    Officer Compensation for Calendar Year 2010

                             R-1 — Develop and implement policies and procedures to ensure adherence to compensation cap limitations.
                                   TID: December 2011




                                                                                                                            April 1 — September 30, 2011 | 59
APPENDIX E




                                                  Report Title, Recommendation Summary
                                                         	 R = Recommendation number
 Report Number                       Issue Date          	 TID = Target Implementation Date
 CA-MA-11-002                        9/26/2011    Contract Delivery Service Cost Controls

                                                  R-1 — Instruct administrative officials to complete route surveys for the 47 contract delivery service routes identified in this
                                                        audit. TID: November 2011

                                                  R-2 — Establish a system of accountability to ensure route surveys are completed the year prior to contract renewal.
                                                        TID: November 2011
 DR-AR-11-007                        9/26/2011    Follow-up on City Delivery Standard Operating Procedures

                                                  R-1 — Re-evaluate the certification criteria and ensure the criteria require units to meet, at least the national average percent
                                                        to standard for office operations. TID: December 2012

                                                  R-3 — Establish an annual process to de-certify units that do not maintain performance standards after certification.
                                                        TID: December 2012
 NL-AR-11-008                        9/27/2011    Evaluation of Major Transportation Technology Initiatives

                                                  R-1 — Ensure that Network Operations sponsors and project managers follow the Postal Service’s technology solution life
                                                        cycle guidelines. TID: October 2011

                                                  R-2 — Require operational deficiencies be identified for corrective action and addressed prior to project closeout.
                                                        TID: November 2011

                                                  R-3 — Facilitate the inclusion of a robust risk assessment, risk mitigation, system data migration, and transition planning best
                                                        practices into investment planning policies. TID: October 2011

                                                  R-4 —Ensure establishment and maintenance of the proper line of authority, funding, and oversight for key programs by
                                                       responsible sponsors and management officials. TID: October 2011

                                                  R-5 — Ensure comprehensive training is provided for employees throughout the technology’s life cycle. TID: May 2012
 NL-AR-11-007                        9/27/2011    Highway Contract Routes - Western Pennsylvania District

                                                  R-1 — We recommended the vice president, Eastern Area Operations, ensure Western Pennsylvania District managers follow
                                                        prescribed procedures for making highway contracts effective and economical, including the continual monitoring and
                                                        adjustment of trips based on need. TID: September 2011

                                                  R-2 — We recommended the vice president, Eastern Area Operations, verify the elimination or modification of the 11 trips
                                                        from highway contracts. TID: September 2011

                                                  R-3 —We recommended the vice president, Eastern Area Operations, eliminate or modify the additional 15 trips from highway
                                                       contracts. TID: October 2011
 CA-AR-11-007                        9/30/2011    Contract Postal Units Contract Oversight

                                                  R-1 — Modify contract postal units’ contracts to include clauses identifying the submission of revenue data as an official
                                                        invoice from the contractor. Contractors should be notified of the clause addition and informed that their revenue data
                                                        submission constitutes an official invoice. TID: None

                                                  R-2 — Create a process to ensure the contracting officer or contracting officer’s representative validates and certifies invoices
                                                        prior to payment, using data maintained in the Contract Postal Unit Technology system. TID: None

                                                  R-3 — Establish a mandatory training procedure to ensure all contract officer representatives receive training of appointed
                                                        duties within 2 weeks of notification of the contracting officer’s representative appointment. TID: March 2012

                                                  R-4 — Develop an oversight mechanism to monitor whether contracting officer’s representatives conduct quarterly
                                                        performance and annual financial reviews, obtained completed appointment letters, and retain contract postal unit
                                                        contracts in the contract administrative files. TID: March 2012




60 | Semiannual Report to Congress
                                                                                                                                                APPENDIX E




                             Report Title, Recommendation Summary
                                    	 R = Recommendation number
Report Number   Issue Date          	 TID = Target Implementation Date
HR-AR-11-007    9/30/2011    Postal Service Workers’ Compensation Program

                             R-1 — Continue to pursue legislative change to transform the Federal Employees’ Compensation Act into a modernized
                                   workers’ compensation program that includes best practices for increasing program effectiveness and efficiencies
                                   and reducing costs. TID: None

                             R-2 — Pursue legislative change to amend Federal Employees’ Compensation Act to allow recovery of continuation of pay
                                   benefits in third-party cases. TID: None

                             R-3 — Pursue legislative change to reform Federal Employee Compensation Act to allow employing agencies to present
                                   evidence at hearings when fraud is alleged. TID: None

                             R-4 — Clearly define organizational responsibilities for detecting workers’ compensation fraud.
                                     Establish requirements for Department of Labor to respond to reports of investigations within 45 days after receiving
                                       them.
                                     Establish a provider compliance program.
                                     Revise the method used to determine the administrative fee to ensure the fee is based on actual costs to administer
                                       Postal Service Workers’ Compensation Program.

                                    TID: None
                             R-5 —Develop mandatory and refresher training for Postal Service officials responsible for workers’ compensation to ensure
                                  they are aware of their roles and responsibilities for workers’ compensation. TID: September 2012
MS-AR-11-007    9/30/2011    Strategic Approaches to Revenue Protection

                             R-1 — Work with a broadened group of internal and external stakeholders to prepare for streamlining the entry of business
                                   mail, accelerate the timeline for streamlined acceptance and verification, and seek to leverage technology to provide
                                   revenue protection for Basic Service Intelligent Mail and non-automated volumes. TID: January 2013




                                                                                                                               April 1 — September 30, 2011 | 61
APPENDIX F and G




APPENDIX F
Significant Management Decisions in Audit Resolution
For the period April 1— September 30, 2011

As required by the IG Act, the following page discusses information concerning any significant management decision with which the Inspector General disagrees
and is currently in audit resolution.


                                                       Report Title, Recommendation Summary
                                                              	 R = Recommendation number
Report Number                        Issue Date               	 TID = Target Implementation Date
CA-AR-11-007                         9/30/2011         Contract Postal Units Contract Oversight

                                                       R-1 — Modify contract postal units’ contracts to include clauses identifying the submission of revenue data as an official
                                                             invoice from the contractor. Contractors should be notified of the clause addition and informed that their revenue data
                                                             submission constitutes an official invoice.

                                                       R-2 — Create a process to ensure the contracting officer or contracting officer’s representative validates and certifies invoices
                                                             prior to payment, using data maintained in the Contract Postal Unit Technology system.




APPENDIX G

Status of Peer Review Recommendations
Federal audit organizations undergo an external quality control assessment by their peers every 3 years. The Dodd-Frank Wall Street Reform and Consumer
Protection Act of 2010 requires an appendix reporting on 1) any Office of Inspector General peer reviews conducted during the semiannual period; and
2) any outstanding recommendations from any previous or current peer review that remain outstanding or have not been fully implemented.

Office of Audit

Internal Peer Reviews
On March 31, 2010, the Department of Defense OIG (DOD OIG) issued a quality control review report of our audit organization. We received a peer review rating of pass.
All outstanding recommendations have been implemented as of March 31, 2011.
A copy of this quality control review report, in its entirety, can be viewed on the USPS OIG website at www.uspsoig.gov.

External Peer Reviews
None conducted during this period.


Office of Investigations

Internal Peer Reviews
In Spring 2011, the Office of Inspector General for the Department of Justice (DOJ OIG) conducted a peer review of our Office of Investigations. They reviewed our
Investigative Operations at our headquarters and at two of our field offices. We received a letter from the DOJ OIG, dated June 20, 2011, containing a review of the
results. There were no specific findings or recommendations.


External Peer Reviews
None conducted during this period.




62 | Semiannual Report to Congress
                                                                                                                                                                                  APPENDIX H




APPENDIX H
Investigative Statistics*
For the period April 1 — September 30, 2011

                                                                                      Convictions/         Admin.                                                 Amt. to USPS       To Mgmt.
                                    Investigations                  Indictments/           Pretrial        Action               Cost      Fines, Restitution,   (from previous      for Admin.
                                       Completed       Arrests      Informations       Diversions**         Taken          Avoidance         and Recoveries          column)***         Action
Theft, Delay, or Destruction                   782          183               186              206             370                  —             $548,365            $116,598             401
of Mail by Employees or
Contractors
Injury Compensation                            358           19                  23              16             60      $64,852,970              $8,173,156         $4,151,791               87
Fraud
Official Misconduct                            534           35                  29             34             328             $178,588          $1,713,718          $253,843              422
Financial Fraud                                370           81                  85             85             202        $1,675,000             $1,774,644         $1,618,522             234
Contract Fraud                                  85           15                  19              14            145       $14,945,197            $8,779,823          $4,874,095               77
TOTAL                                        2,129         333                342              355           1,105      $81,651,755            $20,989,706        $11,041,849            1,221


* Statistics include joint investigations with other law enforcement agencies.
** Convictions reported in this period may be related to arrests in prior reporting periods.
*** Amounts include case results of joint investigations with other OIG, federal, state, and local law enforcement entities.




For the period October 1, 2010 — September 30, 2011
                                                                                      Convictions/         Admin.                                                 Amt. to USPS       To Mgmt.
                                    Investigations                  Indictments/           Pretrial        Action               Cost      Fines, Restitution,   (from previous      for Admin.
                                       Completed       Arrests      Informations       Diversions**         Taken          Avoidance         and Recoveries          column)***         Action
Theft, Delay, or Destruction                 1,399         383                392              408             763                  —            $1,124,017          $409,495              863
of Mail by Employees or
Contractors
Injury Compensation                            635           36                  44             34             133     $ 150,901,540          $299,332,338        $58,300,873              160
Fraud 1 & 2
Official Misconduct                            915           38                  88              78            605             $178,588         $5,528,805           $349,264              735
Financial Fraud                                704          141               145              187             421        $3,030,000             $3,829,188         $3,599,198             473
Contract Fraud                                 137           21                  39              29            192      $ 16,534,195         $ 418,843,980        $16,315,800              103
TOTAL                                        3,790         659                708              736           2,114     $170,644,323          $728,658,328         $78,974,630            2,334


* Statistics include joint investigations with other law enforcement agencies.
** Convictions reported in this period may be related to arrests in prior reporting periods.
*** Amounts include case results of joint investigations with other OIG, federal, state, and local law enforcement entities.

1
    Amount under Fines, Restitution, and Recoveries includes nearly $264.5 million from two pharmaceutical investigations.
2
    Amount under Amt. to USPS (from previous column) includes $42.5 million from one pharmaceutical investigation.




                                                                                                                                                                April 1 — September 30, 2011 | 63
APPENDIX I




APPENDIX I
Summary of U.S. Postal Inspection Service Actions Under 39 USC 3005 and 3007
For the period April 1— September 30, 2011


                                             Complaints      Consent               Cease &
Type of Scheme                                    Filed   Agreements   FROs   Desist Orders
Advance fee                                           1            1     —               1
Charity                                               2            2     —               2
Contests/sweepstakes                                 14           12      1              14   Financial Reporting on Investigative
Coupon fraud                                          1           —      —               1    Activities for the Postal Inspection
False billings                                        6            7      2              7    Service
Internet Auction                                     —            —      —              —     Type
Lotteries (foreign and domestic)                      9           14     —               14   Personnel                     $169,700,057
Merchandise:                                                                                  Nonpersonnel                   $34,000,986
   Failure to furnish                                 3            1      2              3    TOTAL                        $203,701,043
   Failure to pay                                     3            2     —               2    Capital obligations             $2,467,633
Misrepresentation                                    14           14     —               14
Miscellaneous                                         9            6     —               9
Telemarketing                                        —            —      —              —
Work at home                                          2            2     —               2
TOTAL                                                64          61       5             69
Other Administrative Actions
Administrative Action Requests                                                           85
Temporary Restraining Orders Requested                                                   —
Temporary Restraining Orders issued                                                      —
Cases Using Direct Purchase Authority                                                     2
Civil Penalties (Section 3012) Imposed                                                   —
Test Purchases                                                                           —
Withholding Mail Orders Issued                                                           22
Voluntary Discontinuances                                                                —


Administrative Subpoenas Requested by the Postal Inspection Service
There was one request during the reporting period.




64 | Semiannual Report to Congress
                                                                                                                                                                            APPENDIX J




APPENDIX J
Closed Congressional and Board of Governors’ Inquiries
For the period April 1­— September 30, 2011

This appendix lists the congressional and Board of Governors inquiries the OIG closed during this reporting period. OIG units reviewed or investigated these
inquiries to resolve allegations and disputes, and to help identify systemic issues. Inquiries are listed in the chronological order of receipt.




Inspector General Investigations (32)
Requestor                  Allegation/Concern                                                     Major Findings/Resolution                                                 Closure Date
Senator, New York          Non-receipt of an international package.                               Our Office of investigations (OI) confirmed the loss, but found no               5/20/11 
                                                                                                  evidence of misconduct by individual postal employees.

Representative, Virginia   A postal manager manipulated mail volumes in order to secure a         An investigation did not substantiate allegations of manipulated mail            8/03/11 
                           favorable performance rating and misused government computers.         volume reports, and found Internet usage was limited and within
                                                                                                  postal standards.
Senator, Ohio              Management fraudulently adjusted employee time and attendance          Our Office of Audit (OA) found management control of time and                    4/05/11 
                           records; complainant also presents whistleblower retaliation issues.   attendance recordkeeping was not adequate to ensure employee
                                                                                                  workhours were reported accurately. In 2010, we provided the
                                                                                                  Senator information on how the complainant can file a retaliation
                                                                                                  complaint form with our agents.
Representative,            Non-receipt of an IRS check while mail was on hold.                    An investigation confirmed the check was cashed by a third party,                5/10/11 
Michigan                                                                                          but found no evidence of misconduct by postal employees.

Senator, New York          Non-receipt of two packages mailed from the Verona Post Office.        An investigation found no evidence of misconduct by postal                        5/17/11 
                                                                                                  employees and did not determine the cause for the loss.
Senator, Virginia          Hostile work environment at a Post Office; contested findings of a     OI found area management was not aware that recommendations                      8/12/11 
                           previous OIG review.                                                   from a 2010 climate assessment had not been implemented. In
                                                                                                  April and May, the district took action addressing recommendations.
                                                                                                  Employee survey results and other documentation point to an
                                                                                                  improving workplace environment.
Senator, Maryland          Non-receipt of medication and mail arriving opened or damaged.         An investigation found no evidence of misconduct by individual                   8/12/11 
                                                                                                  postal employees and no pattern of theft of prescription medications
                                                                                                  in the delivery area.
Representative,            Non-receipt of mail.                                                   An investigation found additional losses along the carrier route                 5/10/11 
California                                                                                        during the timeframe investigated. However, we were unable to
                                                                                                  locate the missing mail or identify those responsible.
Representative,            Postal manager misconduct.                                             The OIG found the allegations had been fully addressed in 2004                   8/02/11 
New Jersey                                                                                        investigative work. OI investigated but did not substantiate additional
                                                                                                  allegations arising during interview, concerning an OIG employee
                                                                                                  improperly releasing confidential information and the postal manager
                                                                                                  improperly arranging postal relocation benefits for another employee.
Alderman, Illinois         Delay of political mail in the Chicago District.                       An investigation found postal workers handled mail properly and                  1/10/11
                                                                                                  according to postal procedures. There were no reports of delayed or
                                                                                                  curtailed mail at the time the mailing in question was handled at the
                                                                                                  local postal facility.
Representative, Ohio       Non-receipt of a letter containing cash.                               An investigation did not identify any potential suspects, but noted              8/24/11 
                                                                                                  a pattern of complaints relating to the location where the item was
                                                                                                  mailed. Testing and recovery attempts produced no results.




                                                                                                                                                           April 1 — September 30, 2011 | 65
APPENDIX J




Requestor                 Allegation/Concern                                                    Major Findings/Resolution                                                 Closure Date
Representative,           Non-receipt of four packages.                                         An investigation determined the losses were attributable to delivery           4/22/11 
California                                                                                      issues as well as theft. The Postal Service contract driver admitted
                                                                                                stealing numerous Priority Mail packages during the timeframe of this
                                                                                                reported loss. We presented our findings to the U.S. Attorney’s Office
                                                                                                (USAO) for prosecution, and the contract driver's employment was
                                                                                                terminated.
Representative, Indiana   Postal employees gave a community group's post office box mail to     An investigation found management explored the incident at the                 5/10/11 
                          an unauthorized person.                                               time. They found employees had not followed proper procedures.
                                                                                                Management apologized to the group, secured the box, and provided
                                                                                                refresher training to clerks.
Representative,           Hostile work environment at an Alabama Post Office; retaliation for   OI reviewed workplace issues and reported findings to management.              8/12/11 
Alabama                   filing an Equal Employment Opportunity (EEO) complaint.               Based on our report, the Alabama District office advised they would
                                                                                                take immediate action addressing workplace conflict. As to the
                                                                                                EEO retaliation allegation, we do not intervene in matters under the
                                                                                                jurisdiction of other agencies.
Senator, Washington       The Postal Service improperly reinstated an employee convicted of     OI's earlier investigation of misconduct resulted in referrals for             4/08/11 
                          mail delay and destruction.                                           prosecution and administrative action. USAO declinations of
                                                                                                prosecution are a matter of prosecutorial discretion. Postal officials
                                                                                                advised us the subject is no longer a postal employee.
Senator, Missouri         Non-receipt of international mail.                                    An investigation determined the losses were attributable to delivery           10/4/10
                                                                                                issues, and in some cases, theft. A New York-based employee
                                                                                                was charged and confessed to stealing international mail, and
                                                                                                prosecutors will identify the victims, possibly including the Senator's
                                                                                                constituent.
Representative, Florida   A postal employee intentionally delayed or discarded mail.            OI found no evidence of misconduct by postal employees, but                    6/30/11 
                                                                                                proactively met with employees to reinforce proper delivery policy.
Senator, North Carolina   Theft of two gift cards mailed from North Carolina.                   An investigation substantiated the allegations. A postal employee              4/28/11 
                                                                                                was arrested, charged with the theft in state court, and is no longer
                                                                                                employed at the Postal Service.
Representative, Florida   A postal employee in Austin, Texas, stole from a priority package     We did not substantiate the allegation, and could not establish the            8/17/11 
                          sent to Florida.                                                      final disposition of the package. The Austin-based shipper made
                                                                                                allegations against specific employees after they refused to deviate
                                                                                                from postal policy for accepting his shipments.
Senator, Maryland         Two OIG agents denied complainant union representation during an      An investigation did not substantiate the allegations. Complainant             8/18/11 
                          interview and falsely told management they had a signed confession.   declined representation during the interview. We determined no
                                                                                                written confession existed, and that agents reported her oral
                                                                                                admissions to management.
Senator, Iowa             A constituent requested copies of an investigative report.            Our FOIA unit released documents.                                               5/5/11
Representative,           A postal employee stole books.                                        An investigation confirmed the loss, but found no evidence of                   /12/11 
Pennsylvania                                                                                    misconduct by postal employees, and no trace of the package, after
                                                                                                it left the Philadelphia Network Distribution Center.
Senator, Virginia         Priority Mail to and from Alabama was significantly delayed at the    An investigation found no evidence of intentional delay, but could not         5/20/11 
                          Norfolk P&DC.                                                         determine where the delay occurred because no enroute scan data
                                                                                                was available.
Senator, Virginia         Employee misconduct at the Postal Inspection Service.                 We did not substantiate allegations that supervisors did not have              8/12/11 
                                                                                                authority to record, listen to, and address issues arising from call
                                                                                                center activity for quality control and training purposes.
Senator, Florida          Hostile work environment at a Florida Vehicle Maintenance Facility    We noted a management review found the climate was strained, not               9/19/11 
                          (VMF).                                                                hostile. After our inquiry, management advised they and the union
                                                                                                were planning a joint meeting with VMF employees.
Senator, Arizona          Florida postal employees are destroying or stealing mail because      An investigation did not substantiate the claim.                               6/27/11 
                          resident filed previous complaints.




66 | Semiannual Report to Congress
                                                                                                                                                                             APPENDIX J




Requestor                 Allegation/Concern                                                      Major Findings/Resolution                                                  Closure Date
Representative, Indiana   A supervisor took no action when a casual employee reported             An investigation found management promptly addressed the                          8/17/11 
                          an attempt to delay mail, and management retaliated against the         mishandling of mail allegation. Reprisal allegations do not meet the
                          employee for reporting the incident.                                    required elements for a whistleblower case.
Representative            A postal employee tampered with an estranged spouse's mail.             We did not substantiate the allegation.                                           8/15/11 
Wisconsin
Representative, Utah      Requests the status of investigation.                                   OIG Government Relations Director briefed requestor on the closed                 5/24/11 
                                                                                                  investigation.
Senator, New York         Non-receipt of three packages mailed from a New York Post Office,       An investigation produced no indications of theft and no investigative            7/14/11 
                          and returned packages.                                                  leads. Two of the packages have been accounted for.
Representative, New       Non-receipt of mail at a university-operated postal unit.               An investigation did not identify any suspect, pattern of loss, or                9/19/11 
Hampshire                                                                                         explanation for the mail problems.
Representative,           Delay or theft of financial mail by postal employees.                   An investigation did not substantiate the claim.                                  9/07/11 
California



General Counsel (7)
Requestor                 Allegation/Concern                                                      Major Findings/Resolution                                                  Closure Date
Representative, Iowa      Insufficient information provided in a response to a FOIA request.      The OIG General Counsel briefed the member on OI's investigative                  10/7/10
                                                                                                  work.
Senator, Missouri         Hostile work environment and retaliation for filing an EEO complaint.   We declined to intervene in matters under the jurisdiction and review             6/28/11 
                                                                                                  of other agencies.
Representative,           A postal worker requests a copy of video footage compiled during an     FOIA staff denied the request, but invited the requestor to narrow her            6/29/11 
Michigan                  OIG investigation.                                                      request to a specific time period.
Senator,                  Complainant response to our previous reply, which did not               No new information was provided to cause a review of the previous                 8/25/11 
Massachusetts             substantiate whistleblower retaliation allegations.                     investigative work; complainant also states he is pursuing other
                                                                                                  remedies.
Representative,           Request for copies of notes from a meeting with an OIG agent.           The FOIA unit processed and released documents.                                   9/23/11 
North Carolina
Representative, Texas     FOIA request for results of any OIG investigation into a mail theft     The FOIA unit was issuing a response to a request they received                   8/29/11 
                          complaint.                                                              earlier from the constituent.
Representative, Florida   Hotline complainant wants to know what personal information the         OIG provided information on retention policy.                                     9/28/11
                          agency retained, and if it was associated with a personnel record. 



Inspector General Audits/Risk Analysis Research Center Reports (16)
Requestor                 Allegation/Concern                                                      Major Findings/Resolution                                                  Closure Date
Representative, Oregon    Postal managers fraudulently changed time and attendance records,       The OA found management control of time and attendance                             4/5/11
                          causing employees to be underpaid..                                     recordkeeping at audited locations was not adequate to ensure
                                                                                                  employee work hours were reported accurately..
Senator, Iowa             Inaccurate injury and illness reports submitted to Department of        OA concluded the Postal Service did not always record and report                  6/03/11 
                          Labor from the Des Moines Post Office.                                  injuries and illnesses in accordance with OSHA requirements.
Senator, Missouri         Management in Kansas City is fraudulently adjusting employee time       OA found management control of time and attendance recordkeeping                  4/05/11 
                          and attendance records.                                                 was not adequate to ensure employee workhours were reported
                                                                                                  accurately.
Representative,           Management is improperly changing employee time and attendance          OA found management control of time and attendance recordkeeping                  4/05/11 
Pennsylvania              records.                                                                was not adequate to ensure employee workhours were reported
                                                                                                  accurately.
Representative,           Management is improperly changing employee time and attendance          OA found management control of time and attendance recordkeeping                  4/05/11 
Missouri                  records.                                                                was not adequate to ensure employee workhours were reported
                                                                                                  accurately.




                                                                                                                                                            April 1 — September 30, 2011 | 67
APPENDIX J




Requestor                 Allegation/Concern                                                      Referred To                                                               Closure Date
Representative,           Postal Service Area Mail Processing (AMP) proposal to move the          OA found a valid business case exists to consolidate Beckley mail              4/21/11 
West Virginia             Beckley and Huntington facilities into the Charleston P&DC would        processing operations. OA provided findings about consolidating
                          move operations from high-efficiency locations to a location with low   Huntington operations in the previous SARC period.
                          efficiency rates, and where security and cost issues have not been
                          addressed.
Ranking Member,           Requests OIG review conflicts of interests in contracting with former   We issued two audits; Conflicts of Interest: Facility Leases and               9/02/11 
Senate Committee          Postal Service executives.                                              Contract Delivery Services, and later, The Sufficiency of Recent
                                                                                                  Policy Changes Regarding Contracting Conflicts of Interest. The first
                                                                                                  determined the Postal Service entered into leases that resulted in
                                                                                                  financial conflicts. The latter addressed issues related to contracting
                                                                                                  with former executives. New policy to avert direct or imputed
                                                                                                  conflicts of interest is in place.
Ranking Member,           Requests OIG review the effects Postal Service compliance rules         OA found the Postal Service has not always fully considered how                8/29/11 
Senate Committee          have on mailers.                                                        changes to mail compliance rules impact mailers. Specifically, the
                                                                                                  Postal Service did not always adequately estimate the cost to mailers
                                                                                                  of complying with proposed rules, collaborating with the mailing
                                                                                                  industry, and training and monitoring personnel to accept business
                                                                                                  mailings.
Senator, Ohio             Implementation of the Lima and Toledo mail processing facilities        OA concluded management did not ensure on-time performance                     4/01/11 
                          consolidation; based on complaints from constituents.                   and customer service were improved or maintained during the
                                                                                                  implementation of the consolidation.
Representative, Ohio      Implementation of the Lima and Toledo mail processing facilities        OA concluded management did not ensure on-time performance                     4/01/11 
                          consolidation; based on complaints from constituents.                   and customer service were improved or maintained during the
                                                                                                  implementation of the consolidation.
Representative,           Requests the OIG review consolidation plans for the Oshkosh             OA found although the consolidation would result in cost savings,              7/29/11 
Wisconsin                 and Green Bay mail processing facilities, and questions postal          adequate facility and machine capacity does not exist at the Green
                          assumptions about space available and costs of the move to Green        Bay P&DC to process the additional mail volume, and service could
                          Bay.                                                                    be negatively impacted.
Senator, Oregon           Requests OIG review the closure of the University of Oregon branch      OIG found the Postal Service followed applicable law and policies              7/25/11 
                          post office.                                                            and properly considered public comments and community impact.
                                                                                                  However, management omitted some operational costs in the
                                                                                                  proposal submitted to headquarters. OIG plans a comprehensive
                                                                                                  review of Postal Service-Operated Retail Facility Discontinuance
                                                                                                  Guide.
Representative,           Requests the OIG review a questionable AMP consolidation proposal       OA found a valid business case exists to consolidate originating mail          8/29/11 
Kentucky                  for consolidating the Bowling Green, Nashville, and Evansville mail     processing operations.
                          processing facilities. 
Chairman, House           Requests information on open and unimplemented                          OA provided a list, along with an explanation of our tracking                  4/29/11 
Committee                 recommendations.                                                        methods.
Ranking Member,           Requests the OIG detail an employee to a Senate committee for 6         Employee detailed to committee as requested.                                   5/03/11 
Senate Committee          months. 
Senator, Florida          Mismanagement of the grievance award process.                           The constituent does not allege any specific improprieties. We                 8/25/11 
                                                                                                  included an audit of grievance settlements and payments in our
                                                                                                  response.




68 | Semiannual Report to Congress
                                                                                                                                                                              APPENDIX J




Referrals (8)
Requestor                  Allegation/Concern                                                      Referred To                                                                Closure Date
Senator, Colorado          Requests the IG remind all postal facilities of Public Law 110-41,      Referred to Postal Service Government Relations Office (GRO)                      4/12/11 
                           concerning flag displays.
Representative, Florida    Postal employee transfer request.                                       Referred to Postal Service GRO.                                                   4/20/11 
Representative,            Wrongful termination because of a disability.                           Referred to Postal Service GRO.                                                   4/28/11 
New York
Representative, New        Mail fraud scheme.                                                      Referred to USPIS.                                                                5/10/11 
Jersey
Council Member,            Request for information about the reconstruction of a postal facility   Referred to Postal Service GRO.                                                   6/28/11 
California                 in Long Beach.
State Official, New York   Opposing the possible of closing the New Windsor Post Office.           Referred to Postal Service GRO.                                                   8/25/11 
City Council Member,       Reaction to possible closure of five postal stations in Queens.         Referred to Postal Service GRO.                                                   8/25/11 
New York
Vice President, County     A petition requesting the Postal Service save the Union Church Post     Referred to Postal Service GRO.                                                   8/25/11 
Board of Supervisors,      Office from closure. 
Mississippi

Request for IG Opinion/Testimony (3)
Requestor                  Allegation/Concern                                                      Referred To                                                                Closure Date
Chairman, House            Request for OIG appearance at a hearing to examine Federal              The Assistant Inspector General for Investigations testified at the               4/13/11 
Subcommittee               Employees' Compensation Act.                                            hearing.
Chairman and Ranking       Request for advisory opinion on the most secure way for agencies to     The OIG discussed how various mailing options limit exposure to loss              5/04/11 
Member, Senate             mail sensitive, unclassified documents to Congress.                     and unauthorized access.
Committee
Chairman, Senate           Requests Inspector General appear at a hearing on the Postal            The IG testified on May 17.                                                       5/17/11 
Subcommittee               Service's Financial Crisis.




                                                                                                                                                             April 1 — September 30, 2011 | 69
FREEDOM OF INFORMATION ACT/ WORKPLACE ENVIRONMENT




SUPPLEMENTAL INFORMATION                                                          SUPPLEMENTAL INFORMATION
Freedom of Information Act                                                        Workplace Environment
The OIG’s Freedom of Information Act (FOIA) Office operates independently         The OI Workplace Environment unit reviews workplace environment and
of, but frequently coordinates with, its counterparts at the Postal Service and   operational issues that may affect workplace climate in postal facilities
the Postal Inspection Service. The FOIA Office receives requests for records      through the country. The OIG Hotline is the usual source for the complaints,
from the public, the media, and postal employees. The FOIA, according to          but occasionally members of Congress, the Governors, and postal
the Department of Justice, “generally provides that any person has a right,       management will raise concerns or forward complaints appropriate for
enforceable in court, to obtain access to federal agency records, except to       review by the unit. Complaint topics range from sexual harassment and
the extent that such records (or portions of them) are protected from public      discrimination to workplace safety. Workplace Environment reviews are
disclosure by one of nine exemptions.”                                            designed to identify systemic, rather than individual, issues and foster
                                                                                  postal management efforts toward providing employees a stress- and
For the period April 1 — September 30, 2011                                       adversity-free work environment.

                                                                                  The unit accepts complaints from any postal employee, including OIG and
                                                                                  Postal Inspection Service staff. Reviews may result in fact-finding reports
Requests                                                Number of Requests        to management or referral for specific suggested action, such as climate
Carryover from prior period                                                  6    assessments.
Received during period                                                     268
                                                                                   Activities
Total on hand during period                                                274
                                                                                   For the period April 1 — September 30, 2011
Actions                                                 Number of Requests
Processed during the period                                                256     Complaints received                                                          Total
   Requests denied in full                                                  10     Carryover from prior period                                                    35
   Requests denied in part                                                  81     Complaints received from OIG Hotline, Congress, Governors, management,        255
                                                                                   internal, and other
   Requests granted in full                                                  5
                                                                                   Total on hand during this period                                              290
   No records                                                               17
   Requests referred*                                                      127
   Requests withdrawn                                                        7     Workplace environment actions                                                Total
   Fee-related reasons                                                      —      Complaints reviewed and closed during the period                              238
   Records not reasonably described                                         —      Referred to Postal Inspection Service                                          —
   Not a proper FOIA request for some other reason                           4     Referred to Office of Audit                                                    —
   Not an agency record                                                      2     Referred to Office of Investigations                                           —
   Duplicate request                                                         3     Referred to Workplace Environment                                              12
                                                                                   Referred to Hotline                                                             7
Balance                                                 Number of Requests
                                                                                   Summary of findings to Congress/BOG/Postal Service management                  42
Balance at the end of the period (pending)                                  18
                                                                                   Referred to FOIA                                                               —
                                                                                   Referred to AIG for Investigations                                             —
Processing Days                                              Number of Days
                                                                                   Referred to database for statistical analysis and possible systemic review    171
Median processing days to respond to a FOIA request                           1
                                                                                   Complaints pending at the end of the period                                     6




70 | Semiannual Report to Congress
The U.S. Postal Service has two
law enforcement agencies with
distinct areas of investigative
responsibility to serve the needs
of stakeholders, postal employees,
and the American public.


Who do I call?
Office of Inspector General                    Postal Inspection Service
■■ 	 Theft, delay, or destruction of mail by   ■■ 	 Security of employees, facilities,
     employees and contractors                      and equipment
■■ 	 Workers’ compensation fraud               ■■ 	 Revenue and postage fraud

■■ 	 Embezzlements and financial crimes        ■■ 	 International mail security

■■ 	 Contract fraud                            ■■ 	 Violent crimes:

■■ 	 Kickbacks
                                                    - Threats and assaults of employees
                                                    - Burglaries and robberies
■■ 	 Computer crimes
                                               ■■ 	 Mail theft by nonemployees
■■ 	 Narcotics
                                               ■■ 	 Dangerous mail and bombs
■■ 	 Employee misconduct
                                               ■■ 	 Mail fraud
■■ 	 Internal affairs and executive
                                               ■■ 	 Identity theft
     investigations
                                               ■■ 	 Narcotics in the mail
■■ 	 Whistleblower reprisals
                                               ■■ 	 Child pornography and obscenity


Contact: 888-USPS OIG                          Contact: 877-876-2455
www.uspsoig.gov                                http://postalinspectors.uspis.gov/
U.S. POSTAL SERVICE OFFICE OF INSPECTOR GENERAL
1735 N. Lynn Street, Arlington, VA 22209-2020
1-888-USPS-OIG (1-888-877-7644) Fax: 703-248-2291 www.uspsoig.gov




72 | Semiannual Report to Congress
